<html>
<title> - USING UNMANNED AERIAL SYSTEMS WITHIN THE HOMELAND: SECURITY GAME-CHANGER?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
USING UNMANNED AERIAL SYSTEMS WITHIN THE HOMELAND: SECURITY GAME-CHANGER?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2012

                               __________

                           Serial No. 112-107

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
80-848                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f3e4fbd4f7e1e7e0fcf1f8e4baf7fbf9ba">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management:
  Prepared Statement.............................................    30
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    10

                               WITNESSES
                                Panel I

Mr. Todd E. Humphreys, Ph.D., Assistant Professor, Cockrell 
  School of Engineering, The University of Texas at Austin:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13

                                Panel II

Mr. Gerald L. Dillingham, Ph.D., Director, Physical 
  Infrastructure Issues, Government Accountability Office:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Chief Deputy William R. McDaniel, Montgomery County Sheriff's 
  Office, Conroe, Texas:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47
Ms. Amie Stepanovich, Litigation Counsel, Electronic Privacy 
  Information Center:
  Oral Statement.................................................    49
  Prepared Statement.............................................    50

                             FOR THE RECORD

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Statement of Michael Toscano, President and CEO, Association 
    for Unmanned Vehicle Systems International (AUVSI)...........     6
  Letter From the Air Line Pilots Association International......     9
Association for Unmanned Vehicle Systems International:
  Unmanned Aircraft System Operations Industry ``Code of 
    Conduct''....................................................    61


   USING UNMANNED AERIAL SYSTEMS WITHIN THE HOMELAND: SECURITY GAME-
                                CHANGER?

                              ----------                              


                        Thursday, July 19, 2012

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:40 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Long, Duncan, Marino, 
Keating, Clarke, and Davis.
    Also present: Representatives Cuellar and Brady.
    Mr. McCaul. The committee will come to order. First and as 
a matter of business, Mr. Keating is running late, and I would 
ask unanimous consent that Mr. Cuellar sit as the Ranking 
Member of the subcommittee for this hearing. Seeing no 
objection? Mr. Duncan, you have no objection to that?
    I now recognize myself for an opening statement.
    Unmanned aerial systems, commonly known as drones, have 
been a game-changer for our men and women serving in Iraq and 
Afghanistan. The systems have provided our troops with much-
needed eyes in the skies and have taken the fight to the enemy, 
eliminating some of the most dangerous al-Qaeda terrorists. 
Drones have also increased our capabilities to secure our 
borders and aid our first responders.
    U.S. Customs and Border Protection began first looking at 
these drones back in 2004. Now CBP owns 10 UAS aircraft. These 
systems have been used to surveil drug smuggler tunnels, video 
dams, bridges, levees, riverbeds at risk of flooding, and 
assist with the deployment of National Guard resources 
responding to local flooding. CBP has also flown missions in 
support of the Border Patrol, Texas Rangers, U.S. Forest 
Service, FBI, and others. The systems have become a force 
multiplier for military operations and for border security.
    However, we are on the edge of a new horizon: Using 
unmanned aerial systems within the homeland. Currently, there 
are 200 active Certificates of Authorization issued by the 
Federal Aviation Administration to over 100 different entities, 
such as law enforcement departments and academic institutions, 
to fly drones domestically. This map on the monitor shows the 
locations of COA, or COA recipients as of April 2012. The 
number of recipients since that time has in fact increased.
    The FAA plans to select six test sites around the country 
for the use of non-Government drones this year and plans to 
allow the deployment of non-Government drones Nation-wide by 
the year 2015.
    While the FAA is responsible for ensuring these systems fly 
safely in U.S. airspace, with only 2\1/2\ short years until 
drones begin to dominate the skies in the U.S. homeland, no 
Federal agency is taking the lead to deal with the full 
implications of using unmanned aerial systems and developing 
the relevant policies and guidelines for their use. This is 
despite the fact that 4 years ago the Government Accountability 
Office recommended to the Secretary of Homeland Security that 
she direct the TSA Administrator to examine the security 
implications of future, non-military UAS operations in the 
National airspace system and take any actions deemed 
appropriate.
    GAO's recommendation was well-founded because in 2004, TSA 
issued an advisory that described possible terrorist interest 
in using UASs as weapons. The advisory noted the potential for 
UASs to carry explosives or disperse chemical or biological 
weapons. It discussed how the Revolutionary Armed Forces of 
Colombia, or FARC, and Hezbollah were interested in acquiring 
these UASs. While the advisory acknowledged there was no 
credible evidence to suggest that terrorist organizations 
planned to use these systems in the United States, it did state 
that the United States Government was concerned that these 
aerial vehicles could be modified and used to attack key assets 
and critical infrastructures within the United States.
    These concerns were validated just last week, or last year 
when a Massachusetts man agreed to plead guilty to attempting 
to damage and destroy Federal buildings. The individual was 
arrested in September 2011 after an undercover FBI 
investigation revealed his plot to use multiple remote 
controlled aircraft laden with explosives to collapse the dome 
of the United States Capitol and attack the Pentagon using that 
UAV system.
    As if this plot wasn't frightening enough, cutting-edge 
research out of the University of Texas at Austin has revealed 
yet more security vulnerabilities. Specifically, researchers 
from the Cockrell School of Engineering led by Dr. Todd 
Humphreys, who is our first witness today, proved that civilian 
unmanned aerial systems can be hacked into and hijacked with a 
relatively small investment of money and time. These findings 
are alarming and have revealed a gaping hole in the security of 
using unmanned aerial systems domestically. Now is the time to 
ensure these vulnerabilities are mitigated to protect our 
aviation system as the use of unmanned aerial systems continue 
to grow.
    The Department of Homeland Security's mission is to protect 
the homeland. Unfortunately, DHS seems either disinterested or 
unprepared to step up to the plate to address the proliferation 
of unmanned aerial systems in U.S. airspace. The potential 
threats they pose to our National security and the concerns our 
citizens have of how drones fly over cities will be used, 
including protecting civil liberties of individuals under the 
Constitution.
    For example, in discussions with my subcommittee staff 
prior to this hearing, Department officials repeatedly stated 
that the Department does not see this function, the domestic 
use of drones, as part of their mission and has no role in the 
domestic unmanned aerial systems. I strongly disagree. I can't 
imagine how they would find that they have no role when there 
is a terror plot thwarted by the FBI attempting to hit the 
United States Capitol and the Pentagon. What more Homeland 
Security interest could there possible be?
    DHS's lack of attention about this issue is truly 
incomprehensible.
    It should not take a 9/11-style attack by a terrorist 
organization such as Hezbollah or a lone wolf-inspired event to 
cause DHS to develop guidance addressing the security 
implications of domestic drones. It should not take a hearing 
to force the DHS to develop policy when it comes to the 
security of our homeland, and what it should take is 
responsible leadership willing to recognize a potential threat 
and take the initiative. DHS lacks this initiative and I am 
concerned that DHS is reverting back to a pre-9/11 mindset, 
which the 9/11 Commission described as a lack of imagination in 
identifying threats and protecting the homeland.
    We are disappointed that DHS declined to testify here 
today. This is simply another example of how DHS leadership is 
failing to get ahead of the curve on an issue which directly 
impacts the security of the United States. I hope our 
witnesses' testimony will be a call to action for the 
Department. During today's testimony we look forward to 
learning more about the security issues related to the domestic 
use of drones and what DHS needs to do to prepare for their 
widespread use.
    [The statement of Mr. McCaul follows:]

                Statement of Chairman Michael T. McCaul
                             July 19, 2012

    Unmanned aerial systems, commonly known as ``drones'', have been a 
game changer for our men and women serving in Iraq and Afghanistan. 
These systems have provided our troops with much-needed ``eyes in the 
sky'' and have taken the fight to the enemy, eliminating some of the 
most dangerous al-Qaeda terrorists. Drones have also increased our 
capabilities to secure our borders and aid first responders.
    U.S. Customs and Border Protection began first looking at using 
drones back in 2004. Now, CBP owns ten UAS aircraft. These systems have 
been used to surveil drug smuggling tunnels; video dams, bridges, 
levees, and riverbeds at risk of flooding; and assist with the 
deployment of National Guard resources responding to local flooding. 
CBP has flown missions in support of the Border Patrol, Texas Rangers, 
U.S. Forest Service, FBI, and others. These systems have become a force 
multiplier for military operations and border security.
    However, we are now on the edge of a new horizon: Using unmanned 
aerial systems within the homeland. Currently, there are about 200 
active Certificates of Authorization issued by the Federal Aviation 
Administration to over 100 different entities, such as law enforcement 
departments and academic institutions, to fly drones domestically. This 
map shows the location of COA recipients as of April 2012. The number 
of recipients since that time has increased.
    The FAA plans to select six test sites around the country for the 
use of non-Government drones this year and plans to allow the 
deployment of non-Government drones Nation-wide by 2015.
    While the FAA is responsible for ensuring these systems fly safely 
in U.S. airspace, with only 2\1/2\ short years until drones begin to 
dominate the skies in the U.S. homeland, no Federal agency is taking 
the lead to deal with the full implications of using unmanned aerial 
systems and developing the relevant policies and guidelines for their 
use. This is despite the fact that 4 years ago the Government 
Accountability Office recommended the Secretary of Homeland Security 
direct the TSA Administrator to examine the security implications of 
future, non-military UAS operations in the National airspace system and 
take any actions deemed appropriate.
    GAO's recommendation was well-founded because in 2004 TSA issued an 
advisory that described possible terrorist interest in using UASs as 
weapons. The advisory noted the potential for UASs to carry explosives 
or disperse chemical or biological weapons. It discussed how the 
Revolutionary Armed Forces of Columbia, or FARC, and Hezbollah were 
interested in acquiring UASs. While the advisory acknowledged there was 
no credible evidence to suggest that terrorist organizations planned to 
use these systems in the United States, it did state that the U.S. 
Government was concerned that these aerial vehicles could be modified 
and used to attack key assets and critical infrastructure in the United 
States.
    These concerns were validated just last week when a Massachusetts 
man agreed to plead guilty to attempting to damage and destroy Federal 
buildings. The individual was arrested in September 2011 after an 
undercover FBI investigation revealed his plot to use multiple remote-
controlled aircraft laden with explosives to collapse the dome of the 
U.S. Capitol and attack the Pentagon.
    As if this plot wasn't frightening enough, cutting-edge research 
out of the University of Texas at Austin has revealed yet more security 
vulnerabilities. Specifically, researchers from the Cockrell School of 
Engineering led by Dr. Todd Humphreys proved that civilian unmanned 
aerial systems can be hacked into and hijacked with a relatively small 
investment of money and time. These findings are alarming and have 
revealed a gaping hole in the security of using unmanned aerial systems 
domestically. Now is the time to ensure these vulnerabilities are 
mitigated to protect our aviation system as the use of unmanned aerial 
systems continues to grow.
    The Department of Homeland Security mission is to protect the 
homeland. Unfortunately, DHS seems either disinterested or unprepared 
to step up to the plate to address the proliferation of Unmanned Aerial 
Systems in U.S. air space, the potential threats they pose to our 
National security, and the concerns of our citizens of how drones 
flying over our cities will be used including protecting civil 
liberties of individuals under the Constitution. For example, in 
discussions with my subcommittee staff prior to this hearing, 
Department officials repeatedly stated the Department does not see this 
function (domestic use of drones) as part of their mission and has no 
role in domestic unmanned aerial systems. I strongly disagree.
    DHS's lack of attention about this issue is incomprehensible. It 
should not take a 9/11-style attack by a terrorist organization such as 
Hezbollah or a lone wolf-inspired event to cause DHS to develop 
guidance addressing the security implications of domestic drones. It 
should not take a hearing to force DHS to develop policy when it comes 
to the security of our homeland. What it should take is responsible 
leadership willing to recognize a potential threat and take the 
initiative. DHS lacks that initiative. I am concerned DHS is reverting 
back to a pre-9/11 mindset, which the 9/11 Commission described as a 
lack of imagination in identifying threats and protecting the homeland.
    We are disappointed DHS declined to testify today. This is simply 
another example of how DHS leadership is failing to get ahead of the 
curve on an issue which directly impacts the security of the United 
States. I hope that our witnesses' testimony will be a call to action 
for the Department. During today's testimony, we look forward to 
learning more about the security issues related to the domestic use of 
drones and what DHS needs to do to prepare for their widespread use.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. McCaul. With that, the Chairman now recognizes the 
Ranking Member, I guess pro tem, Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Mr. Chairman. Thank you 
for this opportunity to be here with you as the Ranking Member 
for the Border-Maritime where we deal with border security and 
dealing with some of the UAVs that I think you and I have 
worked on together. It certainly gives us an opportunity, and 
also as the co-chair of the Congressional Unmanned System 
Caucus with Congressman Buck McKeon. Just for informational 
purposes, Members, we do have tomorrow a caucus meeting, and we 
are going to have Members, representatives from the FBI, DHS, 
CBP tomorrow at 10:00 at the Rayburn Room 2261. I will give a 
copy to the Members here. This will be an excellent opportunity 
for Members and their staff to learn about current and future 
domestic law enforcement use of unmanned aerial vehicles.
    We have, Buck McKeon and myself, have spent a lot of time 
with other Members of the caucus looking at the issues that you 
have brought up, Mr. Chairman, privacy issues that have been 
brought up, and as you know a lot of the privacy issues have 
already been decided by the Supreme Court. All we are looking 
at is using a different type of platform. So whether it is a 
helicopter, an airplane, or in this case a UAV, a lot of those 
issues have been addressed by the Supreme Court issues, and 
there is 1, 2 pages that I have though. So if anybody wants to 
learn about the privacy issues on drones or UAVs, please 
contact my office or Buck's office.
    But the other thing, Mr. Chairman, you do bring up a lot of 
good points that I think we need to cover. Good questions. I 
look forward to hearing from my UT graduate also, from UT. I do 
have two degrees from UT, and Doctor, it is a pleasure meeting 
you. I do have a few questions for you on that, but I think 
this type of a dialogue would be good to talk about the UAVs.
    One last thing, Mr. Chairman, as you mentioned, the FAA, we 
did pass the reauthorization of the FAA that talks about the 
integration of more civilian UAVs and there are different steps 
we have brought in. If you haven't talked to the FAA, I would 
ask you to spend some time with the FAA because they have 
certain steps that they will be going into the future use on 
this. I know that the Ranking Member, Mr. Keating, for this 
particular subcommittee is on his way. He does have a 
statement. I am not going to read his statement. He will be up 
here and if you will give him the opportunity to also make that 
statement when he shows up.
    But at this time, Mr. Chairman, thank you for allowing me 
to be here with you.
    Mr. McCaul. I thank the Ranking Member, and before I 
continue I ask unanimous consent to include a statement from 
Mr. Michael Toscano, president and CEO of the Association for 
Unmanned Vehicle Systems International, and Captain Lee Moak, 
the president of the Airline Pilots Association, describing the 
domestic use of UAS, both of whom are very much in favor of 
this hearing. Hearing no objection, so ordered.
    [The statements of Mr. Toscano and Mr. Moak follow:]

   Statement of Michael Toscano, President and CEO, Association for 
             Unmanned Vehicle Systems International (AUVSI)

    On behalf of the Association for Unmanned Vehicle Systems 
International (AUVSI) and its members, I want to thank the committee 
for examining important issues relating to the expansion of unmanned 
aircraft systems (UAS) in the National Airspace System. Unmanned 
aircraft extend human potential and allow us to execute dangerous or 
difficult tasks safely and efficiently, saving time, saving money and, 
most importantly, saving lives.
    Whether it is helping search-and-rescue teams find a lost child, 
giving researchers a new understanding of hurricanes, or helping to 
fight wildfires, the applications of unmanned aircraft in the United 
States are virtually limitless. The incredible benefits of UAS aren't 
just theoretical, however; the technology is already serving important 
homeland security and safety functions here at home. For example:
  <bullet> U.S. Customs and Border Protection (CPB) currently uses UAS 
        to monitor the border to help interdict illicit trafficking. 
        According to the CPB's Office of Air and Marine, unmanned 
        aircraft in 2011 assisted with the seizure of thousands of 
        pounds of narcotics and the apprehension of dozens of 
        individuals taking part in illegal activities.
  <bullet> UAS aided the response to the severe flooding of the Red 
        River in the upper Midwest in April 2011. According to the U.S. 
        Customs and Border Protections Office, which leant the UAS to 
        the effort, the UAS mapped more than 800 nautical miles along 
        the flooded tributaries and basins in Minnesota and North 
        Dakota, and provided streaming video and analysis of the areas 
        affected by the flood such as levee integrity and ice damming. 
        The information provided by UAS gave forecasters more accurate 
        predictions of when and where the flooding would be at its 
        worst.
  <bullet> In 2008, NASA assisted the State of California in fighting 
        wildfires with the use of Ikhana, a UAS equipped with advanced 
        technology. The information about the fires collected by Ikhana 
        was transmitted to command centers within minutes, and then 
        distributed into the field giving firefighters crucial 
        situational awareness.
  <bullet> UAS were used to help search-and-rescue teams in the 
        aftermath of Hurricane Katrina. Scientists from the University 
        of South Florida worked with Florida rescuers in Mississippi, 
        in what was the first known use of small UAS for an actual 
        disaster. Brought in to survey Pearlington, MS, within 2 hours, 
        the responders had the data from the UAS showing that no 
        survivors were trapped and that the flood waters from the 
        cresting Pearl River were not posing an additional threat.
    These are just a few examples of the real-world security and safety 
applications of UAS. And there are likely many more. As with any new 
revolutionary technology, all of the potential uses of UAS have 
probably not been thought of yet.
    It's important to note, meanwhile, that, just as we recognize the 
beneficial security and safety functions of UAS, so too does the 
American public. According to a recent National poll conducted by 
Monmouth University in New Jersey, nearly two-thirds of Americans 
support the use of unmanned aircraft to protect the U.S. borders and 
control illegal immigration. Eighty percent of Americans support the 
use of unmanned aircraft to help in search-and-rescue missions.
    As we further integrate UAS into the U.S. airspace and recognize 
the corresponding security and safety benefits, we are also mindful 
that UAS operations and the technology itself must be as safe as 
possible. Safety has always been a top priority for the industry, and 
we are already working with a variety of stakeholders to ensure 
unmanned aircraft are integrated safely into our Nation's airspace. The 
industry is in regular contact with the Federal Aviation Administration 
(FAA) and we have met with, and continue to maintain an open dialogue 
with, representatives from the pilot community, air traffic 
controllers, and others with an interest in aviation safety.
    Safety is also one of three main pillars of the industry's new Code 
of Conduct published earlier this month. We understand and take very 
seriously the need to conduct UAS operations in safe manner that 
mitigates risk and instills confidence in our systems. Specifically 
with regard to safety, the guidelines recommend when and by whom UAS 
should be flown, address training and crew fitness requirements, call 
for a thorough risk assessment before each UAS flight and codify our 
commitment to respecting other users of the airspace, the privacy of 
individuals, and the concerns of the public.
    UAS users are already demonstrating a commitment to safety. Case in 
point is the Arlington, Texas Police Department. Home to one of the 
most fully developed UAS programs of any local law enforcement agency 
in the country, the Arlington Police Department works cooperatively 
with the FAA to safely fly its UAS for operational missions city-wide. 
The department has developed pre-flight checklists, flight and squawk 
logs, training protocols and a standard operating procedure for all UAS 
flights. This is a model for the safe usage of UAS we hope to instill 
in manufacturers and operators through our Code of Conduct.
    The UAS used by the Arlington Police Department also exemplify the 
types of unmanned aircraft we can expect to see more of in the coming 
years. The vast majority of UAS currently flying in the United States 
are small models that weigh under 25 pounds and can fit in the trunk of 
a car. The Arlington Police Department, for example, is using an 11-
pound mini-helicopter, which has proven effective for surveying multi-
car crashes on interstate highways. The UAS allow the crash scenes to 
clear more quickly, reduce pollution, and keep officers safe by 
reducing the amount of time they spend roadside. Even when the domestic 
airspace is further opened in 2015, most unmanned aircraft will be 
limited to no more than 55 pounds.
    In addition to safe operations, the industry is committed to 
building safeguards into UAS technology, such as ``sense and avoid'' 
systems and other innovations, which will enable a safe and orderly 
integration. For example, the U.S. Army recently completed a 2-week 
evaluation of a Ground Based Sense and Avoid (GBSAA) system at Dugway 
Proving Ground in Utah. The system uses 3-D radar and software 
algorithms to detect other aircraft flying in the vicinity of UAS, and 
safely steer UAS away from other aircraft. In both live and simulated 
tests, the system successfully recognized conflicts and navigated UAS 
away from other aircraft.
    The GBSAA system provides a window into the type of ``sense and 
avoid'' technologies available for the U.S. domestic airspace. 
Meanwhile, the development of this particular system is ahead of 
schedule. The Army has said the GBSAA could be deployed as early as 
March 2014, 1 full year ahead of the Army's initial estimate of 2015.
    In addition to ``sense and avoid'' systems, it is important to 
underscore that many UAS have multiple redundant systems that add extra 
layers of safety and security. This is an especially relevant point in 
light of the recent media attention surrounding so-called ``spoofing'' 
of a GPS signal by researchers at the University of Texas. ``Spoofing'' 
is not a new issue. Papers have been written on the subject since the 
1990s and, in 2001, the U.S. Department of Transportation broadly 
examined vulnerabilities in the GPS system relating to aviation, 
maritime, and ground applications.
    The industry is well-aware of ``spoofing.'' Meanwhile, as the DOT 
vulnerability assessment demonstrates, ``spoofing'' is not a concern 
unique to UAS. ``Spoofing'' has implications for any technology that 
depends on GPS for guidance and timing, whether it is manned or 
unmanned aircraft, your cell phone, or your car. In fact, commercial 
airliners are relying more and more heavily on GPS signals to locate 
the runways at airports and, with the advent of the next generation air 
traffic control system, all aircraft--manned and unmanned--will rely on 
GPS for navigation.
    At the same time, ``spoofing'' is not as simple or easy as news 
reports suggest. To successfully spoof a GPS signal, one must have the 
equipment and capability to broadcast a counterfeit signal at a high 
enough power level to overpower the GPS signals emanating from more 
than 20 satellites in orbit around the earth. One must know the 
location of the target vehicle and be able to track it. If the target 
vehicle is not in close proximity to the spoofing device, this requires 
a detection system such as radar. Meanwhile, custom software is needed 
to make adjustments to the target vehicle's course. It took the 
University of Texas team four years to develop the necessary software, 
and the professor overseeing the experiment has acknowledged that the 
skills involved in ``spoofing'' are ``outside the capability of any 
average American citizen.'' In sum, in a controlled experiment where an 
aircraft is kept low to the ground, hovering in place and equipped with 
minimal safeguards, spoofing is feasible. Under real-world conditions, 
however, ``spoofing'' is much more difficult.
    That said, the industry takes the potential for ``spoofing'' very 
seriously and is already advancing technologies, such as SAASM--
Selective Availability Anti-Spoofing Module--to prevent it. SAASM, 
which involves the authentication of encrypted satellite signals, is 
already widely used by the military to thwart GPS spoofing. The 
Department of Defense (DOD) issued a directive that, as of October 
2006, required all newly-acquired UAS systems--as well as systems going 
through major modifications or upgrades--to be SAASM-equipped. As has 
happened with other technologies, innovations developed for the 
military could transition in some form to the civilian market in the 
years to come. In fact, GPS itself was a military technology that 
transitioned to civilian use.
    In addition to SAASM, many unmanned aircraft also have alternate 
navigation systems, such as radio links and backup inertial systems, 
which provide redundancy to GPS. Other backup technologies exist--or 
are being developed--that autonomously guide unmanned aircraft to a 
safe landing at a pre-determined location in the unlikely event of 
interference with navigation signals. Other ``spoofing'' 
countermeasures have been proposed since the 1990s, some of which are 
relatively simple software changes. Finally, it is also important to 
remember that while an aircraft itself may be unmanned, a trained 
professional is behind the controls, ready to respond, and bring a safe 
resolution to any problem that may arise.
    Like any other technology, unmanned aircraft technology continues 
to become smarter and safer every day. In preparation for the expansion 
of UAS in the domestic airspace, AUVSI member companies have been hard 
at work developing new technologies that would add extra layers of 
safety and security to unmanned aircraft. More and more innovations 
will be available in the very near future.
    While the industry continues to refine and enhance UAS technology, 
the FAA is preparing for its rule-making process, which will unfold 
over the next few years. In addition, later this year, the FAA is 
expected to announce the selection of six UAS test sites around the 
country. This window will provide ample time for all stakeholders to 
develop a robust framework for the integration of unmanned aircraft, 
put the technology to the test, and resolve any outstanding issues.
    Other concerns have been raised, for example, about privacy--
concerns which the industry is actively working to address. AUVSI has 
met with nearly a dozen privacy advocates and civil liberties 
organizations, as well as other interested parties, to understand their 
concerns, encourage them to work together and let them know that, like 
them, AUVSI supports Americans' rights to privacy, especially the 
protections afforded under the Fourth Amendment to the U.S. 
Constitution. Meanwhile, the industry's recently released Code of 
Conduct clearly articulates our commitment to respecting individuals' 
privacy. As the integration progress, the industry will continue to 
engage in a constructive, thoughtful, and civil dialogue on the 
National, State, and local levels with all parties to address any 
privacy concerns.
    The unmanned aircraft systems industry is committed to the safe and 
responsible integration of unmanned systems into the National airspace. 
We look forward to continuing to work with Congress, the FAA, DHS, and 
other stakeholders to ensure unmanned aircraft are integrated safely 
and responsibly, so we can unlock the tremendous potential of this 
technology to enhance public safety, advance scientific research, and 
otherwise benefit society.
                                 ______
                                 
       Letter From the Air Line Pilots Association International


                                     July 18, 2012.
The Honorable Mike McCaul,
Chairman, Oversight, Investigations, and Management Subcommittee, H2-
        176 Ford Building, Washington, DC 20515.
The Honorable Bill Keating,
Ranking Member, Oversight, Investigations, and Management Subcommittee, 
        H2-117 Ford Building, Washington, DC 20515.
    Dear Chairman McCaul and Representative Keating: The Air Line 
Pilots Association, International (ALPA) represents the safety and 
security interests of more than 53,000 professional airline pilots 
flying for 37 airlines in the United States and Canada. On their 
behalf, I respectfully request ALPA's views be included in the hearing 
record for the upcoming hearing on ``Using Unmanned Aerial Systems 
(UAS) Within the Homeland: Security Game-Changer?'' ALPA is the world's 
largest professional pilot association and the world's largest non-
Governmental aviation safety organization. As such, we are pleased the 
subcommittee is holding this hearing and appreciate your oversight and 
continued interest in the subject of unmanned aircraft systems.
    The much-publicized success of Unmanned Aircraft Systems (UAS) in 
combat operations has created a large potential market for the use of 
these aircraft by commercial enterprises. The FAA has managed the 
process of accommodating UAS into the National Airspace System (NAS) 
since it began. Currently, several UAS are in domestic use by 
Government agencies (e.g., law enforcement, Customs Border Protection 
(CBP), agriculture, etc.) operating with FAA Certificates of 
Authorization (COA) in segregated airspace. As the number of these 
aircraft increases, and the potential for business applications also 
increases, so does pressure to allow their unrestricted operation in 
the NAS. FAA has recognized the need for regulations, standards 
development, and oversight unique to future domestic UAS operations in 
the NAS and has, for several years, proactively worked with industry 
stakeholders to develop those standards and regulations. This process 
is extremely complex and draws on the expertise of both industry 
stakeholders and FAA specialists in air traffic control, airspace 
management, equipment certification and other disciplines with a direct 
bearing on the safety and security of flight operations of UAS in the 
NAS.
    ALPA recognizes the benefits that UAS may provide valuable National 
defense and law enforcement functions domestically. However, the 
introduction of such aircraft into an integrated National airspace 
system represents an entirely new concept that has the potential to 
profoundly degrade the safety of both commercial and general aviation 
flight operations if this integration is not accomplished in a 
responsible, comprehensive manner. To achieve the complex goals of safe 
and secure UAS integration in the NAS, the most capable agency to 
provide effective oversight would be the one that is currently the 
specialist agency in all aspects of aviation. FAA has decades of 
experience with safely integrating new technologies and concepts into 
the NAS and has the experience, knowledge, and expertise to provide 
harmonized regulatory standards and oversight to the many stakeholders 
to maintain aviation safety and security of NAS. While DHS can, and 
should continue to, provide expertise in the threats that must be 
mitigated, it is FAA with the expertise to develop and implement those 
mitigations. This relationship is true for all aircraft operating in 
the NAS, regardless of where the pilot sits.
    There are significant industry and Government regulatory and 
standards development activities already under way in North America and 
other parts of the world oriented toward addressing the challenges and 
concerns associated with attempts to integrate UAS into unsegregated 
airspace with the entire spectrum of civil traffic. FAA is central to 
these developments, and has partnered with numerous other agencies 
including the Department of Defense (DOD), the National Aeronautics and 
Space Administration (NASA), the Federal Aviation Administration (FAA), 
Transport Canada, and RTCA in the United States and its counterpart 
EUROCAE in Europe. The International Civil Aviation Organization (ICAO) 
has published a circular to guide the development of harmonized 
standards and practices for UAS. FAA is the lead U.S. Government agency 
in those international developments. In addition, in the United States, 
the FAA is in the process of selecting six UAS Test Site facilities to 
further develop technologies that enhance future aviation safety and 
security. RTCA is currently producing substantive recommendations for 
UAS standards for aviation safety and security for the FAA, as well. 
For further information regarding present and future issues of UAS 
relating to NAS safety and security integration, I refer you to the 
white paper attached, ``Unmanned Aircraft Systems, Challenges for 
Safely Operating in the National Airspace System'' and ask that this 
material be included in the hearing record as well.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.
---------------------------------------------------------------------------
    Unmanned Aircraft Systems approval for operations in the NAS 
requires comprehensive and exhaustive total system analysis to achieve 
integration. The needs of air traffic services, airspace, airports, 
airmen, and operators all will need to be evaluated to safely and 
securely integrate the UAS into the complex and dynamic operations of 
the NAS. There are also technological requirements inherently unique to 
the UAS and, therefore the regulator's expertise must not be limited to 
certification of just the aircraft, but also the complete system, 
including the data link infrastructure, g round control station, as 
well as the security of the ground control station that contain both 
the pilot(s) and communication components. The FAA processes are 
synonymous with safety of NAS and responsibility for those processes 
should reside with them. The current role played by TSA and DHS in 
identifying and mitigating threats to the security of operation NAS 
should similarly be maintained.
    To maintain the exceptional level of safety in the NAS, it is the 
FAA that must evaluate the safety, operational, and security procedures 
that may need to be modified to provide for unique UAS requirements. As 
with all certified aircraft, furthering the understanding of the design 
and limitations of the aircraft will be required so that appropriate 
levels of safety and security assurances can be developed. ALPA has 
always been a vanguard of aviation safety, and we have worked as a 
stakeholder with the FAA for many years and are convinced that the 
thorough current certification processes of the FAA have the breadth 
and scope to continue to safely and securely maintain aviation safety 
during the entire current and future certification programs for UAS 
aircraft, pilots, and operators.
    We appreciate the subcommittee's interest in this issue and look 
forward to continuing our work together to protect the security of the 
Nation's airspace.
            Sincerely,
                                          Captain Lee Moak,
             President, Air Line Pilots Association, International.

    Mr. McCaul. Members are reminded that statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]

             Statement of Ranking Member Bennie G. Thompson
                             July 19, 2012

    I would first like to thank Chairman McCaul for holding this 
hearing on a very timely subject.
    In February, President Obama signed the Federal Aviation 
Administration Reauthorization Act into law.
    Included in the Act was a provision directing the Federal Aviation 
Administration (FAA), to rapidly expand the ability of public 
agencies--including State and local law enforcement--to use Unmanned 
Aerial Vehicles, or UAVs, to fulfill their missions.
    The use of UAVs within the homeland is not a new concept.
    Following Hurricane Katrina, UAVs played a vital role in surveying 
storm-damaged communities and assisting in the search and rescue of 
trapped survivors in Mississippi and other areas affected by the storm.
    Moreover, since 2004, the U.S. Customs and Border Protection (CBP), 
within the Department of Homeland Security has deployed UAVs along the 
Southwestern Border as a force-multiplier in its border security 
efforts.
    CBP recently announced its intention to increase its fleet of 10 
UAVs to 24 by the year 2016.
    Clearly, UAVs have many beneficial uses in the National airspace 
and, when used within proper parameters, can serve as an important tool 
in securing the homeland.
    However, the use of UAVs in our National airspace may be expanding 
at a faster rate than the legal protections governing its use.
    In late 2010, there were 273 active Government-licensed UAVs, 
nearly 100 more than the previous year. Reports in 2012 demonstrate 
that the FAA has issued more than 300 UAV licenses.
    Yet, according to the Government Accountability Office, ``no 
Federal agency has specific statutory responsibility to regulate 
privacy matters related to UAVs.''
    Despite the Department of Homeland Security's role as the leading 
Federal agency operating UAVs, its Chief Privacy Officer has never 
performed a Privacy Impact Assessment on UAVs or developed safeguards 
and guidelines for ensuring that privacy protections are in place.
    Furthermore, although FAA is responsible for incorporating UAVs 
into our National airspace, according to its website: ``the FAA's sole 
mission and authority as it focuses on the integration of unmanned 
aircraft systems is safety.''
    So, who is watching the henhouse, with respect to privacy?
    That is the question that causes me concern.
    UAVs are capable of hovering in the same spot for up to 30 hours 
and recent reports indicate that in the near future, 45 hours is not 
out of the question.
    They can find and follow a single target or up to 65; utilize 
facial recognition software to find a face in a crowd or an event; read 
license plates from the sky; and some can even shoot taser projectiles, 
tear gas, and rubber balls from 300 feet above ground.
    Given these capabilities, there is the potential for invasive 
surveillance and warrantless searches with little to no privacy 
protections in place.
    Like my colleagues, I strongly support providing homeland security 
officials and law enforcement agencies with the tools they need to 
carry out their vital work on behalf of our Nation.
    However, we have a responsibility to ensure that as technology 
develops and our systems become more sophisticated, proper safeguards 
and protections are in place to ensure the right to privacy is 
maintained.
    I look forward to hearing from our witnesses and thank them for 
appearing before us today.
    I yield back.

    Mr. McCaul. The Chairman now will go to the panel and 
introduce Dr. Todd Humphreys I had the pleasure to visit 
yesterday, and being from Austin I take particular pride that 
you are here also today, and growing up in a family of Long 
Horns, I take even more in that as well. So I have a little bit 
of orange blood in myself.
    Dr. Todd Humphreys is an Assistant Professor at the 
Cockrell School of Engineering at the University of Texas at 
Austin. He specializes in the application of optimal estimation 
techniques to problems in satellite navigation, orbital and 
attitude dynamics, and signal processing. For anybody here who 
understands that, other than Dr. Humphreys, congratulations to 
you.
    He directs the radio navigation laboratory at UT Austin, 
where his current research focuses on defending against 
intentional GPS spoofing and jamming. Most recently Dr. 
Humphreys uncovered that GPS signals that navigate unmanned 
aerial systems can be hijacked and controlled. He conducted 
experiments at White Sands Missile Range with the Department of 
Homeland Security, and Dr. Humphreys--and also I believe at the 
Memorial Stadium in Austin. I believe we will see a video that 
describes that. He obtained his doctorate from Cornell 
University.
    The Chairman now recognizes Dr. Humphreys for his opening 
statement.

  STATEMENT OF TODD E. HUMPHREYS, PH.D., ASSISTANT PROFESSOR, 
  COCKRELL SCHOOL OF ENGINEERING, THE UNIVERSITY OF TEXAS AT 
                             AUSTIN

    Mr. Humphreys. Chairman McCaul, Members of the 
subcommittee, you may have heard these reports mentioned by 
Chairman McCaul that at about this time last month my students 
and I from the University of Texas hijacked a civilian unmanned 
aerial vehicle, a small helicopter, and brought it down from a 
remote location. That much is true, and I have come today 
prepared to talk about what we did, what the implications are 
for the National airspace, and what can be done to address the 
problem that our experiment brought to the fore.
    So how did we hijack this UAV, this small helicopter? We 
exploited a weakness in the Global Positioning System. You see, 
GPS signals come in two flavors. There are the military signals 
which are encrypted to prevent counterfeiting and unauthorized 
use. Then there are the second class of signals, civilian 
signals, and these signals are not encrypted. They are freely 
accessible and that has explained--that explains their enormous 
popularity, their usefulness, but it also opens up a 
vulnerability. It makes them easy to counterfeit or, in other 
words, to spoof.
    Just like monopoly money, they have a detailed structure 
but they don't have any built-in protection against 
counterfeiting or spoofing.
    So what does this have to do with UAVs? Well, the 
connection is fairly obvious. Almost all civilian UAVs depend 
heavily on civil GPS for their navigation, and that means that 
if you can convincingly fake a GPS signal you can fool a UAV 
into tracking your signal instead of the authentic one, and at 
that point you can control the UAV. You make it move left or 
right, front or back, up or down. In other words, you have 
hijacked the UAV, and you can do this from miles away.
    My friends at the University of Texas have prepared a video 
that I would like to show you which illustrates what we did and 
helps me to explain the technique involved.
    You see against the background here, a UAV, an animated 
one, like the one we used, flying above the desert floor. This 
white person entering your picture is the good guy. He is the 
UAV's remote operator and he is now uploading to the UAV a way 
point. That white diamond is a destination the UAV is supposed 
to move to. The GPS satellites above help the UAV locate itself 
and as you can see here, it recognizes where it is, where the 
destination is, and makes its tracks toward the destination 
lining up nicely with its goal.
    But the bad guy moving in here from the left is a spoofer 
operator, and he is going to transmit fake GPS signals to the 
UAV. At this point, we will pause so that I can talk a little 
bit about what you see on the screen. The peak you see on the 
screen exists in every GPS receiver. It corresponds to the 
authentic signals. You can go ahead and roll it now. But if you 
can create fake GPS signals, you have caused another peak to 
appear, and that peak, when it lines up with the authentic one, 
ends up hijacking the tracking loops inside the GPS receiver, 
and what you will notice is that as it draws off the tracking 
loops, a ghost UAV slides out the back. That ghost UAV is where 
now the UAV thinks it is. It is not its actual location, it is 
its perceived location. As it moves toward its way point it is 
the ghost UAV that lines up the way point instead of the actual 
UAV.
    We did the same here at Texas Memorial Stadium by making 
our UAV think that it was rising upward at a fast clip, and you 
will see here that in response it falls downward. We can go 
ahead and roll it. The bar at the bottom will tell you who is 
in control. At first it is the authentic signals and the ground 
controller who is in control of this UAV, but at this point 
when they go red, it is now the spoofer, the hijacker, who 
controls the UAV and you will see that it drops precipitously 
toward the ground. That is all under control of this remote 
hijacker.
    Then at White Sands we were invited by the Department of 
Homeland Security or authorized by the Department Security, and 
in fact they facilitated some of this test, so that we could 
conduct a test over the air where we capture the UAV in mid-
air. We did it from about a half-mile away. On a hilltop, we 
broadcast our signals. You can go ahead and roll it now, and 
you will see that in this case, as in the former case, the UAV 
started in a nice hovering position but then came straight down 
as if it were an elevator moving down a shaft entirely under 
control of the remote hacker.
    So what are the implications for our National airspace? 
Well, back in February, Congress handed a mandate, the Federal 
Aviation Administration, to develop a comprehensive plan for 
safely accelerating the integration of civil UAVs into the 
National airspace system, and I believe that the results of our 
demonstration should factor heavily into that plan. But the 
truth is that the FAA is, its culture and its expertise is 
geared more toward safety than security and our test implicated 
the security of the airspace. So I think it is fair to say that 
the DHS may have also a role to play in drawing up these new 
rules and regulations, and I am happy to entertain questions 
from the committee.
    [The statement of Mr. Humphreys follows:]

                Prepared Statement of Todd E. Humphreys
                             July 18, 2012

                               1. SUMMARY

    Military Global Positioning System (GPS) signals have long been 
encrypted to prevent counterfeiting and unauthorized use. Civil GPS 
signals, on the other hand, were designed as an open standard, freely 
accessible to all. These virtues have made civil GPS enormously 
popular, but the transparency and predictability of its signals give 
rise to a dangerous weakness: They can be easily counterfeited, or 
spoofed. Like Monopoly money, civil GPS signals have a detailed 
structure but no built-in protection against counterfeiting. Civil GPS 
is the most popular unauthenticated protocol in the world.
    The vulnerability of civil GPS to spoofing has serious implications 
for civil unmanned aerial vehicles (UAVs), as was recently illustrated 
by a dramatic remote hijacking of a UAV at White Sands Missile Range. 
The demonstration was conducted by the University of Texas 
Radionavigation Laboratory at the behest of the Department of Homeland 
Security (DHS). From a stand-off range of a half mile, the University 
spoofer commandeered the UAV and induced it to plummet toward the 
desert floor. The results of this demonstration will no doubt factor 
into the Federal Aviation Administration's (FAA's) plans for 
integrating UAVs into the National airspace.
    Hacking a UAV by GPS spoofing is but one expression of a larger 
problem: Insecure civil GPS technology has over the last 2 decades been 
absorbed deeply into critical systems within our National 
infrastructure. Besides UAVs, civil GPS spoofing also presents a danger 
to manned aircraft, maritime craft, communications systems, banking and 
finance institutions, and the National power grid.
    Constructing from scratch a sophisticated GPS spoofer like the one 
developed by the University of Texas is not easy. It is not within the 
capability of the average person on the street, or even the average 
Anonymous hacker. But the emerging tools of software-defined radio and 
the availability of GPS signal simulators are putting spoofers within 
reach of ordinary malefactors.
    There is no quick, easy, and cheap fix for the civil GPS spoofing 
problem. What is more, not even the most effective GPS spoofing 
defenses are fool-proof. But reasonable, cost-effective spoofing 
defenses exist which, if implemented, will make successful spoofing 
much harder.
    I recommend that for non-recreational operation in the National 
airspace civil UAVs exceeding 18 lbs be required to employ navigation 
systems that are spoof-resistant.
    More broadly, I recommend that GPS-based timing or navigation 
systems having a non-trivial role in systems designated by DHS as 
National critical infrastructure be required to be spoof-resistant.
    Finally, I recommend that the DHS commit to funding development and 
implementation of a cryptographic authentication signature in one of 
the existing or forthcoming civil GPS signals.

                             2. BACKGROUND

    The design of the Global Positioning System came together over 
Labor Day weekend in 1973. A group of hard-working engineers, mostly 
Air Force officers, decided over that weekend that the GPS satellites 
would broadcast two different types of signals, a precise military 
signal and a so-called clear access or C/A signal. The military signal 
would later be encrypted to prevent unauthorized use and imitation.
    But the clear access signal, true to its name, would be freely 
accessible to all. Detailed and accurate specifications for the clear 
access signal were later distributed to encourage its use.
    The early designers of the GPS system, for whose tireless efforts 
we are all indebted, knew the GPS was going to be valuable for 
civilians across the globe, but they never could have imagined just how 
valuable. An intentional degradation of the C/A signals called 
selective availability was discontinued by Presidential Order in 2000. 
Instantaneously, every GPS receiver across the globe went from errors 
the size of a football field to errors the size of a small room. It is 
hard to overstate the impact of this improvement in accuracy. Before 
selective availability was turned off, there were no in-car navigation 
systems giving turn-by-turn directions, because back then civilian GPS 
couldn't tell you what block you were on, let alone what street. For 
geolocation, accuracy matters.
    Things have only improved over the last decade. With more ground 
stations, better algorithms, more open-access signals, and better 
receivers, civil GPS--the family of open-access signals to which all 
civilians have access--can now tell you not only what street you are 
on, but what part of the street.
    The accuracy, transparency, and low cost of civil GPS have enabled 
a firestorm of innovation. After 2000, any engineer designing a system 
for which accurate timing or location was important found GPS to be an 
almost irresistible option. As a result, civil GPS receivers are built 
deeply into our National infrastructure: From our smartphones to our 
cars to the internet to the power grid to our banking and finance 
institutions. Some call GPS the invisible utility: It works silently, 
and for the most part perfectly reliably, in devices all around us--
devices of which we are scarcely aware.
    Nearly 40 years after the GPS design was put together we can look 
back and marvel at its designers' foresight. The GPS that we all depend 
on today is nearly identical to their original design. But with 40 
years of hindsight, many of us in the GPS community, if we could be 
transported back to those seminal meetings over Labor Day weekend in 
1973, would suggest that one crucial change be made to the clear access 
signal.
    The problem is that the same transparency and predictability that 
have made civil GPS signals so wildly popular all across the globe give 
rise to a dangerous vulnerability. Transparency and predictability make 
the civil GPS signals easy to imitate--to counterfeit. The fact is that 
civil GPS signals are like Monopoly money: They have a detailed 
structure but no built-in protection against forgery.
    That civil GPS is so easy to counterfeit, or ``spoof,'' would not 
be a problem if GPS were not so popular, its use so widespread. But 
such is not the case.
    For the past few years my students and I at the University of Texas 
Radionavigation Laboratory, and several others in the GPS community, 
have had two goals with regard to GPS security. First, we aim to alert 
GPS device manufacturers, the public, and public officials that civil 
GPS--notwithstanding its spectacular utility and historical 
reliability--is inherently insecure and shouldn't be trusted blindly. 
Second, we endeavor to develop practical and effective techniques to 
fix the problem, to make GPS secure and trustworthy for civilian users. 
The remainder of this statement is a brief summary of our major 
findings and recommendations to date.

         3. EXAMPLE CASE: HIJACKING A UAV BY CIVIL GPS SPOOFING

    What implications follow from the lack of authentication on civil 
GPS signals? Consider unmanned aerial vehicles (UAVs). In February 2012 
the U.S. Congress passed the FAA Modernization and Reform Act, which 
gives the FAA until 2015 to develop a ``comprehensive plan for safely 
accelerating the integration of civil UAVs into the National airspace 
system.'' The Modernization Act has spurred a great deal of discussion. 
Hobbyists, public safety officials, academics, UAV manufacturers, and 
many in the general public envision myriad beneficial applications of 
civil UAVs. Others, less sanguine, point out that UAVs threaten to 
invade our privacy. Still others question whether UAVs can be 
integrated safely into the National airspace.
    The connection between civil UAVs and civil GPS is straightforward: 
The vast majority of civil UAVs depend on civil GPS for navigation. It 
is true that the navigation sensor suite of a typical civil UAV also 
includes inertial sensors (accelerometers and rate sensors), 
magnetometers, altimeters, and in some cases a camera; even so, GPS is 
fundamental to the sensor suite because, unlike the other navigation 
sensors, it works in all weather conditions and does not drift.
    Does the dependence of UAVs on civil GPS make them susceptible to 
hijacking via GPS spoofing? In February 2012 the University of Texas 
Radionavigation Laboratory posed this question to the DHS. DHS 
considered the question seriously. At the time, DHS was moving forward 
with plans to offer universities and other interested civilian groups a 
chance to test their proposed techniques for addressing civil GPS 
vulnerabilities in a series of realistic over-the-air tests at White 
Sands Missile Range. My students and I proposed to DHS an experiment 
whereby we would attempt to commandeer a civilian UAV by GPS spoofing. 
DHS agreed to the test on the condition that the University of Texas 
furnish all the necessary manpower and equipment--including the target 
UAV.
    Our group selected a Hornet Mini from Adaptive Flight as the target 
UAV. This sophisticated $80k rotorcraft, used by law enforcement, has a 
navigation system built around an extended Kalman filter that draws 
measurements from an altimeter, a magnetometer, an inertial measurement 
unit, and a civil L1 C/A GPS receiver. The Hornet Mini's sensor suite 
and flight control system are representative of those in much larger 
commercial UAVs.
    It is important to note that the Hornet Mini's GPS receiver was 
equipped with a standard technology called Receiver Autonomous 
Integrity Monitoring (RAIM), which is designed to identify and discard 
GPS signals that appear to be outliers. Standard RAIM is ineffective 
against GPS spoofing because a spoofer generates a fully self-
consistent ensemble of spoofing signals; there are no outliers.
    After a dry run on the University of Texas campus, our research 
group traveled to White Sands for the test of record. The test was 
conducted as follows: A sophisticated civil GPS spoofer developed in 
our laboratory was placed on a hilltop about a half mile from the 
designated test site where the UAV would be flying. The UAV was 
commanded by its ground control operator to hover 50 feet above the 
ground at the test site. On command, our spoofer began transmitting 
weak counterfeit GPS signals toward the hovering UAV, achieving meter-
level alignment with the counterpart authentic signals at the location 
of the UAV's GPS antenna. The spoofer then rapidly increased its 
counterfeit signal power, bringing the UAV under its control. By 
inducing a false upward drift in the UAV's perceived location, the 
spoofer fooled the UAV's flight controller into commanding a dive. At 
about 10 feet above ground level a human safety pilot assumed manual 
control of the UAV to prevent it from crashing.
    Between this and other tests, the spoofer demonstrated short-term 
three-dimensional control of the UAV. Thus, we conclude that it is 
indeed possible to hijack a civil UAV--in this case, a fairly 
sophisticated one--by civil GPS spoofing.

                         4. THE LARGER PROBLEM

    The vulnerability of civil UAVs to GPS spoofing is but one 
expression of a more fundamental problem: the insecurity of civil GPS 
signals. If a UAV can be hijacked by GPS spoofing, what else could go 
wrong within our GPS-dependent National infrastructure? In what 
follows, the potential vulnerabilities of our National transportation, 
communications, banking and finance, and energy distribution 
infrastructure are discussed briefly.

4.1 Transportation
    In 2001, the U.S. Department of Transportation issued a report 
assessing the vulnerability of the U.S. transportation infrastructure 
to disruption of civil GPS.\1\ Known as the Volpe report, it 
highlighted the threats posed by civil GPS spoofing attacks. At the 
time, the open literature contained little research on such attacks and 
possible countermeasures. Accordingly, the report recommended further 
study of GPS spoofing and development of civil GPS anti-spoofing 
techniques. Unfortunately, despite a flurry of GPS security research 
over the past decade, brought about in part by the Volpe report, no 
dedicated spoofing defenses have been built into any commercially-
available GPS receivers so far as I am aware. This means that the GPS 
receivers used in commercial and general aviation aircraft, in maritime 
vessels, and in surface vehicle transport are vulnerable to GPS 
spoofing just as was the GPS receiver on the UAV tested at White Sands.
---------------------------------------------------------------------------
    \1\ Anon., ``Vulnerability assessment of the transportation 
infrastructure relying on the Global Positioning System,'' tech. rep., 
John A. Volpe National Transportation Systems Center, 2001.
---------------------------------------------------------------------------
            4.1.1 Manned Aviation
    Manned civil aircraft increasingly depend on civil GPS for 
navigation. Nonetheless, they are currently somewhat less vulnerable 
than civil UAVs to GPS spoofing for two reasons:

    (1) All commercial aircraft and many general aviation aircraft 
        continue to operate legacy VOR/DME navigation equipment along 
        with newer GPS equipment. Because of their higher power, VOR/
        DME signals are less vulnerable to spoofing than GPS signals. 
        Legacy VOR/DME equipment can provide pilots a valuable cross-
        check against which to compare GPS-produced position and 
        velocity data.

    (2) Manned aircraft are typically equipped with higher-quality 
        (lower drift) inertial measurement units (IMUs) than those used 
        in small UAVs, which means that the GPS navigation solution can 
        be more effectively cross-checked against the IMU. Whereas a 
        spoofer might be able to induce a fictitious acceleration of 
        0.5 m/s\2\ in a small UAV without being detected in a cross-
        check against the (relatively poor) IMU, an attack against a 
        larger craft with a higher-quality IMU might be limited to an 
        induced acceleration of 0.1 m/s\2\. However, it should be noted 
        that the benefit of a higher-quality IMU is only realized if 
        the navigation systems is designed to be on the lookout for 
        suspicious accelerations in the GPS solution.

    Despite these advantages, GPS spoofing remains a significant risk 
to civil manned aircraft. When the aircraft's autopilot is engaged, the 
course it commands depends primarily on the aircraft's IMU. However, 
GPS plays a role in estimating the bias drift in each of the IMU's 
axes. Thus, neither the autopilot nor the human pilot(s) may notice a 
spoofer-induced navigation error that builds up gradually over time. 
Pilots are trained to continually monitor the autopilot for errant 
behavior, and disengage it if necessary, but they rely on anomaly 
alerts provided by the aircraft's navigation system itself. I have 
reason to believe that the resilience of commercial aircraft navigation 
systems to civil GPS spoofing has not been sufficiently tested. Roll-
out of the FAA's NextGen air traffic control system, which will further 
increase the reliance of commercial and general aviation on civil GPS, 
would seem to demand even greater scrutiny as regards vulnerability to 
GPS spoofing.

            4.1.2 Maritime
    Many of the adverse effects of GPS spoofing in maritime 
applications follow the pattern of those in aviation applications. As 
with aircraft, marine craft rely on civil GPS to estimate the bias 
drift in their inertial sensors. This reliance opens up an indirect 
vulnerability to GPS spoofing. Marine vessels may in fact be more 
vulnerable than aircraft to spoofing because the discontinuation of 
LORAN in the United States 2 years ago left them with fewer 
radionavigation backups to GPS. It should be noted that differential 
GPS, often used for improved navigation accuracy on marine craft, is 
not a defense against GPS spoofing.
    Many marine craft autopilot systems could likely be induced by GPS 
spoofing to veer gradually off course, which could be especially 
dangerous in constricted waterways. And whereas formal trials have been 
conducted to evaluate the effect of GPS jamming on commercial marine 
craft (with alarming results--see the tests conducted in the North Sea 
by the U.K. Lighthouse Authority), to my knowledge no such tests have 
been performed to evaluate the effects of GPS spoofing.

            4.1.3 Surface Transportation
    The reliance of surface transportation on civil GPS is collectively 
greater than that of aviation or maritime transportation, but the 
nature of the reliance is different, being attached to far less 
worrisome consequences. A spoofing attack against an automobile could 
induce the in-car navigation system to display a false position, which 
may confuse the driver, but would be unlikely to result in an accident. 
In the case of autonomous vehicles such as the Google autonomous car, a 
substantial suspicion of GPS is built into the navigation system. GPS 
measurements are used to estimate the biases in inertial sensors, but 
LIDAR, RADAR, and optical sensors are also used for this purpose and 
their measurements are constantly cross-checked against GPS. The 
robustness of the Google autonomous car to loss of GPS or GPS spoofing 
is a good model for all autonomous systems in their use of GPS.
    Rail transport employing so-called Positive Train Control (PTC) 
systems, which automatically locate a train on a digital map in the on-
board and control center computers, may be susceptible to civil GPS 
spoofing. A GPS spoofing attack mounted against a PTC-enabled train at 
a railway switch may be able to deceive the train operator and the 
control center monitors into thinking that the train is moving along a 
different track.

4.2 Communications
    Many communications networks, including cellular networks and the 
internet, rely on civil GPS for precise timing. The discussion here 
will focus on cellular networks because these have stringent 
synchronization requirements.
    Code division multiple access (CDMA) cell-phone towers rely on GPS 
timing for tower-to-tower synchronization. Synchronization prevents 
towers from interfering with one another and enables call hand-off 
between towers. If a particular tower's time estimate deviates more 
than 10 ms from GPS time, hand-off to and from that tower is disrupted. 
In laboratory tests conducted at the University of Texas we have 
demonstrated that a spoofer can induce a 10-ms time deviation in less 
than 30 minutes when acting against a typical CDMA tower setup. A 
spoofer, or spoofer network, could also cause multiple neighboring 
towers to interfere with one another. This is possible because CDMA 
cell-phone towers all employ the same spreading code, distinguishing 
themselves only by the phasing (that is, the relative time offset) of 
their spreading codes. Furthermore, it appears that a spoofer could 
impair CDMA-based E911 user-location.

4.3 Banking and Finance
    All global financial exchanges, including the New York Stock 
Exchange (NYSE) and the Nasdaq, have gone digital. Large data centers 
hold the exchanges' matching engines, the modern-day equivalent of the 
historic trading floor, in racks of interconnected servers. The DHS 
considers these data centers critical National infrastructure. Private 
security personnel, tall fences, and the best network security money 
can buy protect the integrity of the thousands of high-stakes trades 
executed every second within these data centers.
    But there is one input port that the network firewalls leave 
entirely unprotected. An unassuming set of antennas on the roof of 
these data centers carry unsecured civil GPS signals directly into the 
core of the matching engine network. Slaved to a once-per-second 
synchronization pulse from a GPS-disciplined clock, the individual 
servers in the network apply time stamps to the trades they execute. A 
decade ago, a tenth of a second was an acceptable time stamp 
resolution. High-frequency traders now demand nanoseconds.
    I believe that all major financial exchanges across the globe are 
aware of the GPS spoofing threat. I have been in indirect contact with 
network service managers at the NYSE, BATS, and London exchanges; they 
have each taken precautions against GPS spoofing. For example, system 
time at the NYSE is ultimately traced to civil GPS, but a spoofing 
attack that shifted the apparent GPS time by more than 0.05 nanoseconds 
per second would fail a timing consistency check against redundant 
local atomic clocks. This would limit a spoofer to shifting the 
exchange's system time by less than 5 microseconds per day, making the 
NYSE system time an attractive target only for the most patient of 
spoofers.
    High-frequency traders whose servers are co-located with the 
matching engines at major exchanges may be more vulnerable to GPS 
spoofing. In the NYSE and some other exchanges, these co-located 
customers are offered either a timing feed from the exchange's system 
time or a direct feed from GPS antennas on the roof. Many co-located 
customers, distrustful of the exchange's system time, opt for the 
direct GPS feed. In laboratory tests conducted at the University of 
Texas we have shown that a popular model of GPS-disciplined oscillator 
used by these co-located customers is incapable of detecting GPS 
spoofing attacks that shift timing by less than 100 nanoseconds per 
second--or 2,000 times faster than the maximum undetectable rate when 
targeting NYSE system time.
    Why could this be a problem? Automated transactions initiated by 
co-located servers account for 50 to 70 percent of the trading volume 
on major exchanges. The high-frequency traders who own the servers do 
not like inexplicable market behavior, and unlike old-fashioned traders 
who are obligated to stay in the market no matter its behavior, high-
frequency traders can pull the plug at any moment. In the aftermath of 
the May 6, 2010 flash crash, it was revealed that automatic data 
integrity checks in trading algorithms were configured to trigger on 
unusual latency in the exchanges data feeds. In other words, if 
transaction time stamps do not look right, algorithmic traders flee the 
marketplace. A spoofing attack that aggressively manipulated the timing 
in a large number of co-located servers could therefore cause a partial 
market vacuum--what traders call a loss of liquidity--with the result 
being increased price volatility and damage to market confidence.

4.4 Energy Distribution
    In a recent study, our laboratory examined the vulnerability of a 
particular type of smart grid equipment, the phasor measurement unit 
(PMU), to a timing attack.\2\ If a spoofer manipulates a PMU's time 
stamps, it could cause spurious variations in measured phase angles. 
These variations could distort power flow or stability estimates in 
such a way that grid operators or automatic response systems would take 
incorrect or unnecessary control actions, including powering up or 
shutting down generators, potentially causing blackouts or damage to 
power-grid equipment. Under normal circumstances, a changing separation 
in the phase angle between two PMUs indicates changes in power flow 
between the regions measured by each PMU. Thus, a spoofing attack could 
create the false indications of power flow across the grid.
---------------------------------------------------------------------------
    \2\ D. Shepard, T. Humphreys, and A. Fansler, ``Evaluation of the 
Vulnerability of Phasor Measurement Units to GPS Spoofing,'' in Sixth 
Annual IFIP WG 11.10 International Conference on Critical 
Infrastructure Protection, (Washington, DC), 2012.
---------------------------------------------------------------------------
    Under controlled experimental conditions at a Department of Energy 
National laboratory, we demonstrated last December that a GPS-spoofer-
induced timing offset does indeed create a proportional offset in the 
voltage phase angle measured by a PMU. In a brief examination of the 
consequences of such an offset, we found that future smart grids will 
likely employ advanced PMUs in automated closed-loop grid control \3\ 
and that such closed-loop control has already been implemented in at 
least one network.\4\ We have reason to believe that timing 
manipulation would cause generators to trip in this network and in 
future automated closed-loop grid control networks.\2\
---------------------------------------------------------------------------
    \3\ J. Giri, D. Sun, and R. Avila-Rosales, ``Wanted: A more 
intelligent grid,'' IEEE Power & Energy, pp. 34-40, April 2009.
    \4\ E.O. Schweitzer, A. Guzman, H.J. Altuve, and D.A. Tziouvaras, 
``Real-time synchrophasor appliactions for wide-area protection, 
control, and monitoring,'' tech. rep., Schweitzer Eng. Laboratories, 
2009.
---------------------------------------------------------------------------
                         5. assessing the risk
    A thorough assessment of the spoofing risk would investigate two 
factors: (1) The probability, and (2) the consequences of an attack. 
The foregoing section presented various consequences, though certainly 
not a thorough listing, related to critical National infrastructure. 
The probability of a spoofing attack is a function of the incentives 
that would prompt an attack and the difficulty of mounting one. As an 
investigation of incentives is necessarily subjective and, in any case, 
outside my expertise, I will leave this to others, focusing here on 
assessing the difficulty of mounting a spoofing attack.
5.1 What Does it Take to Build a Spoofer?
    Constructing from scratch a sophisticated GPS spoofer like the one 
developed by the University of Texas is not easy. It is not within the 
capability of the average person on the street, or even the average 
Anonymous hacker. It is orders of magnitude harder than developing a 
GPS jammer. Nonetheless, the trend toward software-defined GNSS 
receivers for research and development, where receiver functionality is 
defined entirely in software downstream of the A/D converter, has, in 
recent years, significantly lowered the bar to developing a spoofer.

            5.1.1 Cost of Hardware
    The University of Texas spoofer was constructed almost entirely 
from commercial off-the-shelf components. The total hardware cost was 
between $1k and $2k. Universal software radio platforms that rival the 
capability of our hardware system can be purchased for less than $2k.

            5.1.2 Required Skill and Effort
    As a point of reference, I estimate that there are more than 100 
researchers in universities across the globe who are well-enough-versed 
in software-defined GPS that they could develop a sophisticated spoofer 
from scratch with a year of dedicated effort. Spoofer development is 
likely outside the capability of organized crime or terrorist 
organizations without access to advanced training, but is well within 
the capability of near-peer nation states.

5.2 Can One Buy a Spoofer?
    Unlike GPS jammers, marketed by overseas firms as ``personal 
privacy devices'' and sold by the thousands on the internet, 
sophisticated GPS spoofers such as the one developed by the University 
of Texas Radionavigation Laboratory cannot currently be obtained in any 
market of which I am aware. However, a GPS signal simulator, a piece of 
test equipment that is readily obtainable from various vendors, can 
serve as an unsophisticated yet effective GPS spoofer. A sophisticated 
spoofer is only different from a GPS signal simulator in the following 
respects:
    (1) It is capable of predicting, with nearly 100% accuracy, the 
        navigation data sequence that modulates the GPS signals--not 
        just the implied orbital and clock data, but the exact 
        sequence. This same effect can be realized on a standard GPS 
        signal simulator only by developing a secondary system that 
        generates blocks of predicted navigation data and uploads these 
        to the signal simulator.
    (2) A sophisticated spoofer is capable of precisely aligning 
        (within a few meters equivalent) the codes in its counterfeit 
        signals with the corresponding codes of the authentic signals 
        at the location of the target receiver's antenna. The 
        University of Texas spoofer is capable of achieving this 
        alignment from a standoff distance of several kilometers. An 
        off-the-shelf GPS signal simulator would have to be 
        substantially modified to achieve such alignment.
    These differences are only important if one wishes to carry out a 
stealthy spoofing attack, that is, one that effects a near-seamless 
transition from authentic to counterfeit signals and is therefore 
difficult to detect by simple timing and signal checks within the 
target system. But this is hardly necessary for a successful attack 
against most targets at present, given that few GPS-based systems 
perform even these rudimentary checks. Indeed, a vulnerability 
assessment team from Los Alamos National Lab convincingly demonstrated 
over a decade ago that an off-the-shelf GPS signal simulator is 
sufficient to mount a spoofing attack,\5\ and spoofing defenses in 
commercial receivers have hardly progressed since that time.
---------------------------------------------------------------------------
    \5\ J.S. Warner and R.G. Johnston, ``A simple demonstration that 
the GPS is vulnerable to spoofing,'' The Journal of Security 
Administration, vol. 25, pp. 19-28, 2002.
---------------------------------------------------------------------------
    High-end commercial GPS signal simulators cost several hundred 
thousand dollars, but these can be leased for a few hundred dollars on 
a weekly basis. Moreover, within the past few years much less expensive 
(less than $40k) single-frequency GPS signal simulators have emerged on 
the market. GPS signal record-and-playback devices, which can be 
purchased for a few thousand dollars, can also be used effectively as 
unsophisticated spoofers.

5.3 Range and Required Knowledge of Target
    Assuming one could build or otherwise obtain a spoofing device, a 
successful spoofing attack further requires proximity to and knowledge 
of the target system.

            5.3.1 At What Standoff Range Can a Spoofer Be Effective?
    The University of Texas Radionavigation Laboratory demonstrated a 
successful spoofing attack from a 0.62-km standoff range in our over-
the-air test at White Sands. Our spoofer's maximum standoff range is 
fundamentally limited only by the spoofer's need to track all or nearly 
all of the authentic GPS signals seen by the target receiver, which 
implies an operational range of several tens of kilometers. A spoofer's 
broadcast power requirement, even at a stand-off range of several 
kilometers, is quite modest because the authentic GPS signals are 
themselves extremely weak.

            5.3.2 What Must the Spoofer Know About the Target to Be 
                    Effective?
    For a near-seamless transition from authentic to counterfeit 
signals, and, in the case of UAV spoofing, for fine-grained control of 
the UAV after capture, a spoofer must be furnished with real-time 
estimates of the target system's location and velocity accurate to 
within a few meters and meters per second, respectively. This 
represents a substantial challenge for a would-be spoofer. In the case 
of UAV spoofing it implies that the UAV is being accurately tracked by 
a RADAR or LIDAR system. However, if a spoofer operator's goal is 
simply to confuse the target's navigation or timing system, and the 
operator is unconcerned about possible detection, then knowledge of the 
target's position and velocity is unnecessary.

6. fixing the problem: what can be done to defend against gps spoofing?
    There is no quick, easy, and cheap fix for the civil GPS spoofing 
problem. Moreover, not even the most effective GPS spoofing defenses 
are foolproof. In contrast to message authentication, such as is used 
to sign data transmitted across the internet, the security of GPS 
signal authentication is much weaker and demands a probabilistic model. 
Nonetheless, there are many possible remedies to the spoofing problem 
that, while not foolproof, would vastly improve civil GPS security. For 
discussion, it is convenient to categorize spoofing defenses along two 
axes: (1) Cryptographic or non-cryptographic, and (2) networked or 
stand-alone. A cryptographic spoofing defense relies on secret keys 
that encrypt or digitally sign components of the broadcast signals, 
whereas a non-cryptographic defense does not depend on encryption or 
digital signatures. A networked defense requires a (possibly 
intermittent) link to a communications network whereas a stand-alone 
defense operates in isolation of a network.
    Our laboratory has been engaged in developing civil GPS spoofing 
defenses over the past several years. In addition, a number of other 
researchers have proposed civil GPS spoofing defenses in the open 
literature or have otherwise disclosed their ideas to me. In what 
follows, I examine each of the proposed techniques of which I am aware. 
More promising techniques approach the ideal spoofing defense, which: 
(1) Would reliably detect a sophisticated spoofing attack such as the 
one conducted at White Sands with a low probability of false alarm, (2) 
could be implemented in the short term, (3) would not significantly 
increase the cost of a GPS-based navigation system, and (4) would be 
applicable to a broad range of GPS-dependent systems.
    It should be noted at the outset that a military-style spoofing 
defense, in which the transmitted signals are fully encrypted, is not 
appropriate for the civilian sector as it denies free and open access. 
All techniques discussed below permit signal authentication without 
denying access. Likewise, I do not believe that widespread civilian use 
of military-grade SAASM receivers is practical or likely. The 
constraints on manufacture of SAASM receivers makes them significantly 
more bulky and expensive than standard civil GPS receivers. 
Furthermore, even though SAASM receivers can be operated in an 
unclassified setting and can be re-keyed with unclassified ``black'' 
keys, use of SAASM receivers is currently restricted to military 
personnel and to other select and authorized end-users, and initial 
keying logistics would likely present a headache for civil users. 
Therefore, civilian use of SAASM-type receivers is not considered here 
as a viable option.

6.1 Jamming-to-Noise Sensing Defense
    Perhaps the simplest and most readily-implementable defense against 
GPS spoofing is to monitor the total received power near the GPS 
band(s) of interest (e.g., GPS L1). This can be done with a jamming-to-
noise (J/N) sensor within the radio frequency (RF) front-end of a GPS 
receiver. The presence of in-band spoofing signals tends to increase 
the total in-band received power. In the case of the White Sands 
demonstration, to ensure a clean capture of the UAV GPS receiver, the 
spoofing signal ensemble was configured to be at least 10 times as 
powerful as the authentic signal ensemble. The presence of these 
spoofing signals would have been readily detectable with a J/N sensor.
    This is a stand-alone non-cryptographic defense.
            6.1.1 Benefits
    (1) Simple and inexpensive. At least one mass-market GPS receiver, 
        the uBlox GPS.G6-SW-10018, already provides a crude J/N output 
        indicator.

    (2) Immediately implementable.

    (3) Forces spoofer to maintain received signal power below 
        threshold.
            6.1.2 Drawbacks
    (1) For threshold corresponding to a reasonable false alarm rate, a 
        J/N sensor will not typically detect a spoofing attack in which 
        the spoofed signals are only slightly more powerful than their 
        authentic counterparts.
6.2 Defense Based on SSSC or NMA on WAAS Signals
    The SSSC- or NMA-based defenses described below could be 
implemented on the geostationary wide-area augmentation system (WAAS) 
satellites even if they are never implemented on the GPS satellites 
themselves.
            6.2.1 Benefits
    (1) WAAS is a civil program and thus could be seen as a proper 
        avenue for implementation of civil signal authentication.

    (2) WAAS signals are generated on the ground, not on the satellite, 
        so an SSSC or NMA overlay is readily implementable.

    (3) A single WAAS-authenticated WAAS signal would be sufficient to 
        secure pre-surveyed timing receivers.
            6.2.2 Drawbacks
    (1) Implementation of SSSC or NMA on WAAS satellites alone would 
        only provide users with one, or possibly two, authenticated GPS 
        signals. While this would constrain a spoofer significantly, it 
        would not be sufficient to authenticate a full three-
        dimensional navigation solution.

6.3 Multi-System Multi-Frequency Defense
    The GPS receiver on the UAV that was spoofed in the White Sands 
demonstration was a simple single-frequency GPS L1 C/A receiver. The 
UAV's navigation system could immediately be made much more secure by 
incorporating a multi-system or multi-frequency receiver that performs 
proper cross-checks among separate signal ensembles. The improvement in 
security is one of degree, not of kind because the new signals 
accessible with such a receiver would not necessarily have any better 
inherent security than the GPS L1 C/A signals. Nonetheless, the 
improvement in security can be significant because, from a spoofer's 
perspective, it is much more challenging to simultaneously spoof 
signals at multiple frequencies and from multiple systems than to spoof 
the popular single-frequency single-system GPS L1 
C/A signals.
    Satellite navigation systems other than GPS include the Russian 
GLONASS system (fully operational), the European Galileo system 
(undergoing in-orbit validation of early spacecraft; may be operational 
by 2019), and the Chinese Compass system (global system in preliminary 
test phase). Small, low-power, inexpensive GPS + GLONASS receivers are 
now available off-the-shelf. These appear to be an excellent option for 
immediately improving navigation security in existing systems.
    As a result of GPS modernization, new civil GPS signals are now 
being broadcast at the L2 and L5 frequencies in addition to the legacy 
civil signal on L1. These signals are not yet modulated with proper 
navigation data, but they can nonetheless already be used for 
consistency checks against the GPS L1 C/A signals. Similarly, the 
Galileo system will offer open-access signals at three separate 
frequencies. Off-the-shelf multi-frequency receivers are currently 
available, but these are currently several times more expensive than 
single-frequency GPS receivers or GPS + GLONASS receivers.
    The multi-system multi-frequency defense is non-cryptographic and 
stand-alone.
            6.3.1 Benefits
    (1) Small, low-power, inexpensive GPS + GALILEO receivers are 
        available today.

    (2) Increases the difficulty of mounting a spoofing attack by 
        forcing a would-be spoofer to generate other signal ensembles 
        besides GPS L1 C/A.
            6.3.2 Drawbacks
    (1) Difficulty of mounting a spoofing attack only increases 
        linearly with the number of new signal ensembles.

    (2) Multi-system, multi-frequency capability must be combined with 
        supervisory software that performs proper consistency checks 
        among observables from all signals. Currently available multi-
        system, multi-frequency receivers do not perform this 
        supervisory function.

    (3) Multi-frequency receivers will likely remain significantly more 
        expensive than legacy single-frequency GPS L1 C/A receivers.

6.4 Single-Antenna Defense
    A stand-alone non-cryptographic single-antenna spoofing defense 
developed by Cornell University was tested against the University of 
Texas spoofer during the June White Sands trials. The technique is 
still under development but initial results indicate that it offers 
reliable spoofing detection with a low probability of false alarm. 
Without false alarms, it successfully detected each spoofing trial in 
which it was invoked at White Sands. The Cornell single-antenna defense 
is an extension of the signal spatial correlation technique developed 
by the University of Calgary PLAN group.\6\
---------------------------------------------------------------------------
    \6\ J. Nielsen, A. Broumandan, and G. LaChapelle, ``Method and 
system for detecting GNSS spoofing signals,'' May 31 2011. US Patent 
7,952,519.
---------------------------------------------------------------------------
            6.4.1 Benefits
    (1) Rapid (sub-second), reliable spoofing detection with a low 
        probability of false alarm.

    (2) Stand-alone, compact.
            6.4.2 Drawbacks
    (1) Specialized receiver will likely be several times more 
        expensive than current GPS L1 C/A receivers.

    (2) Uncertain availability.

6.5 Defense Based on Spread-Spectrum Security Codes on L1C
    In 2003, Logan Scott proposed a cryptographic anti-spoofing 
technique based on spread spectrum security codes (SSSCs).\7\ The most 
recent proposed version of this technique targets the L1C signal, which 
will be broadcast on GPS Block III satellites. Logan has briefed his 
proposal to the GPS Independent Review Team and the GPS Directorate is 
aware of it.
---------------------------------------------------------------------------
    \7\ L. Scott, ``Anti-spoofing and authenticated signal 
architectures for civil navigation systems,'' in Proceedings of the ION 
GNSS Meeting, (Portland, Oregon), pp. 1542-1552, Institute of 
Navigation, 2003.
---------------------------------------------------------------------------
            6.5.1 Benefits
    (1) SSSC are an example of a high-rate security code. As shown in 
        [footnote 8],\8\ such codes offer an excellent defense against 
        spoofing.
---------------------------------------------------------------------------
    \8\ T.E. Humphreys, ``Detection strategy for cryptographic GNSS 
anti-spoofing,'' IEEE Transactions on Aerospace and Electronic Systems, 
2011 to be published; available at http://radionavlab.ae.utexas.edu/
detstrat.

    (2) Because the signal modification is targeted to L1C, whose 
        center frequency coincides with that of the legacy GPS L1 C/A 
        signal, even single-frequency receivers would have access to an 
---------------------------------------------------------------------------
        authenticated signal.

    (3) The SSSC defense would offer global civil GPS authentication 
        for all users of GPS.
            6.5.2 Drawbacks
    (1) It appears that the first 8 Block III satellites are under 
        design lockdown. There may still be time to modify the 
        remaining satellites to incorporate hardware to support SSSC, 
        but time is quickly running out.

    (2) Even if funds materialized to implement Scott's SSSC proposal, 
        the formal design and validation process would take several 
        years.

    (3) In stand-alone operation, the keys required to verify each SSSC 
        would be released up to 5 minutes after the SSSC was 
        transmitted. For 10 satellites in view, this equates to more 
        than 30 seconds between authentication events on any signal. 
        This would be far too long for use in aviation, where integrity 
        alerts within 2 seconds of an event are required. The time-to-
        authentication could be reduced to less than 2 seconds in a 
        networked architecture. For example, the keys could be sent 
        over a UAVs command-and-control link. But if the command-and-
        control link were somehow compromised, then short-horizon 
        authentication would again become impossible.
6.6 Defense Based on Navigation Message Authentication on L1C, L2C, or 
        L5
    A spoofing defense based on navigation message authentication (NMA) 
embeds public-key digital signatures into the flexible GPS civil 
navigation (CNAV) message, which offers a convenient conveyance for 
such signatures. A detailed proposal for NMA-based authentication is 
given in [footnote 9].\9\
---------------------------------------------------------------------------
    \9\ K. Wesson, M. Rothlisberger, and T.E. Humphreys, ``Practical 
cryptographic civil GPS signal authentication,'' NAVIGATION, Journal of 
the Institute of Navigation, 2012 to be published; available at http://
radionavlab.ae.utexas.edu/nma.
---------------------------------------------------------------------------
            6.6.1 Benefits
    (1) NMA-based authentication is easier to implement than SSSC 
        because the CNAV format is extensible by design so that new 
        messages can be defined within the framework of the GPS 
        Interference Specification (IS). The current GPS IS defines 
        only 15 of 64 CNAV messages, reserving the undefined 49 CNAV 
        messages for future use.

    (2) Could be implemented post-launch on Block IIR-M, Block II-F, 
        and Block III satellites.

    (3) Like SSSC, the NMA-based defense would offer global civil GPS 
        authentication for all users of GPS.
            6.6.2 Drawbacks
    (1) Inherently less secure than SSSC because its security codes are 
        low rate.

    (2) As with SSSC, in stand-alone operation there is an up-to-5-
        minute delay between authentication events for any particular 
        signal. The discussion in Drawback 3 of the SSSC technique 
        applies here in full.
6.7 Correlation Profile Anomaly Defense
    This stand-alone non-cryptographic defense relies on the difficulty 
of: (1) Suppressing the true GPS signals during a spoofing attack, and 
(2) exactly duplicating the correlation profile of the authentic GPS 
signals. A preliminary description of this defense is given in 
[footnote 10].\10\
---------------------------------------------------------------------------
    \10\ K. Wesson, D. Shepard, J. Bhatti, and T.E. Humphreys, ``An 
evaluation of the vestigial signal defense for civil GPS anti-
spoofing,'' in Proceedings of the ION GNSS Meeting, (Portland, Oregon), 
Institute of Navigation, 2011.
---------------------------------------------------------------------------
            6.7.1 Benefits
    (1) Immediately implementable, low-cost defense.

    (2) No additional hardware required.

    (3) Effective for stationary GPS receivers such as are used for 
        timing applications.
            6.7.2 Drawbacks
    (1) Can get confused by multipath when implemented on moving 
        receivers.
6.8 Multi-Antenna Defense
    This stand-alone non-cryptographic defense is based on the premise 
that a spoofer will have great difficulty in mimicking the relative 
carrier phase of the authentic signals as seen by two or more 
spatially-separated antennas. The technique is detailed in [footnote 
11].\11\
---------------------------------------------------------------------------
    \11\ P.Y. Montgomery, T.E. Humphreys, and B.M. Ledvina, ``A multi-
antenna defense: Receiver-autonomous GPS spoofing detection,'' Inside 
GNSS, vol. 4, pp. 40-46, April 2009.
---------------------------------------------------------------------------
            6.8.1 Benefits
    (1) Extremely effective spoofing defense when combined with 
        physical security of the antenna array.

    (2) Immediately implementable.
            6.8.2 Drawbacks
    (1) Additional antenna(s) and RF front-ends required add cost and 
        weight to the defended receiver.

6.9 Defense Based on Cross-Correlation with Military Signals
    This networked cryptographic defense correlates the unknown 
encrypted military P(Y) code between two civil GPS receivers, 
exploiting known carrier-phase and code-phase relationships. It is 
similar to the dual-frequency codeless and semicodeless techniques that 
civil GPS receivers apply to track the P(Y) code on L2. Originally 
developed by researchers at Stanford University, the technique has been 
refined and tested by researchers at Cornell University and the 
University of Texas.\12\
---------------------------------------------------------------------------
    \12\ M. Psiaki, B. O'Hanlon, J. Bhatti, D. Shepard, and T. 
Humphreys, ``GPS spoofing detection via dual-receiver correlation of 
military signals,'' IEEE Transactions on Aerospace and Electronic 
Systems, 2012 submitted for review; available at http://
web.mae.cornell.edu/psiaki/.
---------------------------------------------------------------------------
            6.9.1 Benefits
    (1) Strong defense.

    (2) Immediately implementable.

    (3) Less than 2-second time to detection.
            6.9.2 Drawbacks
    (1) Requires a persistent network connection.

    (2) Computationally expensive.
                           7. recommendations
    (1) I recommend that for non-recreational operation in the National 
        airspace, civil unmanned aerial vehicles exceeding 18 lbs be 
        required to employ navigation systems that are spoof-resistant. 
        Spoof resistance will be defined through a series of four 
        canned attack scenarios that can be recreated in a laboratory 
        setting. A navigation system is declared spoof resistant if, 
        for each attack scenario, the system is:

    <bullet> (a) unaffected by the spoofing attack, or

    <bullet> (b) able to detect the spoofing attack.

    (2) More broadly, I recommend that GPS-based timing or navigation 
        systems having a non-trivial role in systems designated by DHS 
        as National critical infrastructure be required to be spoof-
        resistant.

    (3) I recommend that the Department of Homeland Security commit to 
        funding, development, and implementation of a cryptographic 
        authentication signature in one of the existing or forthcoming 
        civil GPS signals. The signature should at minimum take the 
        form of a digital signature interleaved into the navigation 
        message stream of the WAAS signals. Better would be to 
        interleave the signature into the CNAV or CNAV2 GPS navigation 
        message stream. Best would be to implement the signature as a 
        spread spectrum security code interleaved into the spreading 
        code of the L1C data channel.

    Mr. McCaul. Thank you, Dr. Humphreys, and let me just state 
for the record I think they canceled the UT football practice 
to do that demonstration; is that correct?
    Mr. Humphreys. Losing football practice was the biggest 
miracle of all in my students' eyes.
    Mr. McCaul. Which is a big deal in Texas.
    Let me just follow-up on your last comment because I think 
that is probably the most--well, first of all this is 
astounding that you could hijack a UAV and bring it down, and I 
think it is an eye opener. Let me also state that military UAVs 
are encrypted. This could not be done to a military UAV such as 
the ones used on the border, but any ones used domestically I 
think have this vulnerability that we are very concerned about. 
I will ask you about that later.
    But you mentioned that you talked to the FAA and their main 
concern is security of the airways.
    Mr. Humphreys. Safety of the airways.
    Mr. McCaul. I am sorry. Safety of the airways. In terms 
of--we will designate a flight pattern and they want to make 
sure that there are no other either airplanes or UAVs that 
would interfere with that flight pattern, but their focus is 
not security.
    Mr. Humphreys. That is right.
    Mr. McCaul. So there is no Federal agency that is providing 
oversight in terms of that security aspect today; is that 
correct?
    Mr. Humphreys. As far as I know. As far as I know. I 
believe that the DHS has a role to play in that and that the 
FAA could possibly play a role there, too. But as I say, its 
culture and its expertise are not designed for that.
    Mr. McCaul. Well, I think the Government Accountability 
Office agreed for you. In their report they said that this is 
the role, when they directed the Secretary of Homeland 
Security, to the TSA, to basically provide for that security, 
assess the security risk within the country domestically and 
develop a National policy. So I think you have some company 
there in terms of agreement. I find this to be you know a bit 
of a ``no one's minding the store''-type scenario. No Federal 
agency is wanting to step up to the plate, and when you got the 
GAO saying that DHS needs to do it, I tend to agree with them 
that DHS should be stepping up to the plate, and yet they 
failed to even bring witnesses to testify here today on this 
very, very important issue when you had a terror plot just 
thwarted right at the United States Capitol less than a year 
ago using one of these UAVs.
    Getting back to--well, let me ask you this. You have 
identified a real vulnerability with these domestic UAVs. Tell 
me what would be sort of your kind of nightmare scenario in 
demonstrating what you are able to do with the UAVs if a 
terrorist or some other malicious person wanted to exploit the 
system.
    Mr. Humphreys. Okay. Well, first I should point out that 
currently I am not terribly worried about this. The UAV that we 
brought down was only about 13 pounds. Not very large. It could 
do some damage to you if it fell on you and the helicopter 
blades swing swiftly. But I am not terribly worried at present.
    What my nightmare scenario would be is looking forward 3 or 
4 years where we have now adopted the UAVs into the National 
airspace without addressing this problem, and now the problem 
is scaling up so that we have got more heavy UAVs, more capable 
UAVs and yet this particular vulnerability isn't addressed. So 
that would be my nightmare scenario. We don't fix it and it 
becomes even more an indigenous problem in the UAV navigation 
systems.
    Mr. McCaul. In fact I think in the next 2 years predictably 
we will have thousands of these things flying around 
domestically. Does that give you concern given the fact that 
there is no Federal agency really addressing the security 
aspects?
    Mr. Humphreys. The FAA did make a prediction that by 2020 
there could be 30,000 of these flying our airspace. It does 
concern me. I would like someone to take, to take ownership of 
the security component of UAVs coming into the National 
airspace.
    Mr. McCaul. Getting back to the--I mean, you have done I 
think the country a great service by identifying a 
vulnerability. You know, we talk a lot about cybersecurity, if 
you are connected to the internet you are vulnerable. What you 
have identified is if you are connected to a GPS device you are 
vulnerable.
    Can you explain to us basically how that works in the 
limited amount of time I have left and how we can fix that?
    Mr. Humphreys. Yeah, sure. Well, you are right. This is a 
bigger problem than UAVs. This is just one expression of the 
larger problem of unauthenticated civilian GPS signals The 
civilian GPS signals have been so popular, so useful that over 
the last 2 decades we have absorbed the technology deeply into 
our critical National infrastructure. So it is that even manned 
aircraft have some vulnerability to spoofing. Financial 
exchanges and the energy distribution system are increasingly 
reliant on GPS for timing. So in fact this is, this is a larger 
problem than the UAV and it all gets traced back to the 
unauthenticated civilian GPS signals.
    Mr. McCaul. I see my time is about ready to expire but let 
me just say ``thank you'' for coming up to Washington and 
testifying here today. Thank you for what I believe is a great 
service to the country. Thanks for identifying a vulnerability, 
not only technology-wise but also from a bureaucratic 
standpoint. I intend for this committee to fix this problem.
    With that, the Chairman now recognizes the Ranking Member, 
Mr. Cuellar.
    Mr. Cuellar. Thank you very much, Mr. Chairman. Doctor, 
thank you again very much and I appreciate the work that you 
have done. Let me just to repeat again, the specific spoofing 
efforts were beyond successful against the encrypted military-
grade GPS systems, is that correct?
    Mr. Humphreys. It is important to remember that. Yes.
    Mr. Cuellar. Right. So we are talking civilian UAVs.
    Mr. Humphreys. We are talking about civilian GPS and 
civilian UAVs.
    Mr. Cuellar. I would note that also my understanding is 
that for the civilian, there is different purposes, law 
enforcement, ag purposes, university.
    Mr. Humphreys. Research purposes.
    Mr. Cuellar. Research purposes. All of that.
    So for civilian purposes or commercial purposes most of 
those UAVs are going to be small, maybe 11 pounds, mini-
helicopters, and I just saw one in Laredo for law enforcement 
purposes, small ones, and they are used for specific instances 
and it is usually line of sight, is that correct, most of them?
    Mr. Humphreys. Those are the norms under which they 
currently operate.
    Mr. Cuellar. So if it is law enforcement, it would be line 
of sight, most of the time it would be there, and they are 
usually 11 pounds; or whatever the case might be?
    Mr. Humphreys. Yeah. That helps to put that into 
perspective, and I appreciate that, too.
    Mr. Cuellar. Right. The other thing is since spoofing 
focuses on GPS signals, it goes beyond unmanned aircraft which 
means that anything from cell phones to aircraft will depend, 
you can have an impact on anything dealing with GPS that 
depends on GPS for navigation. So it is not only the unmanned. 
It could be other technologies; is that correct?
    Mr. Humphreys. Entirely true. As long as they are depending 
on civilian GPS signals.
    Mr. Cuellar. Right. Exactly.
    Now, I think in a recent interview you stated that the 
closest thing we had for a foolproof way to prevent spoofing 
would be for the GPS, the--I think it is part of the Air Force 
or actually also civilian?
    Mr. Humphreys. Yes. The Directorate.
    Mr. Cuellar. Yeah, the Directorate, that is correct, from 
coming down. Can you explain how this would be done without an 
impact to existing devices that rely on GPS and explain that 
Air Force Directorate?
    Mr. Humphreys. Sure. Well, I said that is the closest thing 
to foolproof, but the truth is that it would take a long time 
for that to be planned, rolled out, and implemented. So I am 
not holding my breath for a change in the signals being 
broadcast by the GPS satellites. I would like to have it happen 
because it would be a solution that would solve the problem for 
everyone worldwide that uses the civil GPS signals. At least it 
would solve the problem to some degree. How this would not 
affect people who currently use GPS, well, we can make it 
backward-compatible. So that if you pay attention, it is like a 
watermark you see in a $20 bill. If you hold up the $20 dollar 
bill, you can see the watermark. But if you don't pay attention 
you are not bothered by its presence. The same thing happens 
with adding authentication signatures to civilian GPS.
    Mr. Cuellar. Right. Bottom line is spoofing will affect GPS 
signals which means anything that depends on GPS signals for 
navigation, right?
    Mr. Humphreys. Yeah, you can think of this UAV problem as 
but one expression of the larger problem.
    Mr. Cuellar. Right, exactly. Most of the civilian 
commercial purposes of the UAVs are going to be small, and I 
have seen different types of UAVs and most of them are, I mean 
a lot of them are going to be mini-helicopters. They are going 
to be within a specific site for that specific purpose, law 
enforcement, ag, scientific, news, whatever the case might be?
    Mr. Humphreys. That is right. Initially I anticipate that 
it will always be very specific when these get authorization. I 
don't know how it is going to look 10 or 20 years from now, 
whether we are going to have UAV highways in the sky like you 
might see in the movies. But initially it is going to be very 
specific. As far as your comments about small UAVs, I want to 
point out that one of my recommendations in the written 
testimony is that UAVs exceeding 18 pounds in weight be 
required to have a spoof-resistant navigation system, but I 
recognize that we wouldn't want to encumber the smaller UAVs 
which are less of a danger and more sensitive to price with 
that same sort of requirement.
    So I recognize there is a balance to be struck here and we 
can debate about the 18 pounds versus the 16 pounds, but as 
they get above 18 pounds they do become quite, quite deadly if 
they, if something goes awry.
    Mr. Cuellar. Right, right. The bottom line is I really 
appreciate it because like any time we go into a new technology 
and we are talking about UAVs and it is basically the 
technology is a different platform. You got cameras or sensors, 
whatever it might be, but it is a different platform, whether 
it is a helicopter, an airplane, this time a UAV. I really 
appreciate what you are doing, and I certainly will be looking 
at your recommendations. I think it is a lot of good work 
that--you and your students' data. I think it is a great job 
and certainly we are going to take that into consideration, and 
I thank you for your good work.
    Mr. Humphreys. Thank you, Mr. Cuellar.
    Mr. McCaul. I thank the Ranking Member and just I would 
like for you--I haven't had a chance to ask you about your 
recommendations for safety and security but if I ask that you 
submit that for the record, that would be excellent.
    Mr. McCaul. I now recognize the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and I want to thank 
Dr. Humphreys for being here. This is very educational to me.
    In thinking through as we watched the video, thinking 
through what happened in 2011 in Iran with the Iranians 
claiming to have hijacked a military UAV, I guess the question 
I have for you, I know that was an encrypted signal but do you 
think that the Iranians were able to use a similar technology 
of spoofing to help bring down that UAV?
    Mr. Humphreys. I think it is important to take whatever the 
Iranians say with a couple of doses of salt. But in this case, 
I am somewhat concerned that their claims could have some 
merit. They may have initiated an electronic barrage against 
the CIA UAV that was flying their airspace, and it could have 
initiated a sequence of events that led to its capture. The 
plain fact is it showed up on Iranian television intact. 
Intact. That means we have got a lot of explaining to do.
    Mr. Duncan. Right. I mean, that means that didn't crash.
    So that type of an electronic barrage that you mentioned 
that may have been used, is that possible, a possibility within 
civilian airspace? If someone wanted to capture say a law 
enforcement UAV, could they put up an electronic barrage to 
bring down a law enforcement UAV?
    Mr. Humphreys. Similar techniques could be used. UAVs 
typically have two important wireless signals, the command-and-
control signal, the signal that goes back to the remote pilot, 
and then of course the GPS signal that helps it to navigate. 
Mostly the UAVs do well if you cut one of those two umbilical 
cords, but they don't do well if you cut both of them. In our 
case, with the spoofing, we didn't cut the cord, we supplanted 
it with a fictitious one. So I am broadly concerned about 
jamming electronic barrage attacks and about spoofing, these 
more sinister under-the-wire attacks.
    Mr. Duncan. So you not only changed the GPS signal to fool 
the UAV in regard to elevation or direction but you were able 
to tap into the command-and-control aspect as well?
    Mr. Humphreys. No, we did not attempt that. What I am 
saying is that that could be done as a jamming attack. You 
could cut that cord and prevent the remote operator from 
controlling the UAV as he or she wishes.
    Mr. Duncan. So you were able to change the GPS signal and 
to fool the plane into thinking the elevation was differently 
to bring it down?
    Mr. Humphreys. Yes, and the remote operator was in contact 
with the UAV the entire time. It was just that nothing appeared 
wrong to his sensors in the current configuration that we 
attacked.
    Mr. Duncan. But you couldn't have flown that UAV through 
any command-and-control ability to another runway and captured 
it.
    Mr. Humphreys. Ultimately, yes. It is not terribly easy to 
control it once you have got it. It is like a black stallion 
you find in the forest. You can jump on its back; can you ride 
it? The question that we have been asking ourselves is what 
could be done actually after you have captured it other than 
just moving it down like we did or doing broad strokes.
    Mr. Duncan. Right. Well, if the drone is used for 
surveillance purposes and has a real-time video feed, could 
that feed be hacked into or a replacement feed sent to fool the 
operator? I am thinking Mission Impossible here where they 
change the video feed and the operator is seeing something 
completely different; is that a possibility?
    Mr. Humphreys. Or sneak up there and put a Polaroid picture 
right in front of the video feed?
    Mr. Duncan. Exactly.
    Mr. Humphreys. Well, it turns out that these are areas of 
research in our laboratory and elsewhere, but the truth is that 
those kinds of data feeds can take advantage of the existing 
encryption utilities that are very difficult to crack. So if 
precautions have been put in place so those feeds are encrypted 
then it is not so easy.
    The attack that we were successful in was going after the 
unencrypted, unauthenticated civil GPS signal. Nobody had 
bothered to protect that signal and so that was the weakest 
link.
    Mr. Duncan. Do you think most law enforcement or most 
agencies, even Governmental agencies over the United States are 
using encrypted signals capability or using just civilian GPS?
    Mr. Humphreys. Only a very few civil government agencies in 
the United States are using the encrypted military signal. 
Almost all of us depend on these civilian signals. I will tell 
you that I had two of the lieutenants in the Austin Police 
Department in my office on Tuesday, and they were asking me for 
guidance on what I would do with their newly-purchased UAV. 
Would I use it, would I recommend that they use it during game 
day as they want to monitor for suspicious activities on, 
around the UT football stadium? Would I recommend they for SWAT 
activities as they have perhaps hostage situations and so 
forth? So I gave them my recommendations, which were if you 
have got some risk on the ground already I would get those eyes 
in the sky but if there isn't an on-going risky activity on the 
ground, I would probably keep it down.
    Mr. Duncan. Do you think criminal elements could utilize 
this activity to thwart law enforcement surveillance?
    Mr. Humphreys. I think they could use the technology, the 
spoofing technology that I was talking about?
    Mr. Duncan. The GPS technology that the students have come 
up with.
    Mr. Humphreys. I want to make a point that this is not 
easy. It wasn't easy to build the device that we have got. It 
has taken us years to perfect its use. The trouble is that 
civilian malefactors or others can get a hold of what are 
called GPS signal simulators, and they can do almost everything 
that we did. These are readily available, even purchasable. So 
I am worried that it could be a weapon in the arsenal of 
organized crime or state actors or organized terrorists.
    Mr. Duncan. Thank you. My time is up. I yield back, Mr. 
Chairman.
    Mr. McCaul. Right. The Chairman now recognizes the actual 
Ranking Member of the subcommittee, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. The thought of having 
two Texas representatives here prompted me to get here with 
great alacrity, but I want to thank Mr. Cuellar for his fine 
performance. I appreciate that. Thank you, Mr. Chairman. I just 
ask unanimous consent that my statement go on the record so 
that we can move expeditiously to questions.
    [The statement of Mr. Keating follows:]

              Statement of Ranking Member William Keating

    I want to thank Chairman McCaul for holding today's hearing to 
examine the use of Unmanned Aerial Vehicles, or UAVs, within the 
homeland.
    For years, the United States has successfully deployed UAVs in 
military operations throughout Iraq and Afghanistan.
    More recently, changes in the law have paved the way for public 
agencies--including State and local law enforcement--to pursue UAVs 
technology for law enforcement use.
    At present, the impact of UAVs flying in the National airspace and 
participating in day-to-day activities like watering fields and 
spraying pesticides is unknown; however, there are both risks and 
benefits to expanding this technology within the homeland.
    As a Member representing a maritime district, I am impressed with 
the ability of UAVs to map hurricanes, respond to severe flooding, and 
assist the U.S. Coast Guard in search-and-rescue missions.
    The unique manner in which UAVs conduct surveillance and 
reconnaissance has also resulted in successful military missions; 
however, it is these same capabilities that make UAVs so disconcerting 
at home.
    To that end, I am concerned about the lack of oversight on these 
vehicles, the fact that there is a continuing need to define what they 
can and cannot be used for and finally, the absence of privacy 
safeguards that currently do not exist.
    I understand the general public's concern. UAVs can be equipped 
with thermal-imaging sensors; WiFi sniffers; license plate readers, and 
facial recognition cameras.
    Moreover, they can hover over the same location for extended 
periods of time, collecting information and searching targets and 
properties within view without first obtaining a warrant.
    Some law enforcement agencies have already procured UAVs capable of 
firing non-lethal weapons and there aren't any rules, laws, or 
regulations in place to prevent these agencies from fully weaponizing 
this equipment.
    I do not mean to use this hearing as an opporuntity to fear monger 
because as a former District Attorney, I do not believe that it's law 
enforcement's intent to employ these technologies in a harmful manner, 
but I am seriously concerned that there is not one single Federal 
agency responsible for overseeing the operations of UAVs in our 
National airspace.
    Moreover, safety issues, such as: Sense-and-avoid technologies that 
enable UAVs to avoid other aircraft; the absence of a dedicated radio 
frequency for UAVs; and the assurance of constant command-and-control 
on the ground--continue to exist.
    As Chairman McCaul knows, I take a particular interest in airport 
perimeter security and the deployment of these technologies makes me 
wonder how far we are stretching this perimeter when airplanes are made 
to share the skies with UAVs. What does this mean for passenger safety?
    Furthermore, as we will learn this morning, the risk faced by 
hackers and spoofers seeking to intercept and use for their own 
purposes information captured by UAVs has not been fully addressed.
    As a result, I am looking forward to hearing from today's witnesses 
about the best path forward as we seek to safely and lawfully integrate 
UAVs in our National airspace.
    As we grapple with UAVs and the privacy and safety issues they 
present, I would be remiss if I did not also mention a much safer and 
non-invasive unmanned technology--underwater unmanned vehicles, or 
UUVs--developed throughout the United States and often tested in waters 
right off the Cape.
    There are today an estimated 450 underwater unmanned vehicles in 
the U.S. military inventory.
    At present, the primary missions of UUVs are mine detection and 
maritime security and as we've already seen with the Deepwater horizon 
disaster--where UUVs developed at Wood's Hole Oceanographic Institute 
were deployed to record the contamination of the water--there are many 
homeland security-related applications that can be pursued for 
underwater technologies, as well.
    Again, I look forward to hearing from today's witnesses.
    I yield back the balance of my time.

    Mr. Keating. I had just a question for Dr. Humphreys. When 
you are comparing the civilian, if you want to use that term, 
versus what law enforcement uses in the different codes of 
encryption, what is the cost differential? You know, if law 
enforcement wants encrypted more, is the cost-prohibitive or 
would that be a better track to take to differentiate it so 
that there is more encryption and more safety as a result from 
spoofing?
    Mr. Humphreys. Right. So perhaps you are voicing some of 
the recommendations that the AUVSI group has recommended. They 
would like to use the so-called SASM receivers, GPS receivers 
that have been formerly dedicated just for military uses, into 
the civilian UAVs so that they can be protected from these 
kinds of hacking attacks. The trouble I see with that is two-
fold. No. 1, yes, the price goes quite a bit up because there 
are only a couple of companies that can build these SASM 
receivers and so the price would much more than double, and 
that is going to hurt this Nation's industry that is sensitive 
to price, especially for the smaller devices. Second, I don't 
see the logistics working out. These SASM receives are hot 
items. You would not want them proliferating among civilians. 
You wouldn't want them to end up in the wrong hands, and you 
wouldn't necessarily want to distribute the keys on a short-
term basis because that is cumbersome for the owners and you 
don't want to distribute them on a long-term basis because then 
they can be used in unauthorized senses.
    So I don't see that as a solution. I don't see military 
signals being used by civilians as a widespread solution.
    Mr. Keating. Just another question. You know, we have dealt 
quite a bit with airport security on this committee as well. As 
any person is told to turn off your cell phone, turn off 
everything during the critical periods of communication on 
landing and takeoff, how could this be used to disrupt the 
orderly and safe takeoffs and landings of airplanes, commercial 
airplanes?
    The FAA is rolling out what is called its NextGen system. 
It is an air traffic control system that depends much more 
heavily on GPS than their current system. Of course, they are 
also using in commercial aircraft and general aviation the 
civilian GPS signals. Now, these planes are large and they have 
good inertial sensors and they have two pilots at the helm. So 
there is some redundancies in place. But the autopilots depend 
quite heavily on the GPS. Whereas they deal fairly well with an 
outage of GPS, a jamming attack for example, or some other 
reason that it goes away, I don't think the testing has been 
adequate for understanding how they would deal with a spoofing 
attack.
    Mr. Keating. Thank you. Mr. Chairman, I yield back my time.
    Mr. McCaul. Thank the Ranking Member. The Chairman now 
recognizes the gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank our 
Ranking Member, Mr. Cuellar, for filling in.
    Dr. Humphreys, I find this whole topic quite fascinating. I 
serve as Ranking Member on the Subcommittee for Cybersecurity 
and Infrastructure Protection. So this is quite fascinating. 
One of the questions I have, and I have had this quite 
frequently as we advance our technological know-how, is whether 
in fact it pays in the outset to bake into our technology ways 
in which we can counteract disruption or if need be disarm and 
disable the devices that are developed. It would seem to me 
knowing what we know, that the next generation of UAVs would be 
sensitive enough that if any spoofing activity were to take 
place, something could be baked into the device that would 
protect us.
    What say you about that?
    Mr. Humphreys. I agree with that, and I would recommend 
wholeheartedly efforts to bake in, as you say, anti-spoofing 
techniques into the UAV technology. The problem would be 
finding ourselves 5 or 10 years from now without taking this 
issue as seriously enough that now we have got a great number 
of these UAVs plying our airspace which are, which continue to 
be just as vulnerable as the one that we took down. There are 
techniques, there are simple techniques that, while not 
foolproof, they can increase the resistance to a spoofing 
attack significantly. I recommend in my written testimony a 
long list of these techniques. Some of them simple, some of 
them not so simple. The bare fact is that anti-spoofing is 
hard. There is no quick and easy and cheap solution, but there 
are reasonable cost-effective measures we can take in the short 
term to bake this in, as you say.
    Ms. Clarke. You also stated that in your view the problem 
should be solved at the source, at the GPS satellites 
themselves. Do you believe that this is likely to occur?
    Mr. Humphreys. So I did say that on an interview. I guess I 
despair at the kinds of institutional changes that would be 
required looking for funding, looking for a political will to 
bring that about. In the very best scenario it might take 5 
years before we see any protection. So I am becoming more 
pessimistic that we can solve this problem at the GPS 
satellites themselves. I suppose that a more grassroots 
approach from the UAVs within their navigation systems is more 
reasonable, more practical.
    Ms. Clarke. Dr. Humphreys, you recommended that DHS commit 
to funding development and implementation of a cryptographic 
authentication signature in existing or forthcoming civil GPS 
signals.
    How did DHS respond to this recommendation, and do you 
think the agency will make the suggested changes?
    Mr. Humphreys. So this is a long-term recommendation. As I 
said, I am not terribly sanguine about it happening tomorrow or 
even within 5 years, but long-term I would like DHS to commit 
to funding this. The Department of Defense has indicated some 
willingness to implement a change to the civil GPS signals so 
that the can be authenticated like putting a watermark on a $20 
bill, but they don't have funds to do it. They have got tight 
budgets and they are looking for somebody who would step up to 
fund it. I believe it would fall to the DHS to fund something 
like this. I can't say that I am terribly optimistic.
    Ms. Clarke. So just listening what you have had to say, 
when you look at the rate at which these UAVs are being 
produced, and if your estimate is that it might take us about 5 
years to get there, we could be talking about you know tens of 
thousands of UAVs at that point in time having been deployed at 
some level, whether it is military, whether it is local law 
enforcement.
    So, you know, I want to thank you first of all for the work 
that you have done, the research, and the capabilities that you 
have uncovered, but my concern is, you know, what you suggest 
we do right now.
    Mr. Humphreys. The suggestions I have right now are these 
grassroots approaches for fixing the UAV without having to ask 
permission of the DHS or the GPS Directorate of the Air Force. 
There are reasonable techniques that you can bake into the GPS 
receivers and into the entire navigation systems of these UAVs. 
But while they don't prevent sophisticated, very sophisticated 
attacks, they would sure make them much harder.
    Ms. Clarke. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. McCaul. I thank the gentlelady and you raise a great 
point, and if anything, I hope we can fix these vulnerabilities 
that we have, and I again ask that you put those 
recommendations into the record.
    The Chairman now recognizes the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. I must 
confess that I am fascinated by this. I was sitting here 
thinking that we may have all of these things in the 
environment zinging all around every place when you watch what 
used to be science fiction. I am not sure it is as much fiction 
now as it used to be. But I was trying to figure out the 
utilization and utility. What is the usefulness of the 
continuous development of this technology?
    Mr. Humphreys. That is a great question. There are in fact 
a lot of great uses to which these drones could be put. I 
particularly want to use them in our research so that we can do 
better detection of interference sources in the GPS radio 
bands, and I will confess also that I am looking forward to a 
day when I could get a burrito delivered to my doorstep from a 
drone that does takeout delivery.
    Other types of uses could be in monitoring power lines. Of 
course monitoring the border, helping to surveil to difficult 
situations like a SWAT attack against somebody who has got a 
hostage situation on-going. So I see these as being very 
useful, and I would not want to put the brakes on the plan the 
FAA has to roll them out in the future. I would simply want to 
hold the FAA to the language of the act passed back in February 
so that we safely accelerate the adoption of these UAVs into 
the National airspace.
    Mr. Davis. I guess since we have got a great deal of 
concern about terrorism, terrorists, terrorist plots, that it 
would give us the opportunity to stay a step ahead of 
individuals or countries even that might have other kinds of 
motivation for further development.
    Mr. Humphreys. That is true. If you put the brakes on this 
massive industry now, you end up putting us at a disadvantage 
compared to other countries. The UAV revolution is coming and 
we might as well be on the cutting edge of it.
    Mr. Davis. How do we balance, and I am thinking of all of 
the concerns that we have right now about money and 
expenditures and, you know, when we cut $25 billion out of this 
or we deny people food stamps. You know I think of people who 
are having so much difficulty simply having shelter or a place 
to live. How do we balance the utilization of our resources in 
terms of what it would take to further develop the technology 
that we are talking about versus how do you feed the hungry?
    Mr. Humphreys. Well, it is a good question, but I guess I 
would point out that in many cases these UAVs would save money. 
The Austin Police Department, the lieutenants that were talking 
to me last Tuesday, were telling me that it cost them $5 
million to buy a helicopter for manned use for surveillance and 
so forth and maybe only $50,000 for UAV. They are on a tight 
budget, so I can understand why they would be looking to the 
UAVs to save money. That frees up budgets for other worthy uses 
of those funds.
    It is also going to be I think a dynamo for innovation and 
jobs, a healthy domestic UAV industry. My main contention is 
that, let's let it go ahead, but let's be vigilant about the 
uses to which these UAVs are put and ensure that people's 
privacy and their security is a top priority.
    Mr. Davis. Well, let me thank you very much. I certainly 
support technological exploration and technological 
advancement. I just want to be as balanced about it as we can, 
and I commend you for your work. Thank you very much.
    Mr. McCaul. I thank the gentleman. The Chairman now 
indulges the gentleman from Texas, Mr. Cuellar, for one 
question.
    Mr. Cuellar. One question. Again, I appreciate all of the 
good work you have done. There are, first of all, there is the 
military type of drones or UAVs, and then there is the hobby 
UAVs and then the commercial UAVs. Would you say that?
    Mr. Humphreys. I think those are good broad 
classifications, yes.
    Mr. Cuellar. What you used was----
    Mr. Humphreys. It wasn't a personal UAV. It was an $80,000 
device.
    Mr. Cuellar. But was it a hobby?
    Mr. Humphreys. No. I mean a hobbyist could use it, of 
course, but it was quite expensive for your average weekend 
hobbyist.
    Mr. Cuellar. Right. My understanding is that most of the 
hobby UAVs do not have protection over radio signals and they 
can be easily taken over, whether it is $80,000 or $5,000. My 
understanding is most commercial UAVs have encryption 
communication, the frequency hop or the transmission methods 
where hacking or spoofing would be a lot more difficult; is 
that correct?
    Mr. Humphreys. The communication to the UAV from the remote 
pilot might well be secure, but the spoofing of the GPS signals 
is not secure and that is what we demonstrated. We were using a 
high-end sophisticated UAV. We were not using a do-it-yourself 
drone.
    Mr. Cuellar. Right. My understanding is most of the 
commercial UAVs do have the encryption on it and having the 
encryption is very important because just like Robert Hanssen, 
remember the FBI person, they were selling the encryption keys 
and there were certain things involved on that, but I just 
wanted to--like I say I appreciate the work but I want to make 
sure we----
    Mr. Humphreys. Yes. They may well have encryption on the 
command-and-control link. They do not have encryption on the 
GPS navigation link.
    Mr. Cuellar. Those are the recommendations that you 
mentioned to the Chairman----
    Mr. Humphreys. I recommend that we ensure that UAVs 
exceeding 18 pounds have certified themselves as spoof-
resistant, and I give a brief definition for that in my 
statement. Also I am willing to entertain that definition in 
further research.
    Mr. Cuellar. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. McCaul. I thank the gentleman. Let me just also 
reiterate what Mr. Cuellar said earlier, and that is we have 
worked together very closely on getting these UAVs, military, 
DHS, down on the border, Southwest Border where they are very 
needed and very valuable in securing the border. What we are 
talking about here today is the domestic use of UAVs, which are 
not encrypted, which are vulnerable, and there is really no 
policy set forth at a National level in terms of: How do we 
deal with these UAVs that we know in the next couple of years 
are going to multiply by the thousands? I think it is incumbent 
upon the Department of Homeland Security, particularly in light 
of this terrorist plot, to engage on this issue and come 
forward with some leadership and provide that security and 
policy.
    So with that, I would really want to thank our witness, Dr. 
Humphreys. It has been a real pleasure, not only to hear your 
insightful and very intelligent testimony but on a personal 
level to meet you as well. Thank you for being here.
    Mr. Humphreys. Thank you, Chairman McCaul and all of you 
Members of the subcommittee.
    Mr. McCaul. With that, the first panel is adjourned and we 
will move into the second panel.
    The Chairman now recognizes the second panel, and before I 
do that, I want to ask unanimous consent that this committee 
welcome a colleague and fellow Texan, Congressman Kevin Brady, 
to introduce his local hometown sheriff.
    Mr. Brady. Great. Well, thank you very much, Chairman 
McCaul and Ranking Member Keating. I want to thank you and the 
other Members of the committee for allowing me this special 
privilege today. I am very pleased to be able to introduce to 
the committee today not only a constituent but a friend and an 
incredible law enforcement officer who has hands-on experience 
in this very subject, Chief Deputy William Randy McDaniel of 
the Montgomery County Sheriff's Office. The Montgomery County, 
Texas Sheriff's Office has jurisdiction over Houston's largest 
suburb, and it is one of the fastest-growing counties in 
America. It is the only agency in Texas that is currently using 
unmanned aerial vehicles for law enforcement purposes. In my 
view it has tremendous potential for public safety, for 
emergency response, for search and rescue, and at times during 
natural disasters such as the wildfires we experienced locally 
last year.
    Chief McDaniel is a decorated law enforcement officer with 
an impressive career spanning many decades. He has received the 
Texas Department of Public Safety, Traffic Law Enforcement 
Division Chief's Award for Excellence, two awards in that 
arena. While serving the United States Air Force, he received 
the Air Force Commendation Medal, the Humanitarian Service 
Medal, and the 15th Air Force Combat Crew Excellence Award. He 
is also a graduate of the FBI National Academy in Quantico, 
Virginia.
    I know that Chief McDaniel's testimony will be insightful 
and helpful in an emerging issue. So thank you for allowing me 
to introduce this good friend of the community today, Chief 
McDaniel. Thank you for being here.
    Mr. McCaul. Thank you, Mr. Brady, for that very good and 
kind introduction. With that I am going to introduce the rest 
of the panel.
    Dr. Gerald Dillingham is currently the director of the 
civil aviation issues for the U.S. Government Accountability 
Office, or GAO. He is a member of the Senior Executive Service 
and is responsible for direction, program evaluations, and 
policy analysis studies related to civilian aviation issues, 
including safety, environment, air traffic control, airport 
development, and international aviation.
    Prior to coming to GAO in 1981, Dr. Dillingham served on 
the faculties of the University of California and the 
University of Illinois. I note that for Mr. Davis, my 
colleague, a fellow Illinoian. In addition, he served on the 
National Commission on Terrorist Attacks upon the United 
States, or the 9/11 Commission, on the aviation in 
transportation security team from 2003 to 2004.
    Let me see here. My notes. I apologize. Our last witness, 
last but not least, Ms. Amie Stepanovich is the legal counsel 
at the Electronic Privacy Information Center. Her work includes 
issues of National security, Government surveillance, digital 
security, and open Government. Ms. Stepanovich is the moderator 
of a weekly Twitter-based privacy discussion. She regularly 
assists with EPIC's internet and social media web presence. 
Prior to joining EPIC, not to be confused with the El Paso 
Intelligence Center, I don't think anybody would ever confuse 
you with being associated with them, but Ms. Stepanovich 
graduated from New York Law School where she pursued studies on 
media law, technology, and the First Amendment. We appreciate 
you being here today as well to bring up these very important 
privacy issues that we see with the domestic use of these UAVs.
    So with that, now the Chairman recognizes Mr. Dillingham 
for his opening statement.

 STATEMENT OF GERALD L. DILLINGHAM, PH.D., DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dillingham. Thank you, Mr. Chairman, Ranking Member, 
and Members of the subcommittee. My statement today discusses 
three areas: First, an overview of the findings and 
recommendations from our 2008 study that focused on some of the 
key challenges to safe integration of unmanned aerial systems 
in the National airspace; second, DHS's role in the domestic 
use of these systems; and, third, our preliminary observations 
on emerging issues.
    In 2008, the four key challenges we identified to 
integration were the ability of UASs to sense and avoid other 
aircraft, ensuring uninterrupted command and control, the 
development of standards to ensure that UASs meet established 
safety, reliability, and performance requirements and, finally, 
to ensure that the regulations being developed for unmanned 
aircraft be equal to existing regulations for manned aircraft.
    To address these challenges, GAO developed a matter for 
Congressional consideration and three recommendations, two for 
FAA and one for DHS. We recommended that FAA issue a 
comprehensive UAS program plan and that it establish processes 
to obtain available operational data. We have closed those 
recommendations as being implemented. We suggested that 
Congress create an organization within FAA to coordinate 
Government and private-sector efforts to address the safety 
challenges and we also recommended that TSA examine the 
potential security implications related to UASs and take 
appropriate action.
    We have closed our matter for Congressional consideration 
and our recommendation to TSA, but as not being implemented.
    Regarding DHS's role with UASs international airspace, DHS 
is one of several partner agencies of FAA's Joint Planning and 
Development Office that is working to integrate UASs.
    FAA has granted Customs and Border Protection authority to 
operate its 10 UASs to support its National security missions 
along the U.S. Northern and Southern Borders. DHS has also 
provided UAS support to other Federal and State agencies in 
carrying out their missions.
    As the Chairman described in his opening statement, TSA, 
acting in this role as lead agency for transportation security, 
in 2004 issued an advisory which indicated that the Federal 
Government was concerned that UASs could be modified and used 
to attack key assets and infrastructure in the United States.
    However, neither DHS nor TSA has taken any significant 
actions to implement our 2008 recommendations to examine the 
potential security implications of UAS.
    According to TSA officials, in 2008 and again as recently 
as this month, they believe that the agency's current practices 
are sufficient and that no additional actions are needed.
    With regard to emerging issues, our on-going work has 
identified three key issues that warrant further consideration. 
First is privacy as it relates to the collection and use of 
surveillance data. Members of Congress, civil liberties 
organizations, and civilians have expressed concerns at the 
potential increased use of UASs in the National airspace by law 
enforcement or for commercial purposes as potential privacy 
implications. Currently, no Federal agency has specific 
statutory responsibility to regulate privacy matters relating 
to UAS. Stakeholders have told us by developing guidelines for 
the appropriate use of UASs ahead of widespread proliferation 
could in fact preclude abuses of the technology and negative 
public perception of the potential uses that are planned for 
these aircraft.
    A second emerging issue is that owners of model aircraft do 
not require permission or license from FAA to operate their 
aircraft. As the Chairman described in his opening statement, a 
man in Massachusetts pleaded guilty for plotting to use a 
large, remote-controlled model aircraft filled with C4 plastic 
explosive to attack the Pentagon and the U.S. Capitol. This 
kind of incident highlights the potential for model aircraft to 
be used to cause harm.
    A third emerging issue is the potential for jamming of GPS 
signals that control UASs. In a GPS jamming scenario, the 
aircraft could potentially lose its ability to determine where 
it is located and in what direction it is traveling. Low-cost 
devices that jam GPS signals are readily available on the 
internet.
    Mr. Chairman, Ranking Member Keating, and Members of the 
subcommittee, we plan to issue a full report to this 
subcommittee and other committees in the Congress on our UAS 
work later in the fall.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dillingham follows:]

               Prepared Statement of Gerald L. Dillingham
                             July 19, 2012

                             GAO HIGHLIGHTS

    Highlights of GAO-12-889T, a testimony before the Subcommittee on 
Oversight, Investigations, and Management, Committee on Homeland 
Security, House of Representatives.

Why GAO Did This Study
    UAS aircraft do not carry a human operator on board, but instead 
operate on pre-programmed routes or by following commands from pilot-
operated ground stations. An aircraft is considered to be a small UAS 
if it is 55 pounds or less, while a large UAS is anything greater. 
Current domestic uses of UAS are limited and include law enforcement, 
monitoring or fighting forest fires, border security, weather research, 
and scientific data collection by the Federal Government. FAA 
authorizes military and non-military UAS operations on a limited basis 
after conducting a case-by-case safety review. Several other Federal 
agencies also have a role or interest in UAS, including DHS. In 2008, 
GAO reported that safe and routine access to the National airspace 
system poses several obstacles.
    This testimony discusses: (1) Obstacles identified in GAO's 
previous report on the safe and routine integration of UAS into the 
National airspace, (2) DHS's role in the domestic use of these systems, 
and (3) preliminary observations on emerging issues from GAO's on-going 
work.
    This testimony is based on a 2008 GAO report and on-going work, and 
is focused on issues related to non-military UAS. In on-going work, GAO 
analyzed FAA's efforts to integrate UAS into the National airspace, the 
role of other Federal agencies in achieving safe and routine 
integration, and other emerging issues; reviewed FAA and other Federal 
agency efforts and documents; and conducted selected interviews with 
officials from FAA and other Federal, industry, and academic 
stakeholders.

UNMANNED AIRCRAFT SYSTEMS.--USE IN THE NATIONAL AIRSPACE SYSTEM AND THE 
              ROLE OF THE DEPARTMENT OF HOMELAND SECURITY

What GAO Found
    GAO earlier reported that unmanned aircraft systems (UAS) could not 
meet the aviation safety requirements developed for manned aircraft and 
posed several obstacles to operating safely and routinely in the 
National airspace system. These include: (1) The inability for UAS to 
detect, sense, and avoid other aircraft and airborne objects in a 
manner similar to ``see and avoid'' by a pilot in a manned aircraft; 
(2) vulnerabilities in the command and control of UAS operations; (3) 
the lack of technological and operational standards needed to guide the 
safe and consistent performance of UAS; and (4) the lack of final 
regulations to accelerate the safe integration of UAS into the National 
airspace. GAO stated in 2008 that Congress should consider creating an 
overarching body within the Federal Aviation Administration (FAA) to 
address obstacles for routine access. FAA's Joint Planning and 
Development Office (JPDO) has taken on a similar role. FAA has 
implemented GAO's two recommendations related to its planning and data 
analysis efforts to facilitate integration.
    The Department of Homeland Security (DHS) is one of several partner 
agencies of JPDO working to safely integrate UAS into the National 
airspace. Since 2005, FAA has granted DHS authority to operate UAS to 
support its National security mission in areas such as the U.S. 
northern and southern land borders. DHS's Transportation Security 
Administration (TSA) has the authority to regulate security of all 
modes of transportation, including non-military UAS, and according to 
TSA officials, its aviation security efforts include monitoring reports 
on potential security threats regarding the use of UAS. Security 
considerations could be exacerbated with routine UAS access. TSA has 
not taken any actions to implement GAO's 2008 recommendation that it 
examine the security implications of future, non-military UAS.
    GAO's on-going work has identified several UAS issues that, 
although not new, are emerging as areas of further consideration in 
light of greater access to the National airspace. These include 
concerns about privacy relating to the collection and use of 
surveillance data. Currently, no Federal agency has specific statutory 
responsibility to regulate privacy matters relating to UAS. Another 
emerging issue is the use of model aircraft (aircraft flown for hobby 
or recreation) in the National airspace. FAA is generally prohibited 
from developing any rule or regulation for model aircraft. The Federal 
Bureau of Investigation report of a plot to use a model aircraft filled 
with plastic explosives to attack the Pentagon and U.S. Capitol in 
September 2011 has highlighted the potential for model aircraft to be 
used for unintended purposes. An additional emerging issue is 
interruption of the command and control of UAS operations through the 
jamming and spoofing of the Global Positioning System between the UAS 
and ground control station. GAO plans to report more fully this fall on 
these issues, including the status of efforts to address obstacles to 
the safe and routine integration of UAS into the National airspace.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee: I appreciate the opportunity to testify before you today 
on obstacles to unmanned aircraft systems (UAS) safe and routine 
operations in the National airspace, the role that the Department of 
Homeland Security (DHS) has in UAS operations, and emerging UAS issues. 
Many stakeholders have exhibited increased interest in UAS for border 
security and disaster assistance, among other uses. Additionally, as 
combat operations in Afghanistan decrease, all of the United States 
military services expect to conduct more UAS training flights across 
the contiguous United States.\1\
---------------------------------------------------------------------------
    \1\ House Permanent Select Committee on Intelligence, Performance 
Audit of the Department of Defense Intelligence, Surveillance, and 
Reconnaissance (Washington, DC: Apr. 2012).
---------------------------------------------------------------------------
    UAS aircraft do not carry a human operator on board, but instead 
operate on pre-programmed routes or by following commands from pilot-
operated ground stations. These aircraft are also referred to as 
``unmanned aerial vehicles,'' ``remotely piloted aircraft,'' ``unmanned 
aircraft,'' or ``drones.'' The term ``unmanned aircraft system'' is 
used to recognize that a UAS includes not only the airframe, but also 
associated elements such as a ground station and the communications 
links. UAS are typically described in terms of weight, endurance, 
purpose of use, and altitude of operation. Most UAS are considered 
small, weighing less than 55 pounds; some of which fly less than 400 
feet above the ground. According to an industry association, small UAS 
are expected to comprise the majority of UAS that will operate in the 
National airspace.
    The Federal Aviation Administration (FAA) authorizes military and 
non-military (academic institutions; Federal, State, and local 
governments including law enforcement entities; and private sector 
entities) UAS operations on a limited basis after conducting a case-by-
case safety review. Only Federal, State, and local government agencies 
can apply for a Certificate of Waiver or Authorization (COA); private-
sector entities must apply for special airworthiness certificates in 
the experimental category.\2\
---------------------------------------------------------------------------
    \2\ COAs and special airworthiness certifications in the 
experimental category represent exceptions to the usual certification 
process. FAA examines the facts and circumstances of a proposed UAS to 
ensure that the prospective operator has acceptably mitigated safety 
risks.
---------------------------------------------------------------------------
    Between January 1, 2012 and July 17, 2012, FAA had issued 201 COAs 
to 106 Federal, State, and local government entities across the United 
States, including law enforcement entities as well as academic 
institutions. Additionally, FAA had issued 8 special airworthiness 
certifications for experimental use to four UAS manufacturers. 
Presently, under COA or special airworthiness certification, UAS 
operations are permitted for specific times, locations, and operations. 
Thus it is not uncommon for an entity to receive multiple COAs for 
various missions. Over the years, concerns have been expressed by the 
Congress and other stakeholders that sufficient progress has not been 
made to integrate UAS into the National airspace system. In 2008, GAO 
reported that safe and routine access to the National airspace system 
poses several obstacles. We also stated that Congress should consider 
creating an overarching body within FAA to coordinate Federal, 
academic, and private-sector efforts in meeting the safety challenges 
of allowing routine access to the National airspace system. 
Additionally, we made two recommendations to FAA related to its 
planning and data analysis efforts to facilitate the process of 
allowing UAS routine access to the National airspace. We also 
recommended that DHS assess the security implications of routine 
access. FAA is working toward implementing the requirements set forth 
by its February 2012 reauthorization to accelerate UAS integration.\3\
---------------------------------------------------------------------------
    \3\ FAA Modernization and Reform Act of 2012, Pub. L. No. 112-95, 
 332-334, 126 Stat. 11 (2012).
---------------------------------------------------------------------------
    Several other Federal agencies also have a role or interest in UAS, 
including the Department of Homeland Security (DHS), the Department of 
Defense (DOD), and the National Aeronautics and Space Administration 
(NASA).\4\ DHS's Transportation Security Administration (TSA) has 
authority to regulate the security of all transportation modes, 
including non-military UAS, to ensure that appropriate safeguards are 
in place. According to TSA, its aviation security efforts include 
addressing risks, threats, and vulnerabilities related to non-military 
UAS. In addition, according to DHS officials, Customs and Border 
Protection (CBP) owns ten UAS that it operates for its own missions as 
well as for missions in conjunction with other agencies. DOD has 
successfully used UAS for intelligence, surveillance, reconnaissance, 
and combat missions.\5\ While many of DOD's UAS operations currently 
take place outside of the United States, the military services require 
access to the National airspace to conduct UAS training. DOD has also 
assisted DHS in border security missions, including two missions since 
2006 where the National Guard provided support in four Southwestern 
Border States. NASA uses UAS primarily for research purposes, such as 
the Predator B for wildfire mapping and investigations as well as an 
expected arctic mission next year on surface sea ice.
---------------------------------------------------------------------------
    \4\ Senior executives from these four Federal agencies represent 
the UAS ExCom, whose mission is to enable increased and ultimately 
routine access of Federal UAS engaged in non-military aircraft 
operations into the National airspace to support these agencies' 
operational, training, development, and research requirements.
    \5\ GAO, Unmanned Aircraft Systems: Comprehensive Planning and a 
Results-Oriented Training Strategy Are Needed to Support Growing 
Inventories, GAO-10-331 (Washington, DC: Mar. 26, 2010).
---------------------------------------------------------------------------
    My statement today discusses: (1) Obstacles we identified in our 
previous report to the safe and routine integration of UAS into the 
National air space, (2) DHS's role in the domestic use of these 
systems, and (3) preliminary observations on emerging issues from our 
on-going work examining UAS. This statement is based on our 2008 UAS 
report \6\ and on-going work for this subcommittee, the House Committee 
on Transportation and Infrastructure and its subcommittee on Aviation, 
and the Senate Committee on Science, Commerce, and Transportation. Our 
on-going work is focused on issues related to non-military UAS and is 
based on our analysis of FAA's efforts to integrate UAS into the 
National airspace, the role of other Federal agencies in achieving safe 
and routine integration, and other emerging issues. Our preliminary 
observations are based on our review of various FAA and other Federal 
agency efforts and documents; and selected interviews with officials 
from FAA and other Federal, industry, and academic stakeholders. Our 
2008 report contains detailed explanations of the methods used to 
conduct that work. We have discussed the information in this testimony 
with officials from FAA and DHS, and incorporated their comments as 
appropriate. The work on which this statement is based was performed in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \6\ GAO, Unmanned Aircraft Systems: Federal Actions Needed to 
Ensure Safety and Expand Their Potential Uses Within the National 
Airspace System, GAO-08-511 (Washington, DC: May 15, 2008).
---------------------------------------------------------------------------
                               BACKGROUND

    Current domestic uses of UAS are limited and include law 
enforcement, monitoring or fighting forest fires, border security, 
weather research, and scientific data collection. UAS have a wide-range 
of potential uses, including commercial uses such as pipeline, utility, 
and farm fence inspections; vehicular traffic monitoring; real estate 
and construction site photography; relaying telecommunication signals; 
and crop dusting. FAA's long-range goal is to permit, to the greatest 
extent possible, routine UAS operations in the National airspace system 
while ensuring safety. Using UAS for commercial purposes is not 
currently allowed in the National airspace. As the list of potential 
uses for UAS grows, so do the concerns about how they will affect 
existing military and non-military aviation as well as concerns about 
how they might be used.
    Domestically, State and local law enforcement entities represent 
the greatest potential use of small UAS in the near term because small 
UAS can offer a simple and cost-effective solution for airborne law 
enforcement activities for agencies that cannot afford a helicopter or 
other larger aircraft.\7\ For example, Federal officials and one 
airborne law enforcement official said that a small UAS costing between 
$30,000 and $50,000 is more likely to be purchased by State and local 
law enforcement entities because the cost is nearly equivalent to that 
of a patrol car. According to recent FAA data, 12 State and local law 
enforcement entities have a Certificate of Waiver or Authorization 
(COA) while an official at the Department of Justice said that 
approximately 100 law enforcement entities have expressed interest in 
using a UAS for some of their missions. According to law enforcement 
officials with whom we spoke, small UAS are ideal for certain types of 
law enforcement activities. Officials anticipate that small UAS could 
provide support for tactical teams, post-event crime scene analysis and 
critical infrastructure photography. Officials said that they do not 
anticipate using small UAS for routine patrols or missions that would 
require flights over extended distances or time periods.
---------------------------------------------------------------------------
    \7\ FAA generally considers UAS in the two broad categories of 
``small'' and ``large,'' and has used these categories to split its 
efforts to develop rules that would allow Government and commercial UAS 
access to the National airspace. FAA has been developing rules for 
small UAS for several years. Although there is no widely-accepted 
common classification system for UAS, an aircraft is considered to be a 
small UAS if it is 55 pounds or less, while a large UAS is anything 
greater.
---------------------------------------------------------------------------
    FAA has been working with the Department of Justice's National 
Institute of Justice to develop a COA process through a memorandum of 
understanding to better meet the operational requirements of law 
enforcement entities. While the memorandum of understanding 
establishing this COA process has not been finalized, there are two law 
enforcement entities that are using small UAS on a consistent basis for 
their missions and operations. The proposed process would allow law 
enforcement entities to receive a COA for training and performance 
evaluation. When the entity has shown proficiency in operating its UAS, 
it would then receive an operational COA allowing it to operate small 
UAS for a range of missions. In May 2012, FAA stated that it met its 
first requirement to expedite the COA process for public safety 
entities. FAA's reauthorization also required the agency to enter into 
agreements with appropriate Government agencies to simplify the COA 
process and allow a Government public safety agency to operate unmanned 
aircraft weighing 4.4 pounds or less if flown within the line of sight 
of the operator, less than 400 feet above the ground, and during 
daylight conditions, among other stipulations.

            OBSTACLES TO SAFE AND ROUTINE INTEGRATION OF UAS

    In 2008, we reported that UAS could not meet the aviation safety 
requirements developed for manned aircraft and posed several obstacles 
to operating safely and routinely in the National airspace system.
  <bullet> Sense-and-avoid technologies.--To date, no suitable 
        technology has been identified that would provide UAS with the 
        capability to meet the detect, sense, and avoid requirements of 
        the National airspace system. Our on-going work indicates that 
        research has been carried out to mitigate this, but the 
        inability for UAS to sense and avoid other aircraft or objects 
        remains an obstacle. With no pilot to scan the sky, UAS do not 
        have an on-board capability to directly ``see'' other aircraft. 
        Consequently, the UAS must possess the capability to sense and 
        avoid an object using on-board equipment, or with the 
        assistance of a human on the ground or in a chase aircraft,\8\ 
        or by other means, such as radar. Many UAS, particularly 
        smaller models, will likely operate at altitudes below 18,000 
        feet, sharing airspace with other vehicles or objects. Sensing 
        and avoiding other vehicles or objects represents a particular 
        challenge for UAS, because other vehicles or objects at this 
        altitude often do not transmit an electronic signal to identify 
        themselves and, even if they did, many small UAS, do not have 
        equipment to detect such signals if they are used and may be 
        too small to carry such equipment.
---------------------------------------------------------------------------
    \8\ Chase pilots are in constant radio contact with research pilots 
and serve as an ``extra set of eyes'' to help maintain total flight 
safety during specific tests and maneuvers. Chase pilots monitor 
certain events for the research pilot and are an important safety 
feature on all research missions.
---------------------------------------------------------------------------
  <bullet> Command-and-control communications.--Similar to what we 
        previously reported, ensuring uninterrupted command and control 
        for UAS remains a key obstacle for safe and routine integration 
        into the National airspace. Without such control, the UAS could 
        collide with another aircraft or crash, causing injury or 
        property damage. The lack of dedicated radiofrequency spectrum 
        for UAS operations heightens the possibility that an operator 
        could lose command and control of the UAS. Unlike manned 
        aircraft that use dedicated radio frequencies, non-military UAS 
        currently use undedicated frequencies and remain vulnerable to 
        unintentional or intentional interference. To address the 
        potential interruption of command and control, UAS generally 
        have pre-programmed maneuvers to follow if the command-and-
        control link becomes interrupted (called a ``lost-link 
        scenario''). However, these procedures are not standardized 
        across all types of UAS and, therefore, remain unpredictable to 
        air traffic controllers who have responsibility for ensuring 
        safe separation of aircraft in their airspace.
  <bullet> Standards.--A rigorous certification process with 
        established performance thresholds is needed to ensure that UAS 
        and pilots meet safety, reliability, and performance standards. 
        Minimum aviation system standards are needed in three areas: 
        Performance; command-and-control communications; and sense-and-
        avoid. In 2004, RTCA, a standards-making body sponsored by FAA, 
        established a Federal advisory committee called the Special 
        Committee 203 (or SC 203), to establish minimum performance 
        standards for FAA to use in developing UAS regulations.\9\ 
        Individuals from academia and the private sector serve on the 
        committee, along with FAA, NASA, and DOD officials. ASTM 
        International Committee F38 on UAS, an international voluntary 
        consensus standards-making body, is working with FAA to develop 
        standards to support the integration of small UAS into the 
        National airspace.\10\
---------------------------------------------------------------------------
    \9\ RTCA, formerly the Radio Technical Commission for Aeronautics, 
is a private, not-for-profit corporation that develops consensus-based 
performance standards regarding communications, navigation, 
surveillance, and air traffic management system issues. RTCA serves as 
a Federal advisory committee, and its recommendations are the basis for 
a number of FAA's policy, program, and regulatory decisions.
    \10\ ASTM International, formerly known as the American Society for 
Testing and Materials (ASTM), is a globally recognized leader in the 
development and delivery of international voluntary consensus 
standards. ASTM members deliver the test methods, specifications, 
guides, and practices that support industries and governments 
worldwide.
---------------------------------------------------------------------------
  <bullet> Regulations.--FAA regulations govern the routine operation 
        of most aircraft in the National airspace system.\11\ However, 
        these regulations do not contain provisions to address issues 
        relating to unmanned aircraft. As we highlighted in our 
        previous report, existing regulations may need to be modified 
        to address the unique characteristics of UAS. Today, UAS 
        continue to operate as exceptions to the regulatory framework 
        rather than being governed by it. This has limited the number 
        of UAS operations in the National airspace, and that limitation 
        has, in turn, contributed to the lack of operational data on 
        UAS in domestic operations previously discussed. One industry 
        forecast noted that growth in the non-military UAS market is 
        unlikely until regulations allow for the routine operation of 
        UAS. Without specific and permanent regulations for safe 
        operation of UAS, Federal stakeholders, including DOD, continue 
        to face challenges. The lack of final regulations could hinder 
        the acceleration of safe and routine integration of UAS into 
        the National airspace.
---------------------------------------------------------------------------
    \11\ Title 14, Code of Federal Regulations (14 CFR).
---------------------------------------------------------------------------
    Given the remaining obstacles to UAS integration, we stated in 2008 
that Congress should consider creating an overarching body within FAA 
to coordinate Federal, academic, and private-sector efforts in meeting 
the safety challenges of allowing routine access to the National 
airspace system. While it has not created this overarching body, FAA's 
Joint Planning and Development Office has taken on a similar role. In 
addition, Congress set forth requirements for FAA in its February 2012 
reauthorization to facilitate UAS integration. Additionally, we made 
two recommendations to FAA related to its planning and data analysis 
efforts to facilitate the process of allowing UAS routine access to the 
National airspace, which FAA has implemented.

    ROLE OF THE DEPARTMENT OF HOMELAND SECURITY IN DOMESTIC UAS USE

    DHS is one of several partner agencies of FAA's Joint Planning and 
Development Office (JPDO) working to safely integrate UAS into the 
National airspace. TSA has the authority to regulate the security of 
all transportation modes, including non-military UAS, and according to 
TSA officials, its aviation security efforts include monitoring reports 
on potential security threats regarding the use of UAS. While UAS 
operations in the National airspace are limited and take place under 
closely controlled conditions, this could change if UAS have routine 
access to the National airspace system. Further, DHS owns and uses UAS.
    Security is a significant issue that could be exacerbated with an 
increase in the number of UAS, and could impede UAS use even after all 
other obstacles have been addressed. In 2004, TSA issued an advisory in 
which it stated that there was no credible evidence to suggest that 
terrorist organizations plan to use remote-controlled aircraft or UAS 
in the United States. However, the TSA advisory also provided that the 
Federal Government remains concerned that UAS could be modified and 
used to attack key assets and infrastructure in the United States. TSA 
advised individuals to report any suspicious activities to local law 
enforcement and the TSA General Aviation Hotline.\12\ Security 
requirements have yet to be developed for UAS ground control stations--
the UAS equivalent of the cockpit.\13\ Legislation introduced in the 
112th Congress would prohibit the use of UAS as weapons while operating 
in the National airspace.\14\
---------------------------------------------------------------------------
    \12\ Department of Homeland Security, TSA Advisory: Security 
Information Regarding Remote Controlled Aircraft and Unmanned Aerial 
Vehicles (Washington, DC: Nov. 22, 2004).
    \13\ Additionally, in response to the events of September 11, 2001, 
entry doors to passenger airplane cockpits were hardened to prevent 
unauthorized entry.
    \14\ No Armed Drones Act of 2012, H. R. 5950, 112th Cong. (2012).
---------------------------------------------------------------------------
    In our 2008 report, we recommended that the Secretary of Homeland 
Security direct the administrator of TSA to examine the security 
implications of future, non-military UAS operations in the National 
airspace and take any actions deemed appropriate. TSA agreed that 
consideration and examination of new aviation technologies and 
operations is critical to ensuring the continued security of the 
National airspace. According to TSA officials, TSA continues to work 
with the FAA and other Federal agencies concerning airspace security by 
implementing security procedures in an attempt to protect the National 
Airspace System. Examples of this collaboration include the coordinated 
efforts to allow access to temporary flight-restricted airspace such as 
those put in place for Presidential travel and DHS Security Events. 
However, to date, neither DHS nor TSA has taken any actions to 
implement our 2008 recommendation. According to TSA officials, TSA 
believes its current practices are sufficient and no additional actions 
have been needed since we issued our recommendation.
    DHS is also an owner and user of UAS. Since 2005, CBP has flown UAS 
for border security missions. FAA granted DHS authority to operate UAS 
to support its National security mission along the United States 
northern and southern land borders, among other areas. Recently, DHS 
officials told us that DHS has also flown UAS over the Caribbean to 
search for narcotics-carrying submarines and speedboats. According to 
DHS officials, CBP owns ten UAS that it operates in conjunction with 
other agencies for various missions. As of May 2012, CBP has flown 
missions to support six Federal and State agencies along with several 
DHS agencies. These missions have included providing the National 
Oceanic and Atmospheric Administration with videos of damaged dams and 
bridges where flooding occurred or was threatened, and providing 
surveillance for DHS's Immigration and Customs Enforcement over a 
suspected smuggler's tunnel. DHS, DOD, and NASA, are working with FAA 
to identify and evaluate options to increase UAS access in the National 
airspace. DHS officials reported that if funding was available, they 
plan to expand their fleet to 24 total UAS that would be operational by 
fiscal year 2016, including 11 on the Southwest Border.
    The DHS Inspector General reviewed CBP's actions to establish its 
UAS program, the purpose of which is to provide reconnaissance, 
surveillance, targeting, and acquisition capabilities across all CBP 
areas of responsibility. The Inspector General assessed whether CBP has 
established an adequate operation plan to define, prioritize, and 
execute its unmanned aircraft mission. The Inspector General's May 2012 
report found that CBP had not achieved its scheduled or desired level 
of flight hours for its UAS. It estimated that CBP used its UAS less 
than 40 percent of the time it would have expected.\15\
---------------------------------------------------------------------------
    \15\ The report made four recommendations intended to improve CBP's 
planning of its UAS program to address its level of operation, program 
funding, and resource requirements, along with stakeholder needs.
---------------------------------------------------------------------------
            PRELIMINARY OBSERVATIONS ON EMERGING UAS ISSUES

    Our on-going work has identified several UAS issues that, although 
not new, are emerging as areas of further consideration in light of the 
efforts towards safe and routine access to the National airspace. These 
include concerns about: (1) Privacy as it relates to the collection and 
use of surveillance data, (2) the use of model aircraft, which are 
aircraft flown for hobby or recreation, and (3) the jamming and 
spoofing of the Global Positioning System (GPS).
  <bullet> Privacy concerns over collection and use of surveillance 
        data.--Following the enactment of the UAS provisions of the 
        2012 FAA reauthorization act, Members of Congress, a civil 
        liberties organization, and others have expressed concern that 
        the increased use of UAS for surveillance and other purposes in 
        the National airspace has potential privacy implications. 
        Concerns include the potential for increased amounts of 
        Government surveillance using technologies placed on UAS as 
        well as the collection and use of such data. Surveillance by 
        Federal agencies using UAS must take into account associated 
        Constitutional Fourth Amendment protections against 
        unreasonable searches and seizures. In addition, at the 
        individual agency level, there are multiple Federal laws 
        designed to provide protections for personal information used 
        by Federal agencies. While the 2012 FAA reauthorization act 
        contains provisions designed to accelerate the safe integration 
        of UAS into the National airspace, proposed legislation in the 
        112th session of Congress, seeks to limit or serve as a check 
        on uses of UAS by, for example, limiting the ability of the 
        Federal Government to use UAS to gather information pertaining 
        to criminal conduct without a warrant.\16\
---------------------------------------------------------------------------
    \16\ Preserving Freedom from Unwarranted Surveillance Act of 2012, 
S. 3287, 112th Cong. (2012) and Farmer's Privacy Act of 2012, H.R. 
5961, 112th Cong. (2012).

    Currently, no Federal agency has specific statutory responsibility 
        to regulate privacy matters relating to UAS. UAS stakeholders 
        disagreed as to whether the regulation of UAS privacy-related 
        issues should be centralized within one Federal agency, or if 
        centralized, which agency would be best positioned to handle 
        such a responsibility. Some stakeholders have suggested that 
        FAA or another Federal agency should develop regulations for 
        the types of allowable uses of UAS to specifically protect the 
        privacy of individuals as well as rules for the conditions and 
        types of data that small UAS can collect. Furthermore, 
        stakeholders with whom we spoke said that developing guidelines 
        for technology use on UAS ahead of widespread adoption by law 
        enforcement entities may preclude abuses of the technology and 
        a negative public perception of UAS. Representatives from one 
        civil liberties organization told us that since FAA has 
        responsibility to regulate the National airspace, it could be 
        positioned to handle responsibility for incorporating rules 
        that govern UAS use and data collection. Some stakeholders have 
        suggested that the FAA has the opportunity and responsibility 
        to incorporate such privacy issues into the small UAS rule that 
        is currently underway and in future rulemaking procedures. 
        However, FAA officials have said that regulating these sensors 
        is outside the FAA's mission, which is primarily focused on 
        aviation safety, and has proposed language in its small UAS 
---------------------------------------------------------------------------
        Notice of Proposed Rulemaking to clarify this.

  <bullet> Model aircraft.--According to an FAA official with whom we 
        spoke and other stakeholders, another concern related to UAS is 
        the oversight of the operation of model aircraft--aircraft 
        flown for hobby or recreation--capable of sustained flight in 
        the atmosphere and a number of other characteristics.\17\ 
        Owners of model aircraft do not require a COA to operate their 
        aircraft.\18\ Furthermore, as part of its 2012 reauthorization 
        act, FAA is prohibited from developing any rule or regulation 
        for model aircraft under a specified set of conditions.\19\ 
        However, the 2012 reauthorization act also specifies that 
        nothing in the act's model aircraft provisions shall be 
        construed to limit FAA's authority to take enforcement action 
        against the operator of a model aircraft who endangers the 
        safety of the National airspace system.\20\ The Federal Bureau 
        of Investigation report of the arrest and criminal prosecution 
        of a man plotting to use a large remote-controlled model 
        aircraft filled with plastic explosives to attack the Pentagon 
        and U.S. Capitol in September 2011 has highlighted the 
        potential for model aircraft to be used for non-approved or 
        unintended purposes.
---------------------------------------------------------------------------
    \17\ The 2012 reauthorization act defines the term ``model 
aircraft'' to mean an unmanned aircraft that is: (1) Capable of 
sustained flight in the atmosphere, (2) flown within visual line of 
sight of the person operating the aircraft, and (3) flown for hobby or 
recreational purposes.
    \18\ FAA's Advisory Circular 91-57 sets out model aircraft 
operating standards that encourage voluntary compliance with specified 
safety standards for model aircraft operators.
    \19\ This prohibition on FAA model aircraft rules or regulations 
only applies where the aircraft is: (1) Flown strictly for hobby or 
recreational use, (2) operated in accordance with a community-based set 
of safety guidelines and within the programming of a Nation-wide 
community-based organization, (3) limited to not more than 55 pounds 
(unless otherwise certified through a design, construction, inspection, 
flight test, and operational safety program administered by a 
community-based organization), (4) operated in a manner that does not 
interfere with and gives way to any manned aircraft, and (5) when flown 
within 5 miles of an airport, prior notice of the operation is given to 
the airport operator and the air traffic control tower.
    \20\ Pub. L. No. 112-95,  336, 126 Stat. 11.77 (2012).

    The Academy of Model Aeronautics, which promotes the development of 
        model aviation as a recognized sport and represents a 
        membership of over 150,000, published several documents to 
        guide model aircraft users on safety, model aircraft size and 
        speed, and use. For example, the Academy's National Model 
        Aircraft Safety Code specifies that model aircraft will not be 
        flown in a careless or reckless manner and will not carry 
        pyrotechnic devices that explode or burn, or any device that 
        propels a projectile or drops any object that creates a hazard 
        to persons or property (with some exceptions).\21\ The Academy 
        of Model Aeronautics also provides guidance on ``sense and 
        avoid'' to its members, such as a ceiling of 400 feet above 
        ground of aircraft weighing 55 pounds or less. However, apart 
        from FAA's voluntary safety standards for model aircraft 
        operators, FAA has no regulations relating to model aircraft. 
        Currently, FAA does not require a license for any model 
        aircraft operators, but according to FAA, the small UAS Notice 
        of Proposed Rule Making, under development and expected to be 
        published late 2012, may contain a provision that requires 
        certain model aircraft to be registered.
---------------------------------------------------------------------------
    \21\ The Academy of Model Aeronautics National Model Aircraft 
Safety Code allows members to fly devices that burn producing smoke and 
are securely attached to the model aircraft and use rocket motors if 
they remain attached to the model during flight. Model rockets may be 
flown but not launched from a model aircraft.
---------------------------------------------------------------------------
  <bullet> GPS jamming and spoofing.\22\--The jamming and spoofing of 
        the communication signal between the UAS and ground control 
        station could also interrupt the command and control of UAS 
        operations. In a GPS jamming scenario, the UAS could 
        potentially lose its ability to determine where it is located 
        and in what direction it is traveling. Low-cost devices that 
        jam GPS signals are prevalent. According to one industry 
        expert, GPS jamming would become a larger problem if GPS is the 
        only method for navigating a UAS. This problem can be mitigated 
        by having a second or redundant navigation system on-board the 
        UAS that is not reliant on GPS. In addition, a number of 
        Federal UAS stakeholders we interviewed stated that GPS jamming 
        is not an issue for the larger, military-type UAS, as they have 
        an encrypted communications link on the aircraft. A stakeholder 
        noted that GPS jamming can be mitigated for small UAS by 
        encrypting its communications, but the costs associated with 
        encryption may make it infeasible. Recently, researchers at the 
        University of Texas demonstrated that the GPS signal 
        controlling a small UAS could be spoofed using a portable 
        software radio. The research team found that it was 
        straightforward to mount an intermediate-level spoofing attack 
        but difficult and expensive to mount a more sophisticated 
        attack.\23\ The emerging issues we identified not only may 
        exist as part of efforts to safely and routinely integrate UAS 
        into the National airspace, but may also persist once 
        integration has occurred. Thus, these issues may warrant 
        further examination both presently and in the future.
---------------------------------------------------------------------------
    \22\ GPS spoofing is when counterfeit GPS signals are generated for 
the purpose of manipulating a target receiver's reported position and 
time. Todd E. Humphreys, Detection Strategy for Cryptographic GNSS 
Anti-Spoofing, IEEE Transactions on Aerospace and Electronics Systems 
(August 2011).
    \23\ The presentation ``Assessing the Civil GPS Spoofing Threat'' 
by Todd Humphreys, Jahshan Bhatti, Brent Ledvina, Mark Psiaki, Brady 
O'Hanlon, Paul Kintner, and Paul Montgomery sought to assess the 
spoofing threat of a small civil UAS. The team built a civilian GPS 
spoofer and tested some countermeasures. They concluded that GPS 
spoofing is a threat to communications security and civil spoofing has 
not been the focus of research in open literature.
---------------------------------------------------------------------------
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, this concludes my prepared statement. We plan to report 
more fully this fall on these same issues, including the status of 
efforts to address obstacles to the safe and routine integration of UAS 
into the National airspace. I would be pleased to answer any questions 
at this time.

    Mr. McCaul. Thank you, Dr. Dillingham, for your good work. 
The Chairman now recognizes another fellow Texan, Chief 
McDaniel.

  STATEMENT OF CHIEF DEPUTY WILLIAM R. MC DANIEL, MONTGOMERY 
             COUNTY SHERIFF'S OFFICE, CONROE, TEXAS

    Chief McDaniel. Thank you, sir.
    The Montgomery County Sheriff's Office is the seventh-
largest in the State of Texas, and is responsible for law 
enforcement services for a county that covers over 1,000 square 
miles and has a population of over 471,000. As indicated, it is 
an extremely fast-growing county. The county is diverse in 
geography as well as population, with an extremely urban area 
with a very dense population on our Southern Border with 
Houston and Harris County, to an extremely rural area in the 
northern portion of our county.
    The sheriff's office is committed to protecting the lives 
and the property of the people we serve, and since my sheriff 
took office in 2005, we have sought out new and better 
technology to enhance both our efficiency as well as our 
effectiveness in carrying out our public safety mission. I 
believe the UAV systems now available to public safety agencies 
are exactly the type of technology that will make us more 
successful. It is not just a law enforcement tool, but a public 
safety asset that can now be used by fire departments, 
emergency management offices, and probably other governmental 
units as well.
    The sheriff's office has owned a Shadow Hawk UAV since 
December 2011, having purchased it through a Homeland Security 
grant. Although we have not used it for an operational mission 
to date, we absolutely see its benefit and its mission profile 
for SWAT operations, high-risk warrants, locating lost persons, 
manhunts, hazardous material spills, fire scene, traffic 
accident investigations, or traffic management and observation 
due to hurricane evacuations.
    We did not obtain this for the purpose of surveillance. I 
do not believe small UAVs such as our Shadow Hawk are 
particularly designed or suited for that type of mission.
    Although the FAA has expertise in the aeronautical field, 
they do not have the necessary public safety mission experience 
to effectively oversee this type of operational environment. If 
Federal oversight is necessary, it would seem appropriate to 
establish it under the Department of Homeland Security. 
Different from the aeronautical component the FAA would 
continue to manage, DHS would manage the operational aspect by 
setting and enforcing operational guidelines and procedures, 
establish a database relating to the UAVs, agencies using them, 
mission results, and act as a resource and information tool for 
current and interested public safety agencies.
    Current case law supports the use of air assets by law 
enforcement, and I do not believe that it is necessary to 
introduce new legislation that would severely restrict the 
UAV's effectiveness. I encourage you to recognize unmanned 
aerial vehicle systems as an important tool for public safety 
agencies. I believe in this technology and its mission of 
protecting the citizens of my county, my State, and this 
Nation.
    [The prepared statement of Chief McDaniel follows:]

               Prepared Statement of William R. McDaniel
                             July 19, 2012

    Montgomery County is directly north of Houston and contiguous to 
Harris County. The county is diverse in both geography and population. 
The current census lists the population at over 471,000. It is 
approximately 1,042 square miles in size with highly populated urban 
areas in the southern portion of the county (The Woodlands) to very 
rural areas in the north. Sam Houston National Forest, situated in the 
northwestern portion of the county encompasses 47,609 acres. Situated 
in the middle of the county is Lake Conroe, a large lake (21,000 
acres), with a significant population surrounding it.
    In 2005, the Montgomery County Sheriff's Office began to explore 
various avenues to enhance our operational effectiveness. One idea was 
to obtain air assets for public safety response needs. We envisioned 
having an air asset that was multi-purpose and could be utilized in a 
variety of critical incidents to improve our ability to respond. 
Initially we looked at small aircraft (i.e. Cessna's, etc.) as well as 
helicopters. We looked at both new and used aircraft and quickly 
realized we did not have sufficient funding to purchase nor maintain 
such an item. As an example, a ``law enforcement'' helicopter, with 
associated equipment, would require over $2 million for the initial 
cost. We would be unable to fund full-time personnel to operate and 
maintain the aircraft. A small, fixed-wing aircraft would be less 
costly, around $400,000, but we would still have the same staffing 
issues. In addition, we compared operational costs and determined the 
hourly cost alone would be prohibitive, based on our budget.
    We are fortunate to be situated in an area with agencies (Houston 
PD, State Police, and DEA) that do have air assets and we have 
certainly called upon them to assist us in a variety of ways. It has 
been problematic; however, since these agencies also have budget 
constraints which limit their operational flight hours as well as their 
ability to respond. The problem has been further compounded by the need 
for these air assets to cover large areas or, because it may be a State 
or Federal asset, it is deployed to other areas of the State or 
country. They are, therefore, unavailable at times.
    We continued to review opportunities over the next few years. One 
such opportunity was a pilot project through the Department of Justice. 
The program was offering certain types of ``ultra-light'' aircraft for 
testing by law enforcement. A letter was sent to the DOJ representative 
on two different occasions; however, no response was ever received.
    In 2008, a call was received from the CEO of Vanguard Defense 
Industries (VDI) requesting a meeting to discuss the concept of a UAV 
for law enforcement. During our first meeting, a discussion was held 
regarding the practicality of using a UAV for law enforcement purposes. 
The platform being proposed was a small helicopter with a color video 
camera and Forward Looking Infrared (FLIR) capabilities. The aircraft 
could be launched quickly, provide an aerial view during a critical 
incident, and be economical to purchase and operate. We discussed at 
length the types of incidents we thought would be appropriate for its 
use. These included SWAT call-outs, high-risk warrants, manhunts, lost 
persons, and accident scene investigation (aerial photography). In 
meetings that followed, we expanded on its use to an overall public 
safety response instead of being geared strictly towards law 
enforcement. In addition to a law enforcement use, we envisioned fire 
departments and emergency management offices as agencies that would 
benefit from such an asset. We then added to the types of incidents it 
would be suitable for to include hazardous materials spills, fires, 
damage assessment, or traffic management observation due to hurricane 
evacuations.
    While VDI was working on the manufacturing component, we began to 
research funding sources and eventually submitted a grant proposal 
through the Department of Homeland Security's Urban Areas Security 
Initiative (UASI) program in December, 2010. The UASI project goal, 
identified in the grant project was, ``to enhance regional response 
capability.'' The grant was approved in June, 2011, and the delivery of 
the Shadowhawk was made in December, 2011. The total funding for the 
grant was $220,000. This included a 1-year maintenance agreement and 
air crew training for two personnel. Within a few months the Sheriff's 
Office purchased an upgraded guidance system, as well as an LED 
lighting system, to better identify the aircraft.
    In 2010, we also initiated our Certificate of Authorization (COA) 
application to the FAA. The web-based application process was 
relatively simple to complete and many email exchanges and phone 
conversations took place with FAA personnel. It was clear to us that 
this was somewhat ``uncharted waters'' for them and we were warned on 
several occasions that it would be a lengthy process. Once the final 
application was submitted, it was a number of months before the 
application was approved. The initial COA was renewed in 2012.
    To date, the Montgomery County Sheriff's Office has only had one 
opportunity to utilize the Shadowhawk for an operational mission; 
however, the FAA denied our request for an emergency COA, citing there 
had to exist a ``loss of life or potential loss of life'' before they 
would approve it. We certainly believed there to be a potential danger 
to the law enforcement officers who were going to conduct the mission. 
We opted to not press the issue at that point. To some critics, this 
would seem to be a waste of Federal tax dollars. I would point out, 
however, public safety operations are not static or particularly 
consistent. This is especially true with ``special missions.'' As an 
example, our SWAT unit responded 23 times in 2011 but has not been 
``called out'' in 2012. The need is there; however, and will continue 
to be. Those types of incidents we identified as being ideal for the 
Shadowhawk are actual types of incidents we have experienced over and 
over again in the past. It is only a matter of ``when'' the next such 
incident will occur.
    We continue to think of ways to deploy our UAV and one such example 
is utilizing a UAV to deliver a cellular phone or an emergency medical 
kit to a flood victim, stranded on the roof of a house. (Currently, the 
FAA prohibits this type of activity.) It would appear to be highly 
effective to send a UAV in to deploy a cellular phone, have a first 
responder explain to the victim what the procedures will be to be 
picked up by a helicopter or boat (excellent safety protocol) and then 
continue with the rescue operation or; be able to drop a first aid kit 
to a victim with a UAV in a timely manner so they can immediately 
address their basic first aid needs as opposed to forcing them to wait 
on medical help to be delivered by aircraft or boat (not very timely). 
In discussions we have had with the manufacturer of the Shadowhawk, it 
would be relatively easy to build the necessary platform for the 
Shadowhawk to ``drop'' supplies as stated. There are still, no doubt, 
scenarios we have not even dreamed of wherein the UAV could be used to 
benefit public safety.
    There has been a knee-jerk reaction to the use of UAV's by public 
safety agencies in the United States with National media outlets 
painting a dark picture of tens of thousands of ``drones'' being used 
daily to ``spy'' on citizens. We believe there is sufficient case law 
in place to establish, for the UAV community, the legal requirements 
and procedures for operation and also the necessary repercussions for 
those agencies who fail to comply with the legal mandates. UAV's 
operate just like their manned counterparts. Obviously, the primary 
difference is having a crew on the ground operating it as opposed to a 
crew operating the airborne aircraft. There has been case law developed 
over the years to deal with manned aircraft operations for public 
safety agencies. We believe these same laws would absolutely apply to 
UAV operations.
    Governmental entities, as identified and approved by the FAA, must 
follow strict guidelines and protocols and are extensively scrutinized 
by the FAA hierarchy for improper operations. The problem exists in the 
rank-and-file FAA hierarchy having no real concept of the needs of 
public safety agencies. It is my perception they tend to look at the 
use of UAV's with myopic vision. This was fine for past years as new 
technology, in the FAA domain, was scarce. Now that UAV technology is 
here, the FAA does not have the experience in its application. FAA 
staffers do not have the law enforcement, fire, or emergency management 
background to be able to relate to the mission of these agencies. The 
sole purpose of the FAA is to monitor them from an aeronautical 
standpoint only. Obviously, they are the experts in this environment; 
however, we believe they have no real understanding regarding the 
``critical mission'' aspect of UAV operations. If UAV operations remain 
under the oversight and control of the FAA, as is currently the case, 
domestic UAV operations will continue to be severely hampered or 
limited to the point of being useless.
    If it is necessary to require Federal oversight of UAV operations 
within the United States, it would seem to be most appropriate that The 
Office of State and Local Law Enforcement within DHS would be the 
likely agency at the Federal level to be tasked with this role. DHS 
would serve as a database, keeping track of the types of UAV's in use, 
agencies using them, types of missions the UAV is being flown, mission 
results, keeping track of case results (if used in response to a 
criminal offense--narcotics warrant/SWAT operation), etc. To this end, 
we would propose having DHS work as a liaison for local agencies that 
use UAV's. DHS could provide contact information, act as a resource and 
information tool, and as a monitoring/approving agency for public 
safety agency operations. Obviously, it is incumbent on such agencies 
to work through the COA approval process to allow the FAA the 
opportunity to scrutinize the aircraft, the associated operating 
systems, locations, etc. The FAA, however, does not need to go beyond 
that, other than the regular, routine review of agency flight 
operations to insure flight safety rules are being followed.
    UAV systems for public safety agencies are extremely viable, 
effective, and economical means to enhance the public safety response 
to critical incidents. The use of drones by public safety agencies is, 
ultimately, about protecting and making safe the citizens we serve. Too 
much focus is being made on the impractical application of UAV's and 
not about its true design and purpose.

    Mr. McCaul. Thank you, Chief.
    The Chairman now recognizes Ms. Stepanovich.

 STATEMENT OF AMIE STEPANOVICH, LITIGATION COUNSEL, ELECTRONIC 
                   PRIVACY INFORMATION CENTER

    Ms. Stepanovich. Mr. Chairman and Members of the 
subcommittee, thank you for the opportunity to testify today 
concerning the use of drones in the United States. My name is 
Amie Stepanovich. I am Association Litigation Counsel at the 
Electronic Privacy Information Center, a nonpartisan research 
organization in the District of Columbia that is focused on 
focusing public attention on emerging issues in privacy and 
civil liberties. We thank you for holding this hearing today, 
and believe it is very important to address these issues early.
    Drones greatly increase the capacity for domestic 
surveillance. Drones are specifically designed to carry highly 
invasive surveillance technology. They are cheaper to buy, 
maintain, and operate than typical aerial surveillance 
vehicles, and they can operate undetected in both urban and 
rural environments. Sensitive information collected by drones 
is particularly vulnerable to unlawful access. As previously 
discussed, drones are not secure.
    EPIC observed in comments to the FAA on drone test site 
locations that drone hacking poses a threat to the security of 
lawful drone operations. Hackers are not only able to gain 
control of drone movements, but they are also able to intercept 
the date feeds transmitted by a drone.
    We recognize that drone technology has very positive uses 
in the United States. It can be used to monitor for 
environmental abuse, help prevent the spread of forest fires, 
and assist in search-and-rescue operations. However, there are 
substantial legal and Constitutional issues involved in the 
deployment of aerial drones by Federal agencies.
    As drone technology becomes cheaper, it will also become 
more widespread and the threat to privacy will become more 
substantial. EPIC supports compliance with current Federal law 
for the deployment of drone technology and limitations for 
Federal agencies and other organizations that obtain drones for 
a specified purpose, but the current state of the law is 
insufficient to address the drone surveillance threat. 
Legislation is needed to protect against the use of drones in 
surveillance tools and to provide for redress against drone 
operators who fail to comply with those protections.
    Congress has directed the FAA to develop regulations that 
will encourage widespread deployment of drones in the United 
States. The forthcoming regulations will address licensing 
procedures for both public and private drone operators, 
including DHS, and the Customs and Border Protection Bureau, a 
DHS component. Earlier this year in a formal petition to the 
FAA, EPIC urged the agency to conduct a rulemaking to implement 
privacy rules for domestic drones. EPIC's petition was joined 
by more than 100 other organizations, experts, and members of 
the public who also believed that privacy rules are necessary 
before drones enter our domestic skies in a more widespread 
way. The FAA has not yet responded to EPIC's request for agency 
action, and this failure to act means that there is also no 
administrative framework in place to regulate drones in our 
skies.
    As has previously been mentioned, CBP currently operates 10 
drones in the United States. The DHS Inspector General recently 
assessed CBP's practice in making drones available by other 
Federal agencies, including the Department of Defense, the FBI, 
the Secret Service, many local law enforcement agencies, and 
others.
    Regarding privacy concerns, the Inspector General said that 
a standardized process was needed to request CBP drones for 
non-CBP purposes in order to provide transparency. To the 
extent that DHS chooses to operate drones within the United 
States, the agency must develop appropriate regulations to 
safeguard privacy. As you have indicated, Chairman McCaul, the 
privacy and security concerns arising from the use of drones 
needs to be addressed. Several of your colleagues have made 
efforts to address some of the privacy threats of drone. 
However, we believe those efforts are not sufficient.
    There are several simple steps that we believe can protect 
privacy as the use of drones increases in our skies. First, 
Congress should pass targeted legislation. An initial step 
would be the passage of Congressman Austin Scott's bill to 
limit drone surveillance in the United States in cases where a 
warrant has not been first obtained. However, to fully address 
the invasive nature of drones, new legislation must prohibit 
nonspecific untargeted drone surveillance, limit the use of 
drone surveillance data collected, transmitted, stored, or 
shared, and require notice of drone surveillance operations and 
policies. The law should also provide for independent audits 
and oversight.
    Second, Congress should expressly require Federal drone 
operators, including DHS and its components, to implement 
regulations subject to public notice and comment that address 
the privacy implications of drone use.
    Finally, I think Congress should clarify the circumstances 
under which drones purchased by CBP in pursuit of its mission 
may be deployed for other purposes. The failure to make clear 
the circumstances when Federal and State agencies may deploy 
drones for aerial surveillance has already raised significant 
concerns about the agency's programs.
    Once again I thank you for the opportunity to testify 
today, and I will be pleased to answer your questions.
    [The prepared statement of Ms. Stepanovich follows:]

                 Prepared Statement of Amie Stepanovich
                             July 19, 2012

    Mister Chairman and Members of the subcommittee, thank you for the 
opportunity to testify today concerning unmanned aerial systems, or 
drones, in the United States. My name is Amie Stepanovich. I am the 
associate litigation counsel at the Electronic Privacy Information 
Center.
    EPIC is a non-partisan research organization, established in 1994, 
to focus public attention on emerging privacy and civil liberties 
issues.\1\ We work with a distinguished panel of advisors in the fields 
of law, technology, and public policy.\2\ We have a particular interest 
in the protection of individual privacy rights against Government 
surveillance. In the last several years, EPIC has taken a particular 
interest in the unique privacy problems associated with aerial drones. 
We have urged the Federal Aviation Administration (``FAA''), as it 
considers new regulations to permit the widespread deployment of 
drones, to also develop new privacy safeguards.\3\
---------------------------------------------------------------------------
    \1\ About EPIC, EPIC, http://www.epic.org/about (last visited July 
16, 2012).
    \2\ EPIC Advisory Board, EPIC, http://www.epic.org/epic/
advisory_board.html (last visited July 16, 2012).
    \3\ Unmanned Aerial Vehicles (UAVs) and Drones, EPIC, http://
www.epic.org/privacy/drones (last visited July 16, 2012).
---------------------------------------------------------------------------
    In my statement today, I will describe the unique threats to 
privacy posed by drone surveillance, the problems with current legal 
safeguards, the EPIC petition to the FAA, and the need for Congress to 
act.
    We appreciate the subcommittee's interest in domestic drone use and 
its substantial impact on the privacy of individuals in the United 
States.

            I. AERIAL DRONES POSE A UNIQUE THREAT TO PRIVACY

    An unmanned aircraft, or drone, is an aerial vehicle designed to 
fly without a human pilot on board. Drones can either be remotely 
controlled or autonomous. Drones can be weaponized and deployed for 
military purposes.\4\ Drones can also be equipped with sophisticated 
surveillance technology that makes it possible to identify individuals 
on the ground. Gigapixel cameras used to outfit drones are among the 
highest-definition cameras available, and can provide ``real-time video 
streams at a rate of 10 frames a second.''\5\ On some drones, sensors 
can track up to 65 different targets across a distance of 65 square 
miles.\6\ Drones may also carry infrared cameras, heat sensors, GPS, 
sensors that detect movement, and automated license plate readers.\7\ 
Drones are currently being developed that will carry facial recognition 
technology, able to remotely identify individuals in parks, schools, 
and at political gatherings.\8\
---------------------------------------------------------------------------
    \4\ See, e.g., Predator B UAS, General Atomics Aeronautical, http:/
/www.ga-asi.com/products/aircraft/predator_b.php (last visited June 25, 
2012); X-47B UCAS, Northrop Grumman, http://www.as.northropgrumman.com/
products/nucasx47b/index.html (last visited July 16, 2012).
    \5\ US Army Unveils 1.8 Gigapixel Camera Helicopter Drone, BBC News 
Technology (Dec. 29, 2011), http://www.bbc.co.uk/news/technology-
16358851.
    \6\ Id.
    \7\ Customs and Border Protection Today, Unmanned Aerial Vehicles 
Support Border Security (July/Aug. 2004), available at http://
www.cbp.gov/xp/CustomsToday/2004/Aug/other/aerial_vehicles.xml.
    \8\ Clay Dillow, Army Developing Drones that Can Recognize Your 
Face From a Distance, PopSci (Sept. 28, 2011, 4:01 PM), http://
www.popsci.com/technology/article/2011-09/army-wants-drones-can-
recognize-your-face-and-read-your-mind.
---------------------------------------------------------------------------
    In a report on drones published by EPIC in 2005, we observed, ``the 
use of [drones] gives the federal government a new capability to 
monitor citizens clandestinely, while the effectiveness of the . . . 
surveillance planes in border patrol operations has not been 
proved.''\9\ Today, drones greatly increase the capacity for domestic 
surveillance.
---------------------------------------------------------------------------
    \9\ Spotlight on Surveillance: Unmanned Planes Offer New 
Opportunities for Clandestine Government Tracking (August 2005), EPIC, 
http://epic.org/privacy/surveillance/spotlight/0805/ (last visited July 
16, 2012).
---------------------------------------------------------------------------
    Much of this surveillance technology could, in theory, be deployed 
in manned vehicles. However, drones present a unique threat to privacy. 
Drones are designed to undertake constant, persistent surveillance to a 
degree that former methods of surveillance were unable to achieve. 
Drones are cheaper to buy, maintain, and operate than helicopters, or 
other forms of aerial surveillance.\10\ Drone manufacturers have 
recently announced new designs that would allow drones to operate for 
more than 48 consecutive hours,\11\ and other technology could extend 
the flight time of future drones out into weeks and months.\12\ Also, 
``by virtue of their design, size, and how high they can fly, [drones] 
can operate undetected in urban and rural environments.''\13\
---------------------------------------------------------------------------
    \10\ Nick Wingfield and Somini Sengupta, Drones Set Sights on U.S. 
Skies, NY Times (Feb. 17, 2012), available at http://www.nytimes.com/
2012/02/18/technology/drones-with-an-eye-on-the-public-cleared-to-
fly.html?pagewanted=all; http://www.wired.com/autopia/2012/05/drone-
auto-vids/; Sabrina Hall, Shelby County Sheriff's Department Wants 
Drones, WREG (May 3, 2012), available at http://wreg.com/2012/05/03/
shelby-county-sheriffs-department-wants-drones/. Drones can run from 
$300 for the most basic drone, able to record and transmit video, to 
$18 million for a General Atomics Predator B drone, the model owned by 
the United States Bureau of Customs and Border Protection. See Parrot 
AR.Drone 2.0, Apple, http://store.apple.com/us/product/H8859ZM/A (last 
visited July 16, 2012); Office of the Inspector Gen., Dep't Homeland 
Security, OIG-12-85, CBPs Use of Unmanned Aircraft Systems in the 
Nation's Border Security (May 2012), available at http://
www.oig.dhs.gov/assets/Mgmt/2012/OIG_12-85_May12.pdf [hereinafter DHS 
OIG Report] at 2.
    \11\ Mark Brown, Lockheed Uses Ground-Based Laser to Recharge Drone 
Mid-Flight (July 12, 2012), available at http://www.wired.co.uk/news/
archive/2012-07/12/lockheed-lasers.
    \12\ Steven Aftergood, Secret Drone Technology Barred by 
``Political Conditions'' (Mar. 22, 2012), available at http://
www.fas.org/blog/secrecy/2012/03/sandia_drone.html.
    \13\ Jennifer Lynch, Are Drones Watching You?, Electronic Frontier 
Foundation (Jan. 10, 2012), available at https://www.eff.org/deeplinks/
2012/01/drones-are-watching-you.
---------------------------------------------------------------------------
    The ability to link facial recognition capabilities on drones 
operated by the Department of Homeland Security (``DHS'') to the 
Federal Bureau of Investigation's Next Generation Identification 
database or DHS' IDENT database, two of the largest collections of 
biometric data in the world, exacerbates the privacy risks.\14\ Drones 
could be deployed to monitor individuals in a way that was not possible 
previously.
---------------------------------------------------------------------------
    \14\ See Next Generation Identification, Federal Bureau of 
Investigation, http://www.fbi.gov/about-us/cjis/
fingerprints_biometrics/ngi/ngi2/ (last visited July 16, 2012); Privacy 
Impact Assessment, Department of Homeland Security, Automated Biometric 
Identification System (IDENT) (July 31, 2006), http://www.dhs.gov/
xlibrary/assets/privacy/privacy_pia_usvisit_- 
ident_final.pdf.
---------------------------------------------------------------------------
    Sensitive information collected by drones is particularly 
vulnerable to unlawful access. In comments addressing the issue of 
drone test site locations, EPIC observed, ``drone hacking,'' or the 
process of remotely intercepting and compromising drone operations, 
poses a threat to the security of lawful drone operations.\15\ Recent 
examples have highlighted the ease with which drones may be ``hacked''. 
The University of Texas was able to use GPS signals in order to gain 
full control of a drone.\16\ The researchers indicated that the method 
could be use on any drone operated over the civilian GPS band, which 
include the majority of drones in the United States.\17\ Hackers are 
also able to intercept video and audio feeds, as well as other 
information collected and transmitted by surveillance drones.\18\
---------------------------------------------------------------------------
    \15\ Comments of EPIC to the FAA re: Request for Comments on 
Unmanned Aircraft System Test Sites (May 8, 2012), available at http://
epic.org/privacy/drones/EPIC-FAA-2012-0252.pdf.
    \16\ Alex Fitzpatrick, Researchers Prove Drones Can Be Hacked, 
Mashable (June 29, 2012), available at http://mashable.com/2012/06/29/
drone-hacking/.
    \17\ Id.
    \18\ Siobhan Gorman, Yochi Dreazen, and August Cole, Insurgents 
Hack U.S. Drones, Wall St. J. (Dec. 17, 2009), available at http://
online.wsj.com/article/SB126102247889095011.html.
---------------------------------------------------------------------------
    Within DHS, the Bureau of Customs and Border Protection (``CBP'') 
is the primary operator of unmanned aerial drones. CBP operates ten 
drones in the United States, including the Predator B and its maritime 
variant the Guardian, at a cost per unit of about $18 million each.\19\ 
By 2016, CBP plans to operate 24 drones, with the ability to deploy one 
anywhere in the continental United States within 3 hours.\20\
---------------------------------------------------------------------------
    \19\ See DHS OIG Report, supra note 11 at 2.
    \20\ William Booth, More Predator Drones Fly U.S.-Mexico Border, 
WASH. POST (Dec. 21, 2011), available at http://www.washingtonpost.com/
world/more-predator-drones-fly-us-mexico-border/2011/12/01/
gIQANSZz80_story.html.
---------------------------------------------------------------------------
    But there are problems with the CBP program. According to a recent 
report of the DHS Inspector General, CBP ``needs to improve planning of 
its unmanned aircraft systems program to address its level of 
operation, program funding, and resource requirements, along with 
stakeholder needs.''\21\ The Inspector General assessed CBP's practice 
of making the drones available for use by other Federal and State 
agencies, including the Bureau of Land Management, the Department of 
Defense, the Federal Bureau of Investigation, the Texas Rangers, the 
United States Forest Service, the National Oceanic and Atmospheric 
Administration, the Office of Border Patrol, the United States Secret 
Service, the Immigrations and Customs Enforcement, the Federal Agency 
Management Agency, and local Law Enforcement Agencies.\22\
---------------------------------------------------------------------------
    \21\ See DHS OIG Report, supra note 11 at 1.
    \22\ Id. at 6-7.
---------------------------------------------------------------------------
    The Inspector General concluded that all purchases of new drones 
should be suspended until CBP develops a plan that addresses 
``necessary operations, maintenance, and equipment.''\23\ Regarding 
privacy concerns, the DHS Inspector General said that a standardized 
process was needed to request CBP drones for non-CBP purposes, in order 
to ``provide transparency.''\24\
---------------------------------------------------------------------------
    \23\ Id. at 8
    \24\ Id. at 7.
---------------------------------------------------------------------------
             II. CURRENT PRIVACY SAFEGUARDS ARE INADEQUATE

    Current regulations permit civil organizations to operate a drone 
within the United States only pursuant to a special ``experimental'' 
designation.\25\ However, Government operators of drones do not have a 
similar restriction.\26\ Recent policy changes at the FAA, the 
administrative agency in charge of licensing both Governmental and non-
Governmental drones to operate in the National airspace, are designed 
to ``streamline'' the process by which Government agencies, including 
law enforcement, receive drone licenses.\27\
---------------------------------------------------------------------------
    \25\ See Fact Sheet, FAA, Unmanned Aircraft Systems (UAS) (Dec. 1, 
2010), available at http://www.faa.gov/news/fact_sheets/
news_story.cfm?newsid=6287 (``A Special Airworthiness Certificate in 
the Experimental Category is the only certification available to civil 
operators of UAS.'').
    \26\ See Id. (``The COA process is available to public entities, 
such as government agencies (including local law enforcement and state 
universities), who want to fly a UAS in civil airspace.'').
    \27\ See FAA Makes Progress with UAS Integration, Federal Aviation 
Administration, (May 14, 2012, 3:09 PM) http://www.faa.gov/news/
updates/?newsId=68004 (``The FAA has been working with its government 
partners to streamline COA procedures as part of the effort to ensure 
[drones] are safely integrated into the [national airspace system].'').
---------------------------------------------------------------------------
    The CBP currently operates drones with few regulations concerning 
privacy. No current legislation limits the visual surveillance that a 
DHS drone may engage in. And while the Privacy Act of 1974 expressly 
prescribes the circumstances under which agencies can retain personally 
identifiable information, the agency may still exempt itself from the 
Privacy Act provisions that limit the collection and use of personal 
information.\28\ DHS has not sought public comment on or published any 
specific rules or guidelines that restrict the surveillance practices 
of its drone program. Also, despite recent releases of records, the 
FAA's process for the application for and approval of a drone license 
are still mostly opaque, preventing any transparency or accountability 
for operators.\29\
---------------------------------------------------------------------------
    \28\ See e.g. 5 U.S.C.  552a(j) (allowing agencies to exempt 
themselves from maintenance requirements pursuant to law enforcement 
reasons).
    \29\ See FAA Releases Lists of Drone Certificates--Many Questions 
Left Unanswered, Electronic Frontier Foundation, (Apr. 19, 2012) 
https://www.eff.org/deeplinks/2012/04/faa-releases-its-list-drone-
certificates-leaves-many-questions-unanswered (listing information 
about the FAA's drone authorization process that remains unknown).
---------------------------------------------------------------------------
    There are substantial legal and Constitutional issues involved in 
the deployment of aerial drones by Federal agencies that need to be 
addressed. And, as we have noted, no legislation currently provides 
adequate safeguards to protect privacy rights against the increased use 
of drones in the United States.
    As drone technology becomes cheaper and more proliferate, the 
threat to privacy will become more substantial. High-rise buildings, 
security fences, or even the walls of a building are not barriers to 
increasingly common drone technology.
    The Supreme Court is aware of the growing risks to privacy 
resulting from new surveillance technology but has yet to address the 
specific problems associated with drone surveillance. In United States 
v. Jones, a case that addressed whether the police could use a GPS 
device to track the movement of a criminal suspect without a warrant, 
the Court found that the installation and deployment of the device was 
an unlawful search and seizure.\30\ Justice Sotomayor in a concurrence 
pointed to broader problems associated with new forms of persistent 
surveillance.\31\ And Justice Alito, in a separate concurrence joined 
by three other Justices, wrote, ``in circumstances involving dramatic 
technological change, the best solution to privacy concerns may be 
legislative.''\32\
---------------------------------------------------------------------------
    \30\ United States v. Jones, 132 S.Ct. 945, 949 (2012). See also 
U.S. v. Jones, EPIC, http://epic.org/amicus/jones/.
    \31\ Id. at 954-57.
    \32\ Id. at 964.
---------------------------------------------------------------------------
    As you have indicated, Mister Chairman, the privacy and security 
concerns arising from the use of drones needs to be addressed.\33\ 
Several of your colleagues in the House of Representatives have made 
efforts to address some of the privacy threats of drones, and we 
support these initiatives.
---------------------------------------------------------------------------
    \33\ Press Release, United States House of Representatives 
Committee on Homeland Security, A Look Ahead: House Committee on 
Homeland Security (July 13, 2012), available at http://
homeland.house.gov/press-release/look-ahead-house-committee-homeland-
security-34 (``However, no Federal agency is taking responsibility for 
creating comprehensive policies and regulations concerning the use of 
these systems domestically. Additionally, vulnerabilities to `drone' 
hackers exist, as recently demonstrated by researchers at the 
University of Texas, raising concerns these vehicles could be 
commandeered by terrorists or others with ill intent.'').
---------------------------------------------------------------------------
    An amendment to the National Defense Authorization Act of 2013, 
introduced by Congressman Jeff Landry (R-LA) and passed by the House, 
would prohibit information collected by drones operated by the 
Department of Defense from being used in court as evidence if a warrant 
was not obtained.\34\ In June, House Representative Austin Scott (R-FL) 
introduced legislation to expand this protection, requiring all law 
enforcement to first obtain a warrant before conducting any criminal 
surveillance.\35\ Also, Congressman Markey (D-MA) and Congressman 
Barton (R-TX) sent a letter to the FAA raising concerns about the 
increased use of drones in the United States, noting, ``there is . . . 
potential for drone technology to enable invasive and pervasive 
surveillance without adequate privacy protections.''\36\
---------------------------------------------------------------------------
    \34\ See H.R. 4310, 112th Cong.  1084 (2012), available at http://
www.gpo.gov/fdsys/pkg/BILLS-112hr4310rfs/pdf/BILLS-112hr4310rfs.pdf; 
see also Pete Kasperowicz, House Approves 20 en bloc Amendments to 
Defense Reauthorization, Including Satellite Language, the Hill (May 
17, 2012), available at http://thehill.com/blogs/floor-action/house/
228147-ndaa-update-1-house-approves-20-en-bloc-amendments-including-
satellite-language.
    \35\ Preserving Freedom from Unwarranted Surveillance Act of 2012, 
H.R. 5925, 112th Cong. (2012), available at http://thomas.loc.gov/cgi-
bin/query/z?c112:H.R.5925:.
    \36\ Letter from Congressmen Edward J. Markey and Joe Barton to 
Michael Huerta, Acting Federal Aviation Administration Administrator 
(Apr. 19, 2012) available at http://markey.house.gov/sites/
markey.house.gov/files/documents/4-19-12.Letter%20FAA%20Drones- 
%20.pdf.
---------------------------------------------------------------------------
    However, these measures are not sufficient to protect the myriad of 
privacy interests implicated by increased drone use.

   III. EPIC HAS URGED THE ADMINISTRATIVE ACTION TO ADDRESS DRONE USE

    The FAA has been directed by Congress to develop regulations in 
order to permit more widespread deployment of drones in the United 
States.\37\ The forthcoming regulations will address licensing and 
procedures for both public and private drone operators, including DHS 
and CBP. Experts, including Professor Ryan Calo, the former Director of 
Privacy and Robotics at the Center for Internet and Society at Stanford 
Law School, have noted that this effort will have significant privacy 
implications.\38\
---------------------------------------------------------------------------
    \37\ See FAA Modernization and Reform Act of 2012, Pub. L. 112-95  
324(c)(1) (2012), available at http://thomas.loc.gov/cgi-bin/query/
z?c112:H.R.658:.
    \38\ See, M. Ryan Calo, The Drone as a Privacy Catalyst, 64 Stan. 
L. Rev. Online 29 (2011), available at http://
www.stanfordlawreview.org/online/drone-privacy-catalyst; see also Ryan 
Calo and John Villasenor, Ten Myths About Drones, Huffington Post (May 
22, 2012), http://www.huffingtonpost.com/ryan-calo/drones-
myths_b_1537040.html; Drones Over America: What Can They See, NPR (Mar. 
12, 2012), available at http://www.npr.org/2012/03/12/148293470/drones-
over-america-what-can-they-see.
---------------------------------------------------------------------------
    Earlier this year, in a formal petition to the agency, EPIC urged 
the FAA to conduct a privacy rulemaking on the use of drones, with the 
aim of creating regulations to ensure baseline privacy protections.\39\ 
EPIC's petition was joined by more than 100 organizations, experts, and 
members of the public who also believe that drones should not be more 
widely deployed until privacy safeguards are established.\40\
---------------------------------------------------------------------------
    \39\ Petition from EPIC, et al., to Michael P. Huerta, Acting 
Administrator, FAA (Feb. 24, 2012), available at http://epic.org/
privacy/drones/FAA-553e-Petition-03-08-12.pdf [hereinafter EPIC 
Petition to FAA].
    \40\ Id.
---------------------------------------------------------------------------
    The FAA has thus far failed to respond to EPIC's request for agency 
action. The FAA's failure to act means that there is no framework in 
place that ensures that civilian operators and Federal agencies, such 
as DHS, utilize drone technology in a privacy-protective manner. To the 
extent that DHS, as well as other agencies, chooses to operate drones 
within the United States, we believe that the DHS should also develop 
appropriate regulations to safeguard privacy.
    Specifically, the Department of Homeland Security must utilize its 
Privacy Office, one of the most robust, well-funded Privacy Offices in 
the Federal Government. The Privacy Office at DHS ``conducts [Privacy 
Impact Assessments] on technologies, rulemakings, programs, and 
activities . . . to ensure that privacy considerations and protections 
are incorporated into all activities of the Department.''\41\
---------------------------------------------------------------------------
    \41\ Guide to Implementing Privacy, Department of Homeland Security 
(June 2010), http://www.dhs.gov/xlibrary/assets/privacy/
dhsprivacyoffice-guidetoimplementingprivacy.pdf at 14.
---------------------------------------------------------------------------
    However, despite a DHS component operating one of the largest, and 
definitely the most well-publicized drone fleet in the United States 
for the past 7 years, a Privacy Impact Assessment has never been 
conducted on the privacy impact of drone surveillance. At a minimum, we 
believe that if the CPB plans to continue the drone program, the DHS 
privacy office must assess the privacy impact of the program and 
publish a report for public review.

 IV. CONGRESS SHOULD ESTABLISH SAFEGUARDS RELATED TO THE USE OF DRONES

    There are several strategies to provide meaningful privacy 
protections that address the increased use of drones in our domestic 
skies. First, Congress should pass targeted legislation, based on 
principles of transparency and accountability. A first step would be 
the consideration and passage of Congressman Scott's bill to limit the 
use of drone surveillance in criminal investigations without a warrant.
    State and local governments have also considered laws and 
regulations to further prevent abuses of drone technology.\42\ These 
proposals would serve as a good basis for Federal legislation. Drone 
legislation should include:
---------------------------------------------------------------------------
    \42\ See, e.g., Erika Neddenien, ACLU Teams with Lawmaker to Push 
Regulation of Unmanned Drones in VA, WTVR (July 12, 2012) http://
wtvr.com/2012/07/12/aclu-working-with-lawmaker-to-push-regulation-of-
unmanned-drones-in-va/  (last visited July 16, 2012); Press Release, 
Seattle City Council, Seattle City Council Committee to Discuss Drones 
in Seattle and the Issues They Present (May 1, 2012), available at 
http://council.seattle.gov/2012/05/01/seattle-city-council-committee-
to-discuss-drones-in-seattle-and-the-issues-they-present/.
---------------------------------------------------------------------------
  <bullet> Use Limitations.--Prohibitions on general surveillance that 
        limit drone surveillance to specific, enumerated circumstances, 
        such as in the case of criminal surveillance subject to a 
        warrant, a geographically-confined emergency, or for reasonable 
        non-law enforcement use where privacy will not be substantially 
        affected;
  <bullet> Data Retention Limitations.--Prohibitions on retaining or 
        sharing surveillance data collected by drones, with emphasis on 
        identifiable images of individuals;
  <bullet> Transparency.--Requiring notice of drone surveillance 
        operations to the extent possible while allowing law 
        enforcement to conduct effective investigations. In addition, 
        requiring notice of all drone surveillance policies through the 
        Administrative Procedure Act.
    These three principles would help protect the privacy interests of 
individuals. In addition, the law should provide for accountability, 
including third-party audits and oversight for Federally-operated 
drones and a private right of action against private entities that 
violate statutory privacy rights.
    Second, Congress should act to expressly require Federal agencies 
that choose to operate drones, such as DHS and its components, to 
implement regulations, subject to public notice and comment, that 
address the privacy implications of drone use. Recently, in EPIC v. 
DHS, the D.C. Circuit Court of Appeals ruled that the Department of 
Homeland Security violated the Administrative Procedure Act when it 
chose to deploy body scanners as the primary screening technique in 
U.S. airports without the opportunity for public comment.\43\ The Court 
observed that there was ``no justification for having failed to conduct 
a notice-and-comment rulemaking.''\44\ We believe that the public has a 
similar right to comment on new surveillance techniques, such as 
unmanned aerial vehicles, undertaken by Federal agencies within the 
United States.
---------------------------------------------------------------------------
    \43\ See EPIC v. DHS, 653 F.3d 1 (D.C. Cir. 2011).
    \44\ Id. at 8.
---------------------------------------------------------------------------
    Finally, Congress must clarify the circumstances under which the 
drones purchased by the CBP in pursuit of its mission may be deployed 
by other agencies for other purposes. The failure to make clear the 
circumstances when Federal and State agencies may deploy drones for 
aerial surveillance has already raised significant concerns about the 
agency's program.\45\
---------------------------------------------------------------------------
    \45\ See Jason Koebler, First Man Arrested with Drone Evidence Vows 
to Fight Case, US News (Apr. 9, 2012), available at http://
www.usnews.com/news/articles/2012/04/09/first-man-arrested-with-drone-
evidence-vows-to-fight-case.
---------------------------------------------------------------------------
                             V. CONCLUSION

    The increased use of drones to conduct surveillance in the United 
States must be accompanied by increased privacy protections. We 
recognize that drone technology has the potential to be used in 
positive ways. For example, drones may be used to monitor for 
environmental abuse, prevent the spread of forest fires, and assist in 
the rescue of individuals in dangerous situations.\46\
---------------------------------------------------------------------------
    \46\ See, e.g., Tim Wall, Flying Drones Fight Fires, Discovery News 
(Nov. 10, 2011), available at http://news.discovery.com/earth/flying-
drones-fight-fires-111110.html; Meghan Keneally, Drone Plane Spots a 
River of Blood Flowing From the Back of a Dallas Meat Packing Plant, 
Daily Mail Online (Jan. 24, 2012), available at http://
www.dailymail.co.uk/news/article-2091159/A-drone-plane-spots-river-
blood-flowing-Dallas-meat-packing-plant.html; Sean Holstege, Drones' 
Good Flies Hand in Hand with Bad, Experts Fear, AZCentral (July 7, 
2012), available at http://www.azcentral.com/12news/news/articles/2012/
07/07/20120707arizona-unmanned-drones-concerns.html.
---------------------------------------------------------------------------
    However, the current state of the law is insufficient to address 
the drone surveillance threat. EPIC supports legislation aimed at 
strengthening safeguards related to the use of drones as surveillance 
tools and allowing for redress for drone operators who fail to comply 
with the mandated standards of protection. We also support compliance 
with the Administrative Procedure Act for the deployment of drone 
technology and limitations for Federal agencies and other organizations 
that initially obtain a drone for one purpose and then wish to expand 
that purpose.
    Thank you for the opportunity to testify today. I will be pleased 
to answer your questions.

    Mr. McCaul. Thank you, Ms. Stepanovich.
    Let me start first with Mr. Dillingham. You mentioned, as I 
did in my opening statement, TSA identified a potential 
terrorist threat through the use of these UAV systems, the FARC 
in Colombia, and they talk about Hezbollah. Then, of course, 
their concerns really came to fruition last September when it 
was reported by the Associated Press: Man to blow up Pentagon 
and U.S. Capitol is arrested, and this was a drone that he was 
going to use to do that.
    Mr. Dillingham. Yes, sir.
    Mr. McCaul. The United States Capitol and the Pentagon, the 
very targets of 9/11. Yet the Department and as you recommended 
through the GAO, the Department has a role in this to provide a 
security assessment and a National policy. The Department 
apparently disagrees with you and frankly disagrees with me as 
the Chairman, and has refused to provide testimony before this 
committee here today. I find that reprehensible. I believe the 
Department should come before this committee to answer why they 
believe they should not have a role in this, when they had a 
direct threat to the United States Capitol and the Pentagon, 
and yet they don't see it as a role of the Department of 
Homeland Security to come up with a policy and a security 
assessment to monitor the threat that these domestic drones can 
pose to the American people.
    Do you have any idea what their rationale is?
    Mr. Dillingham. Mr. Chairman, we specifically followed up 
in preparation for this hearing. But before that, the GAO has a 
policy of once we issue a recommendation that we do periodic 
follow-ups because those agencies are not only responsible for 
reporting to the GAO, but they also report to the Congress. So 
we followed up most recently and asked the TSA again about 
their position: Had their position changed? They indicated that 
their position had not changed, but they added--their added 
comments were that they were doing, they were taking actions 
that they thought were sufficient to address the issue.
    As you know, one of the central tenets of TSA's security 
are risk analysis or risk assessment so that they know where 
they would best deploy their resources. So we asked for some 
evidence of risk assessment that was done with regard to UAVs 
or UASs. We were not able to obtain that from DHS.
    So we still think that our recommendation is valid and 
needed to be addressed. For balance, though, let me say that 
DHS is participating with the Joint Planning and Development 
Office as part of the cross-Government-wide development for 
plans. But in terms of exactly what the nature and scope of 
that participation is beyond being members of that particular 
group, we were not able to ascertain at this point. But we 
continue to work that issue for our full report.
    Mr. McCaul. Well, I can't ascertain it either. If they 
won't come before this committee to describe what they are 
doing, how can we possibly know what they are doing? You said 
they have taken certain precautions, but yet they will not come 
before this committee to tell us what precautions they are 
taking. They have defied not only you but I think the will of 
this committee and the will of the American people. I am not 
pleased about that, obviously.
    Let me go to Chief McDaniel. You actually received Homeland 
Security grants to purchase these drones; is that correct?
    Chief McDaniel. That is correct.
    Mr. McCaul. But yet they have no role?
    Chief McDaniel. No, sir.
    Mr. McCaul. I hope you are saying that facetiously. You 
said you believe that there needs to be Federal oversight by 
the Department of Homeland Security; is that correct?
    Chief McDaniel. Yes, sir. There is a difference between the 
aviation aspect of it that certainly the FAA is entitled to as 
experts in that environment, but they do not have the 
understanding and the expertise that I believe an agency such 
as the DHS would have in understanding the operational roles 
and missions that, in our case, law enforcement would have and 
the needs that we would have.
    Mr. McCaul. I tend to agree with you. I think FAA provides 
the safety of the routes but not security.
    Tell me just very briefly the legitimate law enforcement 
purposes. I do believe there is a legitimate law enforcement 
purpose for the use of these domestically. Can you expand on 
that?
    Chief McDaniel. Well, we have periodic needs for our SWAT 
team to be called out and respond to critical incidents 
involving barricaded suspects, high-risk warrants, and this is 
an asset that provides that incident commander with a 
situational awareness to see everything that is going on within 
that incident so that he can better manage that incident and 
bring it to a safe conclusion.
    Mr. McCaul. I agree. I think it should be limited to a 
specific instance or mission within a legitimate law 
enforcement purpose. I think what most American people do not 
want to see are thousands of these drones being eyes of the 
skies, sort of spying on the American people.
    That takes me to you, Ms. Stepanovich. When it comes to the 
privacy issues, which I think are of legitimate concern, I 
think people can accept if these are being used for a manhunt, 
as we use law enforcement helicopters. They are used in the sky 
for various legitimate law enforcement purposes. What they 
don't want to see is sort of spying without any mission 
involved in the plan. So there is no policy.
    The Department of Homeland Security has an Office of 
Privacy. Don't you believe they should be involved in working 
with people like yourself and people like the sheriff and 
people like the GAO to develop a privacy policy?
    Ms. Stepanovich. EPIC does believe that. In fact, we 
believe that a great first step, DHS has the most robust 
privacy office in the Federal Government, and they have not 
even done a privacy impact assessment on their own drone 
program, which is also one of the most robust and definitely 
one of the most well-publicized programs in the Federal 
Government. So they have not even gone in to determine what 
impact these drones will have on the American public as they 
use them. We think that would be a great first step, and then 
after that has been completed, to really go in and to monitor 
these and determine what they can be used for and what they 
cannot be used for.
    Mr. McCaul. Let me just conclude by saying that while you 
all may not agree on all of the issues, one thing you do agree 
on is that DHS has a role here to play, whether it is providing 
a security analysis, working with the State and locals and with 
privacy. I hope this hearing gets their attention. I hope your 
testimony gets their attention to step up to the plate and do 
something about this.
    With that, I recognize the Ranking Member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Chief McDaniel, I am not saying by any stretch of the 
imagination you would do this, but just a question for you: If 
there was a law enforcement person, chief or other official, 
for instance, who wanted to replace the rubber bullets with 
real bullets, do you know of any State law, rule, regulation, 
that could stop anyone from doing that in place right now?
    Chief McDaniel. I am not aware of any law within the State 
of Texas that would prevent that; no, sir.
    Mr. Keating. I would suggest that that is probably typical 
for all States. Do you think that we should be looking at this 
both at the Federal and State level?
    Chief McDaniel. Certainly I can understand it as being a 
concern. The actuality of that ever occurring is slim and none, 
in my view, based upon the platform, the accuracy that would be 
required, all of those things that go into a lethal or less-
than-lethal-force situation. I do not believe these UAVs are 
appropriate for that type of a weapons platform.
    Mr. Keating. Thank you.
    A question for Ms. Stepanovich. I can just envision, 
probably in the more extreme example, the paparazzi or someone 
else--you know how they invade someone's privacy right now--
abusing these vehicles. Is there any way even besides criminal 
law and other law, is there a way that we could trace someone 
who is photographing or doing video cam work on people in their 
private lives out in their backyard or in front of a pool or 
wherever, is there any way we can trace that so there can be 
civil action? Do you think there is available civil action that 
could be brought forward?
    Ms. Stepanovich. On the State level, there could be civil 
action in some States. You would have to look to the Peeping 
Tom laws. However, some of those are very, very specific and 
they require the motivation to catch a person in a state of 
undress. Other than that, there really is no legislation that 
would address those circumstances. Right now with the opaque 
process for licensing these drones to be used and the fact that 
hobbyists can gain control of a drone and use it without 
getting a license at all, there is additional barriers too, 
especially the paparazzi using these.
    Mr. Keating. In addition to Homeland Security, do you 
believe the FAA should be involved in setting these kinds of 
regulations?
    Ms. Stepanovich. I believe the FAA has a role. It do not 
believe that they are set up to go the full distance that the 
Department of Homeland Security can go. However, they are the 
licensing authority, and in their authority they have the 
ability to request the description of what a drone is going to 
be licensed for and what they will be used for and to hold the 
licensee to task for that purpose. We don't believe that is 
taking place right now, and we think that would be an 
appropriate function of the FAA.
    Mr. Keating. I will just conclude by commenting that I 
agree with the Chairman as well. There is some need of some 
kind of oversight because people's privacy rights are in 
danger. There is a potential for terrorist activities that are 
involved and misuse that way. There should be some kind of 
control other than the good common sense of law enforcement as 
to how this is used as well. We are hopeful we can follow up 
this hearing with that kind of input from Homeland Security and 
perhaps FAA.
    Mr. McCaul. I thank the Ranking Member for his comments.
    The Chairman now recognizes Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. I do want to follow 
up. I think we do need a hearing with the FAA to bring them 
forward and ask questions about what they are doing to 
implement permitting and certificates in this country with the 
flying of unmanned aerial systems because we have got a robust 
civilian aviation population in this country. If you have 
visual flight rules and you have got a civilian aviator that 
goes up in his Cessna 172, he is not filing a flight plan. He 
is generally currently probably not looking to see if there is 
a certificate whether the sheriff is flying a drone in the 
area. These drone pilots, they are not looking forward for 
other aircraft in their air space, they are looking down at 
whatever they are surveilling. So I think there is a real 
threat to civilian aviation with unmanned aerial systems, 
especially if we see a dramatic increase that is projected 
based upon the information that has been provided today. So I 
think that is a valid question that we need to talk with the 
FAA about with regard to civilian aviation and VFR flight 
rules.
    The gist of my concern about drones and unmanned aerial 
systems is the privacy issue. It is a real issue and it is a 
real concern to the constituents I represent and it is a real 
concern to Americans all across this great land on what the 
Government is surveilling. We just had recently an episode in 
Nebraska where farmers were upset that the EPA was flying 
aircraft and possibly UAVs to check their fencing and whether 
their cattle were getting into streams, and enforcement issues, 
are they going to use UASs for that going forward. I am a 
cosponsor of Austin Scott's bill, which I think is an important 
piece of legislation.
    When I think about privacy issues, I think about what we 
have done in the war on terror and surveillance of people that 
we suspect are involved in terrorism. In order to listen in on 
their phone conversations, whether cell phone or landline, the 
FISA court is involved. Well, is the FISA court going to be 
involved in unmanned aerial systems surveilling American 
citizens in this country on what their activities are, whether 
it is terrorist activities or narcotic activities? Where is the 
right of privacy and where does a court such as FISA get 
involved in this?
    I think these are legitimate questions that we need to ask. 
We have an Office of Privacy within Homeland Security that the 
Chairman mentioned earlier. That Office of Privacy is there for 
a reason. It is to make sure that the Department of Homeland 
Security is involved in making sure that the privacy rights of 
American citizens are not violated as we try to protect this 
great country. Is that Office of Privacy involved with the 
Department of Homeland Security with regard to unmanned aerial 
systems?
    I think it is a valid question for us to ask, and I want to 
thank Amie for being here. I want to ask you: What methods of 
civil liberty protection are best to cooperate with this growth 
in UAS?
    Ms. Stepanovich. We think that the best principles to 
always look at are transparency and accountability. So we are 
looking at, again, procedures at FAA to make sure that drone 
operators aren't allowed to utilize their drones for purposes 
outside of what they have initially been licensed for. We want 
to see DHS implement regulations protecting privacy and 
ensuring that they cannot be used for generalized surveillance. 
We think that that is not in line with Constitutional 
principles and should not be used. Then we would like to see, 
as we have proposed in our longer statement, legislation that 
is really geared towards protecting these rights. We think that 
it is important to do this now, as previous witnesses have 
stated. Violations have not occurred yet, and if we wait for 
the drones to go up in the air before we act, I think that we 
are going to regret it.
    Mr. Duncan. Well, thank you for protecting civil liberties 
in this country and what you are doing.
    I come from South Carolina. We are on the coast. There is 
the threat of hurricanes. I can see and understand a 
certificate is issued for, whether it is the EPA or whether it 
is Homeland Security or some organization, to fly the coastline 
prior to a hurricane coming in to assess changes in the 
environment, take real-time actual aerial photos that can be 
used. I can understand a certificate being issued for Custom 
and Border Patrol if they know that there is an area of the 
border that is being exploited, a one-time certificate. I can 
understand the need for some sort of privacy committee to issue 
those certificates. I can understand a one-time certificate or 
a temporary certificate being issued to a sheriff if you had a 
prison break or you had a lot of drug activity. But these are 
isolated incidents. They are not carte blanche flying of 
unmanned aerial systems across this country.
    Mr. Dillingham, why has the Department of Homeland Security 
been so slow to develop policies and guidance related to the 
domestic use of drones?
    Mr. Dillingham. That is a good question, sir. We have not 
been able to get an answer from DHS or TSA why they have not 
followed our recommendations.
    We have been told by many stakeholders that it is better to 
act on these potential issues before we have a crisis or before 
some of these things occur because oftentimes not only does it 
take regulations 2 or 3 years to be enacted, but oftentimes 
when regulations are enacted in a crisis situation, sometimes 
they are not the best work that the agencies do. So we continue 
to follow-up with DHS and point out that we think they have a 
role in the UAV situation as well, both in terms of privacy as 
well as security.
    Mr. Duncan. Well, I don't want to wait for a crisis 
situation. If I know this Chairman as well as I think I know 
him, I believe we will have the Department of Homeland Security 
sitting where you are sitting to answer these tough questions, 
and I yield back.
    Mr. McCaul. I thank the gentleman for his confidence in his 
Chairman. Let me just say that not only have they been slow, 
they have completely disregarded Mr. Dillingham and the GAO and 
they have defied this committee by refusing to testify on the 
issue, indicating that they have no role, no role whatsoever in 
the domestic use of UAVs.
    With that, I now recognizes Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. Let me add 
my voice to that of my colleague about concern with respect to 
DHS and their response to this committee. Clearly this is an 
emerging threat, and it is certainly within the jurisdiction of 
DHS to respond to this committee, this subcommittee, in its 
request to know where they stand with regards to this. It is 
not acceptable to not participate, to not share with us their 
thinking when you think about the implications of these 
devices.
    Dr. Dillingham, you note in your testimony that currently 
no Federal agency has specific statutory responsibility to 
regulate privacy matters related to UAS. Do you agree with Ms. 
Stepanovich that the responsible agency should be DHS? In your 
opinion, which agency is best positioned to take this on, and 
why?
    Mr. Dillingham. I think our answer at this point is we are 
probably not in a position to say who should be responsible, 
but we think the process that is under way now in terms of the 
potential agencies, including Justice, Homeland Security, FAA, 
should be working together to figure out who in fact is going 
to take the lead in these particular areas. It is in no one's 
mission at this point because UASs didn't exist in the domestic 
area before not too long ago, so we think this is something for 
collaboration and cooperation, but definitely something that 
needs to be attended to now rather than later.
    Ms. Clarke. Ms. Stepanovich, do you agree?
    Ms. Stepanovich. We do agree, and we agree that as other 
agencies implement drones in the United States, we think that 
those agencies should also take on a role in regulating and 
protecting the privacy of the people who may come under 
surveillance because of those operations.
    Ms. Clarke. Ms. Stepanovich, the organization representing 
UAV manufacturers and operators recently released an industry 
code of conduct. That included some privacy safeguards. 
Moreover, compliance with the guidelines is both voluntary and 
unenforceable. Although the attempt to address concerns in that 
manner was laudable, can you explain why official action with 
enforcement is necessary?
    Ms. Stepanovich. I am holding the voluntary code of conduct 
right here. It is 1 page front and back. All they say on 
privacy is we will respect the privacy of individuals. As you 
mentioned, it is both voluntary and nonenforceable. We believe 
that without official action, if everything comes down to that 
one line on this 1 page, that privacy will not be sufficiently 
protected.
    [The information follows:]

   Association for Unmanned Vehicle Systems International: Unmanned 
        Aircraft System Operations Industry ``Code of Conduct''

    The emergence of unmanned aircraft systems (UAS) as a resource for 
a wide variety of public and private applications quite possibly 
represents one of the most significant advancements to aviation, the 
scientific community, and public service since the beginning of flight. 
Rapid advancements in the technology have presented unique challenges 
and opportunities to the growing UAS industry and to those who support 
it. The nature of UAS and the environments which they operate, when not 
managed properly, can and will create issues that need to be addressed. 
The future of UAS will be linked to the responsible and safe use of 
these systems. Our industry has an obligation to conduct our operations 
in a safe manner that minimizes risk and instills confidence in our 
systems.
    For this reason, the Association for Unmanned Vehicle Systems 
International (AUVSI), offers this Code of Conduct on behalf of the UAS 
industry for UAS operation. This code is intended to provide our 
members, and those who design, test, and operate UAS for public and 
civil use, a set of guidelines and recommendations for safe, non-
intrusive operations. Acceptance and adherence to this code will 
contribute to safety and professionalism and will accelerate public 
confidence in these systems.
    The code is built on three specific themes: Safety, 
Professionalism, and Respect. Each theme and its associated 
recommendations represent a ``common-sense'' approach to UAS operations 
and address many of the concerns expressed by the public and 
regulators. This code is meant to provide UAS industry manufacturers 
and users a convenient checklist for operations and a means to 
demonstrate their obligation to supporting the growth of our industry 
in a safe and responsible manner. By adopting this Code, UAS industry 
manufacturers and users commit to the following:

                                 SAFETY

  <bullet> We will not operate UAS in a manner that presents undue risk 
        to persons or property on the surface or in the air.
  <bullet> We will ensure UAS will be piloted by individuals who are 
        properly trained and competent to operate the vehicle or its 
        systems.
  <bullet> We will ensure UAS flights will be conducted only after a 
        thorough assessment of risks associated with the activity. This 
        risks assessment will include, but is not limited to:
    <bullet> Weather conditions relative to the performance capability 
            of the system.
    <bullet> Identification of normally anticipated failure modes (lost 
            link, power plant failures, loss of control, etc) and 
            consequences of the failures.
    <bullet> Crew fitness for flight operations.
    <bullet> Overlying airspace, compliance with aviation regulations 
            as appropriate to the operation, and off-nominal 
            procedures.
    <bullet> Communication, command, control, and payload frequency 
            spectrum requirements.
    <bullet> Reliability, performance, and airworthiness to established 
            standards.

                            PROFESSIONALISM

  <bullet> We will comply with all Federal, State, and local laws, 
        ordinances, covenants, and restrictions as they relate to UAS 
        operations.
  <bullet> We will operate our systems as responsible members of the 
        aviation community.
  <bullet> We will be responsive to the needs of the public.
  <bullet> We will cooperate fully with Federal, State, and local 
        authorities in response to emergency deployments, mishap 
        investigations, and media relations.
  <bullet> We will establish contingency plans for all anticipated off-
        nominal events and share them openly with all appropriate 
        authorities.

                                RESPECT

  <bullet> We will respect the rights of other users of the airspace.
  <bullet> We will respect the privacy of individuals.
  <bullet> We will respect the concerns of the public as they relate to 
        unmanned aircraft operations.
  <bullet> We will support improving public awareness and education on 
        the operation of UAS.
    As an industry, it is incumbent upon us to hold ourselves and each 
other to a high professional and ethical standard. As with any 
revolutionary technology, there will be mishaps and abuses; however, in 
order to operate safely and gain public acceptance and trust, we should 
all act in accordance with these guiding themes and do so in an open 
and transparent manner. We hope the entire UAS industry will join AUVSI 
in adopting this industry Code of Conduct.

    Ms. Clarke. Is there a particular downside for the 
manufacturers in not providing a much more robust code of 
conduct?
    Ms. Stepanovich. Many privacy experts, including Ryan Calo, 
a former professor at Stanford and an expert in privacy and 
robotics, has said that people in the United States will be 
very hesitant to accept the adoption of this technology if 
privacy safeguards are not put into place prior to the adoption 
of it. So we believe that if we don't address this now, that 
there will actually be a visceral reaction from the American 
public and that we will not be able to comply with the spirit 
of the FAA act which requires that drones be allowed into the 
United States National airspace.
    Ms. Clarke. So from a commercial use standpoint or even a 
local law enforcement standpoint, is it within the best 
interest of manufacturers to strengthen their code of conduct?
    Ms. Stepanovich. We believe it is not only in the best 
interest for them to strengthen the code of conduct, it is also 
in their best interest to support large-scale legislation and 
regulations related to privacy.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I yield 
back.
    Mr. McCaul. I thank the gentlelady.
    The Chairman now recognizes Mr. Billy Long from Missouri.
    Mr. Long. Thank you, Mr. Chairman.
    Any of you can answer. Can you define a drone for me? Is 
there a certain size or certain altitude that it flies at? What 
constitutes what we are trying to deal with?
    Mr. Dillingham. I guess I will try and start. It varies, 
sir. It varies from hand-held model airplane types to the ones 
that we are most familiar with in terms of the Predators and 
the Global Hawks that are used mostly in the war theater.
    What we are talking about here for the most part are what 
is called the small UAVs, which is what FAA is trying to 
develop a rule for, and that is I think less than 55 pounds and 
relatively small in size.
    Mr. Long. A flying trash can, are you familiar with that?
    Mr. Dillingham. I have heard that phrase before. It could 
be the size of a flying trash can, or it could be the size of a 
hummingbird.
    Mr. Long. I thought you said 55 pounds?
    Mr. Dillingham. Right. But I am saying it varies in size, 
the small UAV rule that is being worked refers to that size, 55 
and down.
    Mr. Long. Okay. I know that the flying trash cans, 
originally when they were developed, I think part of their 
thought process was to use them for police work. If you are in 
a neighborhood and you are chasing a suspect through several 
buildings or whatever where they can fly that over at a fairly 
low altitude. But I just had a question on that.
    To answer Mr. Duncan's question, or part of it, maybe not 
answer it but I think that the Transportation and 
Infrastructure Committee has tried to tackle the problem of 
getting in general airspace, general aviation, and also FAA 
airspace. So I think that that is a separate issue that 
hopefully we are trying to handle on that angle.
    Generally, to the sheriff, it has always been my 
understanding that anything that can be seen by anyone driving 
down the street, flying a helicopter I guess I would say, but 
if you are driving down the street and a guy is sitting on his 
lawn smoking marijuana, then you have a right to arrest that 
man, correct?
    Chief McDaniel. That is correct, sir. Yes.
    Mr. Long. If he is in his backyard and he has a privacy 
fence, you are not allowed to go put a ladder up and look over 
the fence, are you, because that is not available to people?
    Chief McDaniel. The norm is to be able to view it from what 
the public can see.
    Mr. Long. Okay. That is kind of where I was going--that was 
my hillbilly way of getting there, I guess.
    At 30,000 feet or whatever, we always think of the Predator 
drones that are armed of course that have been successful in a 
lot of military operations, but my constituents and I think a 
lot of constituents across the country are concerned with that 
type of surveillance, albeit they are not armed. You can't see 
them. You can't hear them, but that is a whole different level, 
isn't it, than what we were talking about a second ago, being 
able to see what you can normally see?
    Chief McDaniel. Certainly the utilization of a UAV up over 
an area would open it up to view for law enforcement or any 
other governmental entity.
    Mr. Long. These small ones that we are talking about here 
today, the 55 pounds and below, the flying trash cans, I have 
seen those. I think that they would be fairly apparent to 
people. I have not seen one operate. I have seen them on the 
shelf where they develop them, but as far as the sounds that 
they put out and things like that, most of those, are people 
going to be able to acknowledge there is something flying up 
over their farm or their house, looking to see if you are 
shooting doves?
    Chief McDaniel. Yes, sir. That is an excellent point. The 
UAVs that public safety agencies, law enforcement, and fire 
departments are using or looking to utilize are not the Global 
Hawk or the Predator at $20 million or $30 million a copy. 
These are very small in stature. The maximum time aloft on our 
Shadow Hawk is 2 hours and 20 minutes.
    Mr. Long. At what altitude?
    Chief McDaniel. At no more than 400 feet above ground 
level.
    Mr. Long. So privacy concerns would be a little bit 
alleviated I would assume with that type?
    Chief McDaniel. Absolutely. At that altitude and the type 
of engine that it has, it sounds like a very powerful weed 
eater, and you will be able to notice that it is above.
    Mr. Long. Maybe you could make a weed eater out of one of 
them. That would be kind of handy.
    Mr. Chairman, the Department of Homeland Security will not 
testify before this subcommittee, the Department of Homeland 
Security; is that correct?
    Mr. McCaul. That is correct.
    Mr. Long. I rest my case.
    Mr. McCaul. Thanks for the point well taken, and I will 
close on that as well.
    The Chairman now recognizes for the third time in this 
hearing Mr. Cuellar from Texas.
    Mr. Cuellar. Thank you very much. It is refreshing to hear 
my good Republican friends talk about civil liberties. Thank 
you, I appreciate that. But one more thing on the EPA story by 
Fox, Fox actually took that back. It was not a UAV, it was 
actually aircraft that they have been flying for the last 10 
years under both Democratic and Republican Presidents, just to 
make that sort of correction.
    Let me say this. I have a border sheriff who happens to be 
my brother. I have got three peace officers, and I believe that 
if there is going to be evidence collection techniques, I would 
assume that your jurisdiction or as a sheriff, you have certain 
procedures as law enforcement to follow that; is that correct?
    Chief McDaniel. That is correct, sir.
    Mr. Cuellar. If someone violates that, I would assume that 
they would be liable for not following that; is that correct?
    Chief McDaniel. Yes, sir.
    Mr. Cuellar. Okay. Having three peace officers in my 
family, I put a lot of trust in law enforcement on that. Even 
though there are some bad apples, you still have to follow the 
Constitution; is that correct?
    Chief McDaniel. Absolutely.
    Mr. Cuellar. Talking about the Constitution, there is the 
Fourth Amendment of the U.S. Constitution that prohibits 
unreasonable searches and seizures and requires search warrants 
to be based on probable cause, and the Supreme Court has 
already interpreted different cases. For example, talking about 
aircraft--and keep in mind that the Supreme Court has already 
talked about using cameras on aircraft. This time it is a 
different platform. It happens to be UAVs. For example, just to 
make sure we all understand, the Supreme Court has said that 
there is an expectation of privacy. When it is inside the 
house, it is a different type of privacy. Once you go outside 
the house, there is a different type of privacy. A business has 
less expectation of privacy than inside the home, and the 
Supreme Court has talked about the open field doctrine, and I 
believe you understand what I am talking about here. You are 
familiar with the Dow Chemical Company v. The United States. I 
am sure you are also familiar with the open fields doctrine of 
California v. Serrano case. The Supreme Court held that the 
police did not have to obtain a search warrant when observing a 
person's backyard or curtilage from an airplane more than 1,000 
feet above the air; is that correct? That is what the Supreme 
Court held.
    Also, the court also defined aerial searches in Florida v. 
Riley that said, and Chief, you mentioned the 400 feet, I think 
we mentioned the 400 feet, that held that police officers do 
not need a search warrant when they are flying a helicopter 
above 400 feet. So in this case a different type of platform, 
but if you are flying above 400 feet, no search warrant. But if 
you are flying below 400 feet, and I believe most of the law 
enforcement and most of those UAVs will be at 400 feet or 
below. So, therefore, if you are flying at 400 feet in 
altitude, then at that time you would need a search warrant, 
whether you use a helicopter or UAV, probably not an airplane. 
So the Supreme Court has already laid out the law on what it 
is.
    Now, I do agree with my colleagues here that we probably 
need to look at some legislation but as we draft the 
legislation, we got to keep in mind that the Supreme Court has 
already defined open doctrine, home business, and certain 
expectations; is that correct?
    Chief McDaniel. Yes, sir, that is absolutely correct. As 
far as case law is, in my view and from those I have talked 
with, there is no difference between establishing a separate 
type of case law for UAVs. The manned aircraft component is 
nothing more than an aircraft with people in it compared to a 
UAV that has them on the ground. The case law is the same 
because they are both aircraft, air assets.
    Mr. Cuellar. In the Dow Chemical Company v. The United 
States, it involved airborne use of thermal imaging. So here is 
another case where technology is being used. Again, I am one of 
those that is fascinated by the UAVs; but at the same time I do 
understand there are concerns. The doctor that just testified, 
I looked at his recommendations and they are very, very good 
recommendations, and I think we need to look at those 
recommendations. But all I am saying, Members, there is already 
some case law on this. The Supreme Court has ruled on this. If 
we do any legislation, I just say let's look at the legislation 
of the Supreme Court. Let's use some common sense in applying 
some of this, and put a little trust in our law enforcement, 
which I appreciate, and having three brothers and having one 
who is a border sheriff, I appreciate the work that you all do.
    Thank you very much, Mr. Chairman.
    Mr. McCaul. I thank the gentleman.
    In closing, let me thank the witnesses for being here. As a 
former Federal prosecutor, I understand--is there somebody I 
missed? Oh, my goodness, Mr. Davis from Illinois, I sincerely 
apologize.
    Mr. Davis. I really don't have a lot to ask, but let me 
ask, Dr. Dillingham, you mentioned in your testimony something 
about using the instruments to jam signals and that that could 
become a problem and the use. Would you mention that a little 
bit more?
    Mr. Dillingham. Yes, sir. One of the emerging issues that 
we have identified is the potential that the signals that 
control these UAVs in flight, and we are again talking about 
the small ones as opposed to the encrypted DOD-type, could in 
fact be jammed and break command-and-control links with the 
UAV, meaning that the UAV could go off-course, not 
necessarily--or could include being taken control over, but 
clearly breaking that command-and-control link with the 
appropriate persons or organizations that were controlling it. 
It is something that needs to be addressed now before we have 
these potentially serious kinds of incidents.
    Mr. Davis. Thank you very much. Let me ask you, Chief 
McDaniel, the data that is collected, could you describe what 
kind of data it is? What is it used for and how long is it 
kept? Would the individuals have any idea that this data may be 
collected that involves them?
    Chief McDaniel. The only data that we are collecting off of 
our Shadow Hawk is color video. We can convert that to both 
still photographs or video. Depending upon the situation, we 
would obviously store that video for criminal purposes; i.e., 
if our SWAT team is going in on an individual or it is a high-
risk warrant, we would also have that video or those 
photographs preserved as evidence. It does have a FLIR system, 
a forward looking infrared camera system, that can identify 
heat sources in low-light conditions. However, the idea behind 
that was more for searching for lost persons in our National 
forests to more readily be able to identify them.
    Mr. Davis. Let's say you got a tip that a farmer was using 
some of his or her acreage and they had a little plot of 
marijuana growing and you wanted to check that out with one of 
these vehicles. Would there be a way to do that without 
acquiring a search warrant, or would you be within--and I am 
going to ask you, Ms. Stepanovich, when he finishes, how would 
you handle a situation like that?
    Chief McDaniel. Well, as indicated earlier, the Supreme 
Court in 1924 established the open fields doctrine which allows 
for things to be observed that the majority of the public could 
see. In responding to the example that you present, the reality 
is, and this is based upon law enforcement, investigation 
techniques, et cetera, utilizing this drone to try to observe a 
marijuana field would not be appropriate. It would not be a 
good investigative tool, A, because of the constraints that the 
FAA puts on the use of UAVs by law enforcement agencies, flying 
no higher than 400 feet AGL, and because of the noise and the 
size of it.
    So if we are trying to investigate whether there is a 
marijuana field to continue with our investigation and to 
ultimately arrest suspects, the UAV is not it.
    Mr. Davis. Ms. Stepanovich, are you comfortable that enough 
attention is being given to the individual rights and civil 
liberties of citizens given the use of this type of 
surveillance?
    Ms. Stepanovich. I am not sure if ``comfortable'' would be 
the right term. We do respect the fact that law enforcement at 
this time does not expect to use drones for broad and 
untargeted access. We respect the Supreme Court precedent that 
Representative Cuellar had referred to that allows for aerial 
surveillance in ``open fields.''
    However, recently the Supreme Court did investigate a case 
of in U.S. v. Jones of police using GPS without a warrant to 
track a suspect. Drones allow for the same type of pervasive 
and very intensive surveillance that GPS allows for. In that 
case Justice Alito wrote a very eloquent dissent saying, and I 
quote: ``In circumstances involving dramatic technological 
change, the best solution to privacy concerns may be 
legislative.'' We agree with Justice Alito in that case, and we 
believe that drones represent a similar jump in technology from 
normal tracking of an individual with a policeman in a police 
car, as drones respect to aerial tracking in a helicopter or 
airplane.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman, for a very interesting hearing, 
and I yield back.
    Mr. McCaul. Thank you, Mr. Davis. I apologize again for my 
oversight. Speaking of oversight, this has been a real 
productive hearing and very insightful.
    Let me just close by saying as a former Federal prosecutor, 
I recognize the value of--legitimate law enforcement value of 
technology. I think as with technology, we have to balance 
privacy and security. Obviously, the Fourth Amendment applies 
here. The case law, as Mr. Cuellar has set forth, is there. I 
have studied it in my prior career. But this is an evolving 
field. We have thousands of these things that could be deployed 
in the skies now. Over the next couple of years, we may see 
more than a couple of thousand, maybe 10,000 of these things. I 
think it is incumbent upon the Department of Homeland Security 
to come up with a policy, to come up with a security analysis.
    I think the one thing that we can all agree on, 
interestingly on both sides of the aisle on this committee, 
both Republicans and Democrats, and I think all three of these 
witnesses agree on one thing, and that is that DHS has a role. 
I think Mr. Dillingham and GAO stated it 4 years ago. Chief 
McDaniel, you stated it in your testimony here today. I think 
local law enforcement does need that guidance. I think, Ms. 
Stepanovich, you as a privacy expert, the Office of Privacy 
within DHS should be involved in this issue.
    So I hope that we can all walk away from here with that 
common goal and understanding, and I sure hope that this wakes 
up the Department, that they need to step up to the plate and 
do something.
    With that, I want to thank the witnesses. This has been a 
very insightful, productive hearing, and I thank the Members 
also for their questions. Thanks so much, and this hearing now 
is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
